No. 19In the

Supreme Court of the United States
JAMIL ABDULLAH AL-AMIN,
Petitioner,
v.
WARDEN, COMMISSIONER, GEORGIA
DEPARTMENT OF CORRECTIONS,
Respondent.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Eleventh Circuit

PETITION FOR A WRIT OF CERTIORARI
Miles J. A lexander
Counsel of Record
C. A llen Garrett Jr.
Joe P. Reynolds
Kilpatrick Townsend
& Stockton LLP
1100 Peachtree Street, NE,
Suite 2800
Atlanta GA 30309-4528
(404) 815-6500
malexander@ktslaw.com
Counsel for Petitioner
292127

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED
Under Brecht v. Abrahamson, a federal court
cannot grant habeas relief unless a constitutional error
had a “substantial and injurious effect or influence in
determining the jury’s verdict.” 507 U.S. 619, 638 (1993).
But “in an unusual case, a deliberate and especially
egregious error of the trial type, or one that is combined
with a pattern of prosecutorial misconduct, might so infect
the integrity of the proceeding as to warrant the grant of
habeas relief, even if it did not substantially influence the
jury’s verdict.” Id. at 638 n.9 (citation omitted).
Here, every reviewing court has held the Prosecution
deliberately violated Mr. Al-Amin’s Fifth Amendment
rights when it engaged in a lengthy “mock crossexamination” of him during closing arguments. The
Eleventh Circuit and the district court also agreed the
Prosecution engaged in further misconduct by telling
the jury “[d]on’t stand for him,” a “patently improper”
comment on Mr. Al-Amin’s religiously based decision not
to stand when the judge or jury entered the courtroom.
And the court of appeals found Mr. Al-Amin presented a
“substantial defense,” with the district court cataloging
the evidence that could have supported acquittal and
describing the crime scene evidence as a “mishmash of
inconsistencies.” But the courts below still denied habeas
relief under Brecht.
The questions presented are:
1. Did the Eleventh Circuit, which stated its “regret”
for being unable to “provide Mr. Al-Amin relief in the face
of the prosecutorial misconduct that occurred at trial,”

ii
improperly determine that the Prosecution’s pattern of
deliberate and egregious improper comments in closing
arguments did not satisfy Brecht’s “unusual case”
exception?
2. Did the Eleventh Circuit improperly excuse the
Prosecution’s Fifth Amendment violations as “harmless
error” under Brecht?

iii
RULE 14.1(b)(iii) STATEMENT
This case challenges the same criminal conviction as
the following actions:
In State v. Al-Amin, No. 00-SC-03563 (Ga. Super. Ct.,
Fulton Cty.), the jury returned a guilty verdict on March
9, 2002, and Mr. Al-Amin was sentenced to life without
the possibility of parole on March 13, 2002. The state trial
court denied Mr. Al-Amin’s amended motion for new trial
on July 2, 2003.
The Georgia Supreme Court issued its opinion in the
direct appeal affirming the verdict and sentence on May
24, 2004. Al-Amin v. State, No. S04A0151 (Ga.).
This Court denied Mr. Al-Amin’s petition for a writ
of certiorari in his direct appeal on November 15, 2004.
Al-Amin v. Georgia, No. 04-6606, 543 U.S. 992.
In Al-Amin v. Smith, No. 2005-HC-66 (Ga. Super. Ct.,
Tattnall Cty.), the state court denied Mr. Al-Amin’s state
habeas petition by Final Order entered on July 28, 2007.
The Georgia Supreme Court denied Mr. Al-Amin’s
application for a certificate of probable cause to appeal
the denial of his state habeas petition on May 7, 2012. No.
S12H0007 (Ga.).
Mr. Al-Amin filed his federal habeas petition in the
United States District Court for the District of Colorado
(where he was incarcerated at the time), but that Court
transferred the habeas action to the United States District
Court for the Northern District of Georgia on May 15,

iv
2012. Al-Amin v. Davis, No. 1:12-cv-01197-BNB, 2012
WL 1698175 (D. Colo.).
The magistrate judge in the United States District
Court for the Northern District of Georgia issued a Report
and Recommendation and Final Order in Mr. Al-Amin’s
federal habeas action on May 24, 2016. The district court
judge issued an Order overruling Mr. Al-Amin’s objections
to the magistrate judge’s Report and Recommendation
and denying his habeas petition on September 29, 2017.
Al-Amin v. Shartle, No. 12-CV-1688-AT-GGB (N.D. Ga.).
The United States Court of Appeals for the Eleventh
Circuit affirmed the district court’s denial of Mr. AlAmin’s habeas petition on July 31, 2019. Al-Amin v.
Warden, No. 17-14865 (11th Cir.).
Mr. Al-Amin has filed a successive state habeas action,
presenting a Brady claim based on information produced
after the conclusion of his first state habeas action, that
remains pending. Al-Amin v. Georgia, No. HC00999 (Ga.
Super. Ct., Fulton Cty. filed Sept. 21, 2016).

v
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
RULE 14.1(b)(iii) STATEMENT . . . . . . . . . . . . . . . . . .  iii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . v
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . . vi
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . vii
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
RELEVANT CONSTITUTIONAL PROVISIONS  . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 2
REASONS FOR GRANTING THE PETITION . . . . 18
A. The court of appeals erred in finding
the egregious and deliberate violation of
Mr. Al-Amin’s Fifth Amendment rights
did not warrant relief under Brecht’s
“unusual case” exception.  . . . . . . . . . . . . . . . . . . 19
B. The court of appeals erred in ruling
the Prosecution’s violation of Mr. AlAmin’s Fifth Amendment rights did not
result in actual prejudice. . . . . . . . . . . . . . . . . . . 26
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35

vi
TABLE OF APPENDICES
Page
APPENDIX A — OPINION OF THE UNITED
STAT ES COU RT OF A PPEA LS FOR
T H E ELE V EN T H CI RCU I T, FI LED
JULY 31, 2019 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1a
A PPEN DI X B — OR DER OF T H E
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF
GEORGIA, ATLANTA DIVISION, FILED
SEPTEMBER 29, 2017 . . . . . . . . . . . . . . . . . . . . . . . 22a
A PPENDI X C — FINA L REPORT A ND
RECOMMENDATION AND ORDER OF
THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF
GEORGIA, ATLANTA DIVISION, FILED
MARCH 24, 2016 . . . . . . . . . . . . . . . . . . . . . . . . . . . .  57a
A ppendix D — O R D E R D E N Y I N G
A P PL ICAT ION F OR C ERT I F ICAT E
O F P R O B A B L E C A U S E of the
SU PR EM E C OU RT OF GEORGI A ,
DATED May 07, 2012  . . . . . . . . . . . . . . . . . . . . . .  101a
A P P E N DI X E — O P I N ION OF T H E
SUPREME COURT OF GEORGIA, DATED
MAY 24, 2004 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 103a

vii
TABLE OF CITED AUTHORITIES
Page
Cases
Anderson v. Nelson,
390 U.S. 523 (1968) . . . . . . . . . . . . . . . . . . . . . 18, 28, 29
Berger v. United States,
295 U.S. 78 (1935) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
Brady v. Maryland,
373 U.S. 83 (1963)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Braithwaite v. State,
572 S.E.2d 612 (Ga. 2002) . . . . . . . . . . . . . . . . . . . . . . 24
Brecht v. Abrahamson,
507 U.S. 619 (1993)  . . . . . . . . . . . . . . . . . . . . . . . passim
Chapman v. California,
386 U.S. 18 (1967) . . . . . . . . . . . . . . . . . . . . . . . . passim
Darden v. Wainwright,
477 U.S. 168 (1988)  . . . . . . . . . . . . . . . . . . . . . . . . 21, 22
Darden v. Wainwright,
513 F. Supp. 947 (M.D. Fla. 1981)  . . . . . . . . . . . . . . . 22
Donnelly v. DeChristoforo,
416 U.S. 637 (1974) . . . . . . . . . . . . . . . . . . . . . . 20, 21, 22
Doyle v. Ohio,
426 U.S. 610 (1976)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

viii
Cited Authorities
Page
Gongora v. Thaler,
710 F.3d 267 (5th Cir. 2013)  . . . . . . . . . . . . . . . . . 29, 30
Gongora v. Thaler,
726 F.3d 701 (5th Cir. 2013)  . . . . . . . . . . . . . . . . . . . . 32
Griffin v. California,
380 U.S. 609 (1965) . . . . . . . . . . . . . . . . . . . . . . . passim
Jackson v. State,
651 S.E.2d 702 (Ga. 2007) . . . . . . . . . . . . . . . . . . . . . . 24
Jackson v. Virginia,
443 U.S. 307 (1979)  . . . . . . . . . . . . . . . . . . . . . 10, 12, 24
Kotteakos v. United States,
328 U.S. 750 (1946)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
Miller v. Pate,
386 U.S. 1 (1967) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
Mitchell v. United States,
526 U.S. 314 (1999)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 32
O’Neal v. McAninch,
513 U.S. 432 (1995)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
Wilson v. United States,
149 U.S. 60 (1893)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

ix
Cited Authorities
Page
Statutes and Other Authorities
U.S. Const., amend. V  . . . . . . . . . . . . . . . . . . . . . . . passim
U.S. Const., amend. XIV . . . . . . . . . . . . . . . . . . . . . . . . . . 2
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 2254 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 2254(d) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
28 U.S.C. § 2254(d)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

1
Petitioner Jamil Abdullah Al-Amin respectfully
petitions this Court for a writ of certiorari to review the
judgment of the United States Court of Appeals for the
Eleventh Circuit affirming the district court’s denial of his
petition for a writ of habeas corpus under 28 U.S.C. § 2254.
OPINIONS BELOW
The opinion of the Eleventh Circuit (App. 1a-21a) is
reported at 932 F.3d 1291. The Order of the district court
denying Mr. Al-Amin’s habeas petition (App. 22a-56a)
is reported at 2017 WL 6596602. The Final Report and
Recommendation and Order of the magistrate judge (App.
57a-100a) is reported at 2016 WL 10718765.
The Order of the Georgia Supreme Court denying Mr.
Al-Amin’s Application for Certificate of Probable Cause
to appeal the denial of habeas corpus (App. 101a-102a) is
unpublished. The Eleventh Circuit did not rely upon the
unpublished Final Order of the state habeas trial court
denying habeas relief.
The opinion of the Georgia Supreme Court in the
direct appeal (App. 103a-133a) is reported at 597 S.E.2d
332.
JURISDICTION
The judgment of the court of appeals was entered on
July 31, 2019. Petitioner invokes the jurisdiction of this
Court under 28 U.S.C. § 1254(1).

2
RELEVANT CONSTITUTIONAL PROVISIONS
T he Fi f th A mendment to the Unit ed Stat es
Constitution provides, in relevant part, “No person
. . . shall be compelled in any criminal case to be a
witness against himself, nor be deprived of life, liberty,
or property, without due process of law . . . .”
The Fourteenth Amendment to the United States
Constitution provides, in relevant part, “No state shall
. . . deprive any person of life, liberty, or property, without
due process of law . . . . “
STATEMENT OF THE CASE
Mr. Al-Amin, formerly known as H. Rap Brown, is a
“former civil rights activist who served as a community
leader for over two decades in Atlanta’s West End
neighborhood.” App. 23a. He was the “fifth Chairman
of the Student Nonviolent Coordinating Committee
and one of a handful of civil rights leaders specifically
identified in the 1967 FBI memorandum outlining the
counterintelligence program known as ‘COINTELPRO,’
the purpose of which was to expose, disrupt or otherwise
neutralize civil rights leaders and organizations.” Id.
1. On the night of March 16, 2000, Fulton County
Deputy Sheriffs Ricky Kinchen and Aldranon English
drove to the West End neighborhood of Atlanta to serve
a bench warrant on Mr. Al-Amin, which had issued when
he failed to appear for a traffic stop hearing. App. 31a &
n.1.1 Not finding Mr. Al-Amin, the Deputies were leaving
1. The underlying traffic stop ultimately was ruled to be
unconstitutional. Id.; see also id. at 2a n.1.

3
the area when they saw a vehicle pull to the curb behind
them. The Deputies turned around, pulled up to the car,
and approached a man standing on the curb near the
vehicle. The Deputies exited their car and Deputy English
asked the man to show them his hands. The man produced
an automatic rifle and began firing at the officers. Id. at
31a.
The Deputies “returned fire,” and both Deputies “were
confident that they had wounded the shooter.” App. 31a,
32a. Deputy English testified he fired three rounds, “two
to the chest, one to the head.” Id. at 32a. Deputy Kinchen
informed officers who arrived on the scene that “I shot
him, I think I shot him.” Id. at 33a. In addition to a “trail
of blood from the scene of the crime to an empty house
a few blocks away,” a 911 operator received at least one
call stating “a man involved in the shooting was bleeding
and begging for a ride.” Id. at 36a. The police secured a
search warrant for “blood, bloody clothing, and evidence
of medical intervention,” but none of the blood evidence
matched Mr. Al-Amin. Id. at 33a.
At the state habeas hearing, Mr. Al-Amin testified
he was in the West End area during the shooting but
denied any involvement in it. App. 33a. He left the area
because he “thought the shooting might be a retaliatory
attack directed towards him” by young men with whom
he had engaged in a “heated discussion” earlier that day
regarding the young men’s suspected drug dealing. Id.
As he drove away, his back window fell out, which also
caused him to believe the shooting was directed at him.
Id. He drove to White Hall, Alabama, where he had helped
develop a Muslim community. Id.

4
FBI agents (including an agent named Ron Campbell)
traveled to White Hall and arrested Mr. Al-Amin a few
days after the crime. App. 34a. Despite the deputies’
testimony they had shot the assailant, and despite
allegations Mr. Al-Amin had fired at law enforcement
officers shortly before his arrest, Mr. Al-Amin showed
“no signs of having been shot, and no gun residue was
found on him.” Id. While Mr. Al-Amin was handcuffed
and on the ground, FBI Agent Campbell demonstrated
personal animus toward Mr. Al-Amin by attacking him
without provocation. Id. (explaining Agent Campbell “spit
on him, and kicked him”).
After Mr. Al-Amin’s arrest, local and federal officers
located other items in the woods, including a pistol, an
assault rifle, and ammunition. App. 35a. The Prosecution
presented testimony the guns had been used to shoot
the Deputies. Id. The guns did not have any fingerprints
on them, and there was “no other evidence linking him
to the weapons other than the fact that they were found
in his vicinity in White Hall.” Id. at 36a. Mr. Al-Amin
consistently contended the guns “were planted by Ron
Campbell.” Id. at 35a. Officers later found Mr. Al-Amin’s
car, which had “bullet holes from the deputies’ service
weapons.” Id.
Deputy Kinchen died from his wounds the day after
the shooting. App. 32a. While under the influence of
morphine, Deputy English chose Mr. Al-Amin’s photo
from a photo array of six pictures. Id. The defense raised
numerous questions regarding the reliability of Deputy
English’s eyewitness identification, including that a pepper
spray canister on his belt had been “ruptured by a bullet,
temporarily blinding him.” Id. at 31a. Deputy English,

5
moreover, unequivocally “insisted the shooter had grey
eyes.” Id. at 32a; see also id. at 36a (noting Deputy English
“reported and repeatedly testified that the shooter had
grey eyes”); R29-5 at 3 (“My Mom always told me, look
a man in his eyes . . . I remember them grey eyes.”)
(emphasis added). Mr. Al-Amin has brown eyes. Id.
2. Mr. Al-Amin’s trial occurred in early 2002, six
months after the 9/11 terrorist attacks on the World
Trade Center. App. 24a. At trial, Mr. Al-Amin offered
the testimony of nearly 20 witnesses, including Imhotep
Shaka. Id. at 35a. Mr. Shaka testified he witnessed the
shooting and was “absolutely positive” the shooter was
not Mr. Al-Amin, because the shooter did not have Mr.
Al-Amin’s “distinctive” tall and slender frame. Id.; see also
R32-3 at 89-90. Another witness similarly testified the
shooter did not match Mr. Al-Amin’s physical description.
Id. And another witness testified that a man known as
Mustafa had been at the masjid the night of the crime, but
had been asked to leave the final prayer because he “had
a bulge in his back” that the witness believed looked like
“a weapon.” R32-2 at 116-17, 126-27.
Regarding the evidence found in Alabama, one of the
defense theories at trial was that Agent Campbell was a
“rogue” agent who had “planted” weapons to implicate
Mr. Al-Amin when Campbell was separated from the
search team members in the Alabama woods. R31-5 at 43
(testimony that Agent Campbell “fell behind” the other
agents in White Hall and could not be observed); R1-3 at
99. At trial, Agent Campbell falsely testified on direct he
needed assistance from other officers when he crossed the
barbed wire fence where the pistol ultimately was found,
only to admit on cross-examination “I was alone when I
went over the fence.” R30-6 at 48-49, 85.

6
Shortly after the criminal trial began, Mr. Al-Amin’s
attorneys alerted the trial court that when Agent Campbell
testified, the defense intended to cross-examine him about
a 1995 incident in Philadelphia where witnesses alleged
(a) Agent Campbell shot an unarmed African-American
Muslim in the back of the head without provocation and
(b) police planted a fingerprint-less weapon on him. See
R29-2 at 25-27; R29-3 at 2-3, 145-146; R30-6 at 55-59. The
trial court prohibited the defense from pursuing this line
of questioning, on the grounds that “[s]pecific instances
of prior misconduct may not be used to impeach the
character or veracity of a witness ‘unless the misconduct
has resulted in the conviction of a crime involving moral
turpitude.’” App. 121a (citation omitted).
3. On his attorneys’ advice, Mr. Al-Amin did not
testify at trial, even though he wanted to testify. App.
37a; see also R1-3 at 131-32. During closing arguments,
the Prosecution “repeatedly referenced Mr. Al-Amin’s
decision to remain silent.” App. 37a. It presented a
previously-prepared “visual aid” entitled “QUESTIONS
FOR THE DEFENDANT” that posed several mock
cross-examination questions to Mr. Al-Amin, including:
Who is Mustafa?
Why would the FBI care enough to frame you?
How did the murder weapons end up in White Hall?
How did your Mercedes get to White Hall?
How did your Mercedes get shot up?
Why did you flee (without your family)?
Where were you at 10 PM on March 16, 2000?

7
The Prosecution then presented the jury “with a few
questions you should have for the defendant.” App. 37a.
These questioned tracked the visual aid verbatim and
focused the jury’s attention on Mr. Al-Amin’s failure to
testify:
“The first question. Who is Mustafa?”
“Question two. Why would the FBI care enough
to frame you?”
“Third question. How did the murder weapons
end up in White Hall? . . . Mr. Defendant, how
did those murder weapons get there to White
Hall?”
“Next question. How did your Mercedes get to
White Hall? . . . More important, how did your
Mercedes get shot up?”
Id. at 37a-38a.
Mr. Al-Amin’s attorneys objected and moved for a
mistrial. App. 38a. The trial court denied the motion
but offered a curative instruction, which the defense
understandably declined, “fearing it would make matters
worse.” Id. The Prosecution re-labeled the visual aid
“QUESTIONS FOR THE DEFENSE,” but then persisted
in this line of questioning and again “referred to Mr. AlAmin’s failure to take the stand.” Id. He began to ask “the
question is either your car was there at the scene parked
in front of your store” when the defense interrupted
and again moved for a mistrial (which the trial court
denied). Id. Mr. Al-Amin’s attorney then requested a

8
curative instruction because of the “impropriety” of the
Prosecution’s comments and chart, which the trial court
immediately recharacterized in front of the jury as “what
you believe is an impropriety.” Id.
After stating the instruction was given “just in an
abundance of caution,” the court reiterated that it had
“overruled” Mr. Al-Amin’s objections. R32-5 at 35-36. The
instruction, quoted by the district court in its entirety,
(1) assisted the Prosecution’s effort to cause the jury to
draw an adverse inference against Mr. Al-Amin based on
his failure to testify, by stating it was entirely proper for
the Prosecution to “urge you to draw inferences from the
evidence”; and (2) weakly articulated Mr. Al-Amin’s Fifth
Amendment rights, confusingly using multiple negatives
in the critical purported curative statement. App. 39a.
After the instruction, the trial court diminished the
import of giving it during the middle of closing arguments,
by telling the jury it was one of many legal instructions
they would receive at the end of the case. R32-5 at 36.
After another mistrial motion the trial court denied,
the Prosecution continued to direct questions to Mr. AlAmin: “Why run if you didn’t do it? If you’re innocent, just
turn yourself in.” App. 40a. The defense again renewed
its motion for a mistrial, which was again overruled. Id.
The Prosecution then asked the last question on the
chart (which remained in front of the jury): “Where were
you at 10 p.m. on March 16?” R32-5 at 38 (emphasis added).
The Prosecution then made explicit the adverse inference
it wanted the jury to draw against Mr. Al-Amin: “He was
standing outside his black Mercedes murdering Deputy
Ricky Kinchen and trying to murder Deputy Aldranon

9
English. That is the only evidence you have heard and will
hear in this case as to where Jamil Abdullah Al-Amin was
at 10 p.m. on March 16, 2000, that’s it.” Id.
The Prosecution made other comments reminding the
jury Mr. Al-Amin had not testified, for example stating
“[y]ou haven’t heard anyone testify that this is a case of
self-defense.” R32-5 at 11. Then, in its rebuttal argument,
the Prosecution falsely stated that only one eyewitness to
the shooting testified (ignoring the eyewitness testimony
of neighborhood residents regarding the shooter), again
drawing the jury’s attention to Mr. Al-Amin’s failure to
testify. R32-6 at 5.
The Prosecution ended its rebuttal closing argument
by twice urging the jury “[d]on’t stand for him,” which
the district court characterized as “blatantly referencing
Mr. Al-Amin’s religiously-based (and court-approved)
decision to not stand when the jury or judge entered the
courtroom.” App. 40a. This comment can only be viewed
as an attempt to inflame the jurors and to encourage
improper bias regarding Mr. Al-Amin’s Muslim faith just
six months after the World Trade Center attacks.
Mr. Al-Amin was convicted on all counts. The jury
nevertheless rejected the death penalty and instead
sentenced him to life imprisonment without parole. App.
40a; see also R150 (noting empirical evidence supporting
connection between residual doubt and jurors’ decision
not to impose a death sentence).
4. In his direct appeal, the Georgia Supreme Court
held that “Al-Amin’s constitutional and statutory rights
were violated when the prosecutor in effect engaged

10
in a mock cross-examination of the accused who had
invoked his right to remain silent.” App. 124a. Applying
the “sufficiency of the evidence” standard of Jackson v.
Virginia, 443 U.S. 307 (1979), the Georgia Supreme Court
found the violation of Mr. Al-Amin’s Fifth Amendment
rights at trial “harmless beyond a reasonable doubt” under
Chapman v. California, 386 U.S. 18 (1967). App. 104a-108a,
124a-125a. The court similarly found “harmless” the
Prosecution’s “[d]on’t stand for him” comment at the end
of its closing argument. Id. at 125a-126a.
The Georgia Supreme Court also rejected Mr.
Al-Amin’s challenge to the restrictions on his crossexamination of Agent Campbell regarding the prior
incident where a gun allegedly had been planted by
police. App. 121a-122a. Even though the State sought the
death penalty for Mr. Al-Amin, the Georgia Supreme
Court held the trial court properly had limited his crossexamination of Agent Campbell because “Campbell had
not been prosecuted for the alleged misconduct, and
. . . any probative value was far outweighed by the danger
of unfair prejudice.” Id. at 122a.
5. After the denial of a petition for certiorari in his
direct appeal, Mr. Al-Amin filed a state habeas action. In
addition to claims challenging the mock cross-examination
and the limitations on his cross-examination of Agent
Campbell, Mr. Al-Amin’s state habeas action included
a claim his attorneys had been ineffective for failing
adequately to investigate Otis Jackson, who repeatedly
had confessed to committing the crimes. R1-6 & 1-7. 2
2. Mr. Al-Amin contended his attorneys improperly had
accepted the Prosecution’s representation that ankle monitoring data

11
In the state habeas action, Mr. Al-Amin filed an
affidavit from one of the jurors in his case stating “[a]
major part of the decision we made as a jur[y] to find Jamil
Al-Amin guilty was based on Jamil Al-Amin[’s] choice not
to testify.” R1-4 at 60. According to the juror, the “main
thing” the jurors felt Mr. Al-Amin “should have done” was
“come on the witness stand say out of his own mouth that
he was not guilty if that statement could have been made
it could have swayed votes in the other direction.” Id.
At the state habeas hearing, Mr. Al-Amin testified,
was cross-examined, and answered questions posed
directly by the state habeas judge. R1-3 at 122-53.
6. After the state court denied his habeas petition, Mr.
Al-Amin filed an Application for a Certificate of Probable
Cause, which the Georgia Supreme Court denied. App.
101a-102a. Mr. Al-Amin then filed his federal habeas
action, ultimately asserting four claims challenging:
(1) the mock cross-examination in closing arguments;
(2) the limitations on his cross-examination of FBI Agent
Campbell; (3) his defense counsel’s ineffectiveness for
failing to investigate Otis Jackson; and (4) a violation of
Brady v. Maryland, 373 U.S. 83 (1963). App. at 25a. Mr.
Al-Amin withdrew his Brady claim. Id.3
for Mr. Jackson conclusively established he could not have committed
the crimes. Mr. Al-Amin presented the unrefuted testimony of one
of the founders of the ankle monitoring company, who opined the
ankle monitoring data did not establish an alibi for Mr. Jackson.
R1-3 at 50-72.

3. Mr. Al-Amin asserted his Brady claim following the
production of two new documents by the FBI in September 2015: (1)
a “BOLO” (“be on the lookout”) bulletin issued on March 17, 2000

12
The magistrate judge recommended the denial of Mr.
Al-Amin’s remaining habeas claims. Regarding the mock
cross-examination, the magistrate judge found “there
is no dispute that Al-Amin’s constitutional rights were
violated.” App. 67a. The magistrate judge recommended
a finding under § 2254(d) that the Georgia Supreme Court
unreasonably applied Chapman because it “summarized
the facts proven at trial under the Jackson v. Virginia,
443 U.S. 307 (1979), ‘sufficiency-of-the-evidence’ standard
and relied on that summary as the basis for conducting
its review pursuant to Chapman.” Id. at 67a-68a. But the
magistrate judge recommended denying habeas relief to Mr.
Al-Amin, stating the “prosecutor’s constitutional violation
was addressed immediately and comprehensively, and the
evidence of Al-Amin’s guilt was overwhelming.” Id. at 84a.
7. Mr. Al-Amin objected, but the district court
overruled his objections and denied his habeas petition.
The court agreed with the Georgia Supreme Court and
the magistrate judge that the Prosecution violated Mr.
Al-Amin’s Fifth Amendment rights by engaging in a
mock cross-examination during closing arguments,
describing the violations as “repeated, blatant, central
to the prosecutor’s closing argument, intentional, and
. . . arguably returned to in the prosecution’s rebuttal.”
App. 42a. And the court also agreed with the magistrate
judge that the Georgia Supreme Court unreasonably
(the day after the crime) that described the height and weight of
the shooter as being within the range of “5’ 8”-5’ 9”, 150-160 LBS.”
(Mr. Al-Amin is 6’5” tall) (R117-1 at 10); and (2) handwritten notes
of an FBI interview with the officer who initially found the pistol in
White Hall indicating the pistol “was placed” (R117-3 at 3). Following
a ruling by the magistrate judge that Mr. Al-Amin had to exhaust
state remedies as to this claim, Mr. Al-Amin withdrew it and filed a
successive state habeas action.

13
applied Chapman, by failing to consider the “whole
record” and instead viewing the evidence “in the ‘light
most favorable to the verdict.’” Id.
But the district court rejected the magistrate judge’s
conclusion that the trial court’s instruction cured the
harm from the constitutional violations, because the
instruction “was not strongly worded, failed to admonish
the prosecution for the blatant nature of the violation, and
was undermined by the trial court’s contemporaneous but
confusing instruction that the jury was permitted to draw
inferences from Mr. Al-Amin’s failure to present evidence,
but not his failure to testify.” App. 42a-43a. The court found
“it is plain that the instruction was ineffective.” Id. at 44a.
The district court then reviewed the strength of the
Prosecution’s case against Mr. Al-Amin. App. 44a-51a.
Describing the evidence from “the actual crime scene”
as “a mixed bag” and a “mishmash of inconsistencies,”
the court noted the evidence favorable to Mr. Al-Amin,
including eyewitness testimony that Mr. Al-Amin was
not responsible for the shooting; statements by both of
the Deputies they had shot their assailant (Mr. Al-Amin
had not been shot); repeated testimony by the surviving
Deputy that the assailant had “grey eyes” (Mr. Al-Amin
has brown eyes); the circumstances in which the Deputies
had identified Mr. Al-Amin; and a 911 call on the night of
the crime stating a man “‘involved in the shooting of the
deputies’ was bleeding in the West End area and begging
for a ride – a fact inconsistent with the reality that Mr.
Al-Amin was not shot.” Id. at 45a. According to the court,
“[i]f this were the only evidence in the record, the Court
might harbor ‘grave doubt about whether the trial errors
had a substantial and injurious effect . . . in determining
the jury’s verdict.’” Id.

14
But the district court concluded it “must deny Mr. AlAmin relief because there is ‘weighty’ evidence supporting
his conviction.” App. 44a. The court focused on evidence
found in White Hall, including Mr. Al-Amin’s car and the
weapons found after Mr. Al-Amin’s arrest. Id. at 45a-46a.
The court recognized Mr. Al-Amin’s theory that “the car
had bullet holes in it only because it was parked near
the scene of the shooting – not because he was involved
in the crime.” Id. 48a n.11. But the court found Mr. AlAmin “simply has no reasonable explanation for how this
evidence got to White Hall,” discounting his theory that
FBI Agent Campbell had planted the guns in Alabama
as “not credible.” Id. at 46a.4
The district court also rejected Mr. Al-Amin’s
challenge to the state court’s ruling prohibiting him
from cross-examining FBI Agent Campbell with several
“news articles and other documents” about the 1995
weapon-planting incident involving Agent Campbell,
because Agent Campbell had not been prosecuted after
internal law enforcement investigations and because of
the “significant danger of unfair prejudice” from the line
of questioning. App. 52a-53a.
The district court also refused to consider the affidavit
of the juror who stated Mr. Al-Amin’s failure to testify
influenced the jury’s verdict. App. 48a. 5 Citing the rule
4. In addition to Mr. Al-Amin having been targeted by
COINTELPRO (App. 23a), he presented evidence he had been under
FBI surveillance for several months before the crime. R101-1 at 2, 6.
5. Mr. Al-Amin also sought, unsuccessfully, to introduce a
declaration from his lead criminal trial attorney addressing Mr.
Al-Amin’s decision not to testify, defense counsel’s reliance on

15
prohibiting “evidence of jury testimony to impeach a
verdict,” the district court dismissed authorities holding
the “‘general rule against impeaching verdicts must
succumb to the defendant’s right to a fair trial.’” Id. at 49a.
According to the court, cases recognizing the exception
involved “extrajudicial” information, whereas the mock
cross-examination occurred “within the trial.” Id. at 51a.
The district also rejected Mr. Al-Amin’s ineffective
assistance of counsel claim regarding the failure
adequately to investigate Otis Jackson (who had
repeatedly confessed to committing the crimes). App.
54a-55a. But the court granted a certificate of appeal
as to all of the claims, because “reasonable jurists could
disagree” about the court’s “‘actual prejudice’ holding
under Brecht” and because all of Mr. Al-Amin’s claims
“are intertwined.” Id. at 56a.6
8. Mr. Al-Amin’s appeal challenged the district court’s
actual prejudice determination under Brecht as well as the
lower court’s refusal to find the Prosecution’s misconduct
satisfied Brecht’s “unusual case” exception.7
the Prosecution complying with its Fifth Amendment obligations
in advising Mr. Al-Amin not to testify, and the impact of the
Prosecution’s constitutional violations on the trial. App. 95a; R101-3.

6. A mong other things, M r. A l-A min contrasted the
Prosecution’s improper mock cross-examination of him in closing
arguments with the state trial court’s limitation on his ability to
cross-examine FBI Agent Campbell.
7. Mr. Al-Amin also appealed the district court’s rejection of
his Confrontation Clause claim challenging the limitations on his
cross-examination of Agent Campbell, which the Eleventh Circuit
affirmed. App. 18a-21a.

16
As with the district court, the court of appeals
discussed the significant evidence supporting acquittal,
describing Mr. Al-Amin as presenting a “substantial
defense.” App. 5a. The Eleventh Circuit discussed the
eyewitness testimony Mr. Al-Amin was not the shooter,
the Deputies’ testimony they were “confident that they had
shot their assailant,” the “blood trail leading away from
the scene” (despite Mr. Al-Amin being uninjured), and
the challenges to Deputy English’s identification of Mr.
Al-Amin, including “that Deputy English had consistently
said the shooter had grey eyes, while Al-Amin has dark
brown eyes.” Id. The court of appeals also noted Mr. AlAmin’s theory Agent Campbell had planted the guns and
the lack of DNA or fingerprint evidence connecting Mr.
Al-Amin to the guns. Id.
The Eleventh Circuit next discussed the Prosecution’s
mock cross-examination of Mr. Al-Amin during closing
arguments, as well as the state trial court’s ineffective
instruction. App. 6a-9a. The court of appeals characterized
the Prosecution’s “[d]on’t stand for him” comment on Mr.
Al-Amin’s “religiously based and court approved decision”
to remain seated when the judge or jury entered the
courtroom as “patently improper.” Id. at 9a n.4.
The Eleventh Circuit agreed with every other
reviewing court that Mr. Al-Amin’s Fifth Amendment
rights had been violated. App. 13a. The closing argument
“highlighted the defendant’s failure – not the defense’s
failure – to explain inculpatory evidence.” Id. The
court of appeals concluded this constitutional error was
“substantial.” Id. at 15a. And it agreed with the district
court “that the trial court’s curative instruction was
largely ineffective” and “did little to cure the error.” Id.

17
But the Eleventh Circuit ruled that actual prejudice
under Brecht had not been shown. App. 15a-16a. Examining
“whether the error contributed to the verdict,” the court
of appeals characterized Mr. Al-Amin’s defense as turning
on the “credibility of Deputy English’s identification of AlAmin as the assailant” and the “reliability of the physical
evidence found in White Hall.” Id. at 16a-17a. The court
found it “unlikely” the jury’s determination of these issues
had been “substantially affected” by the Prosecution’s
improper mock cross-examination of Mr. Al-Amin in
closing argument. Id. at 17a.
In a footnote, the Eleventh Circuit rejected Mr. AlAmin’s argument the “deliberate and egregious” nature of
the Prosecution’s misconduct satisfied the “unusual case”
exception to Brecht’s actual prejudice requirement. App.
18a n.9. “While we condemn the prosecutor’s behavior in
the instant action, we do not believe the error rises to the
level contemplated by the Supreme Court to merit reversal
under Brecht’s exception.” Id.
The court of appeals returned to the Prosecutor’s
misconduct in its conclusion. App. 21a. Observing
that the Brecht standard “provides no disincentive
for a prosecutor to disregard the boundaries of his
constitutional obligation,” the court stated its “regret that
we cannot provide Mr. Al-Amin relief in the face of the
prosecutorial misconduct that occurred at his trial.” Id.
Thus, even though the Prosecution “failed to live up to”
its duty “to ensure that justice will prevail” (as opposed to
endeavoring “to secure a conviction by any means”), the
Eleventh Circuit affirmed the denial of habeas relief. Id.

18
REASONS FOR GRANTING THE PETITION
The Court should clarify Brecht’s “unusual case”
exception. The Brecht exception should apply where, as
here, a prosecutor engages in a pattern of deliberate
misconduct that attacks a specific constitutional right of
the accused and infects the integrity of the proceeding.
The approach taken by the Eleventh Circuit here—to
find an intentional and wide-ranging violation of Mr.
Al-Amin’s Fifth Amendment rights, harshly condemn
the prosecutor’s behavior, but then inexplicably dismiss
the misconduct as not rising to the “level” required
by Brecht—invites further prosecutorial misconduct
infecting future proceedings and renders egregious
constitutional violations immune from habeas review.
The case also presents an important question
regarding Brecht’s actual prejudice standard to a
deliberate violation of Griffin v. California, 380 U.S.
609 (1965). Where a prosecutor purposefully makes
numerous comments that stressed to the jury an
inference of guilt from the defendant’s silence, prejudice
should be found “where there is evidence that could have
supported acquittal.” Anderson v. Nelson, 390 U.S. 523,
524 (1968) (per curiam). Here, because Mr. Al-Amin
presented substantial evidence – including unequivocal
eyewitness testimony he was not the shooter and extensive
corroborating exculpatory evidence – actual prejudice
should have been found.

19
A. The court of appeals erred in finding the egregious
and deliberate violation of Mr. Al-Amin’s Fifth
Amendment rights did not warrant relief under
Brecht’s “unusual case” exception.
Justice Stevens, who provided the fifth vote for
Brecht, emphasized in his concurring opinion a reviewing
court’s obligation “to consider all the ways that error can
infect the course of a trial.” 507 U.S. at 642 (Stevens, J.,
concurring). “The habeas court cannot ask only whether
it thinks the petitioner would have been convicted even if
the constitutional error had not taken place.” Id.
1. Consistent with Justice Stevens’ focus on the
possible impact of the error on the actual jury, Brecht
recognized an exception to the actual prejudice rule for
certain types of trial errors:
Our holding does not foreclose the possibility
that in an unusual case, a deliberate and
especially egregious error of the trial type,
or one that is combined with a pattern of
prosecutorial misconduct, might so infect
the integrity of the proceeding as to warrant
the grant of habeas relief, even if it did not
substantially inf luence the jury’s verdict.
Cf. Greer v. Miller, 483 U.S. 756, 769 (1987)
(Stevens, J., concurring in judgment). We, of
course, are not presented with such a situation
here.
507 U.S. at 638 n.9. Footnote 9’s exception complements
the actual prejudice rule, by recognizing that certain
deliberate and egregious constitutional violations are
intended to and do have an incalculable impact on the jury.

20
In the Greer decision cited by Brecht, the Court held
a prosecutor’s attempted violation of Doyle v. Ohio, 426
U.S. 610 (1976) (prohibiting comment on a defendant’s
pre-trial silence), did not render the defendant’s trial
“fundamentally unfair.” 483 U.S. at 765-67. “The sequence
of events in this case—a single question, an immediate
objection, and two curative instructions—clearly indicates
that the prosecutor’s improper question did not violate
[the defendant’s] due process rights.” Id. at 766. Justice
Stevens concurred, articulating his view that on collateral
review, Doyle errors “are not so fundamentally unfair
that convictions must be reversed whenever the State
cannot bear the heavy burden of proving that the error
was harmless beyond a reasonable doubt.” Id. at 768-69
(Stevens, J., concurring).
But Justice Stevens also recognized the possibility
of “extraordinary cases in which the Doyle error is so
egregious, or is combined with other errors or incidents
of prosecutorial misconduct, that the integrity of the
process is called into question.” 483 U.S. at 769. Where
such misconduct exists, “habeas corpus relief should be
afforded.” Id.
2. These references to “unusual” or “extraordinary”
cases involving eg reg ious errors or a pattern of
prosecutorial misconduct align with this Court’s decisions
addressing whether prosecutorial misconduct during
closing argument constitutes a due process violation.
In Donnelly v. DeChristoforo, 416 U.S. 637 (1974), the
Court refused to find a due process violation based on a
prosecutor’s improper comment during closing argument
that had been addressed by a curative instruction. But
in doing so, the Court emphasized the case before it did

21
not involve prosecutorial remarks that “so prejudiced a
specific right, such as the privilege against compulsory
self-incrimination, as to amount to a denial of that right.”
Id. at 643 (citing Griffin, 380 U.S. 609). “When specific
guarantees of the Bill of Rights are involved, this Court
has taken special care to assure that prosecutorial conduct
in no way impermissibly infringes them.” Id.
The Court went on to contrast the “ambiguous”
comment in Donnelly, which “was but one moment in an
extended trial and was followed by specific disapproving
instructions,” with the type of intentional prosecutorial
misconduct sufficient to constitute a due process violation.
Id. at 645-48. While the Court granted habeas relief to
the petitioner in Miller v. Pate, 386 U.S. 1 (1967), it did so
because that case involved a prosecutor’s deliberate and
repeated reliance on an item of evidence the prosecutor
knew to be fabricated. Donnelly, 416 U.S. at 646. The
Miller case thus involved “‘consistent and repeated
misrepresentation’ of a dramatic exhibit in evidence” that
“may profoundly impress a jury and may have a significant
impact on the jury’s deliberations,” as opposed to the
“[i]solated passages of a prosecutor’s argument, billed in
advance to the jury as a matter of opinion not of evidence”
at issue in Donnelly. Id.
In Darden v. Wainwright, 477 U.S. 168 (1988), the
Court similarly refused to find a due process violation
based on the prosecutor’s improper comments in closing
arguments. Although Darden involved more extensive
improper comments than Donnelly, the Court still refused
to find a due process violation, because the comments
“did not manipulate or misstate the evidence, nor did it
implicate other specific rights of the accused such as the

22
right to counsel or the right to remain silent.” Id. at 18182 (citing Darden v. Wainwright, 513 F. Supp. 947, 958
(M.D. Fla. 1981)).
Thus, when the Court has refused to find a due process
violation from improper prosecutorial comments during
closing argument, it has emphasized that the comments
did not implicate a specific constitutional right such as
the right to remain silent. Where the improper comments
deliberately and repeatedly violate a recognized right such
as the defendant’s privilege against self-incrimination, the
comments “so infect[] the trial with unfairness as to make
the resulting conviction a denial of due process.” Darden,
477 U.S. at 181 (quoting Donnelly, 416 U.S. at 643). Such
a violation should come within Brecht’s “unusual case”
exception.
3. In Berger v. United States, the Court emphasized
a prosecutor’s unique obligation to ensure “that justice
shall be done” in a criminal prosecution:
He may prosecute w ith earnestness and
vigor—indeed, he should do so. But, while he
may strike hard blows, he is not at liberty to
strike foul ones. It is as much his duty to refrain
from improper methods calculated to produce
a wrongful conviction as it is to use every
legitimate means to bring about a just one.
295 U.S. 78, 88 (1935). Here, the Prosecution consciously
and repeatedly violated Mr. Al-Amin’s right to remain
silent, making the mock cross-examination of Mr. AlAmin the centerpiece of its closing argument. The
fact the Prosecution chose to engage in this egregious

23
constitutional violation—and then to close its rebuttal
argument with a further improper comment on Mr.
Al-Amin’s religiously-based decision to remain seated—
reveals both a concern with the possibility the jury would
acquit Mr. Al-Amin if it did not violate his rights and a
commitment to securing a conviction at any cost.
The state trial court never should have allowed the
mock cross-examination. It immediately should have
sustained Mr. Al-Amin’s objections to the improper
closing argument, rebuked the prosecutor, and issued a
strongly-worded curative instruction. Instead, it allowed
the constitutional violations to continue, compounded
the adverse effect of the violation through an ineffective
instruction, and then refused to grant a mistrial when
the Prosecution ended its closing argument with another
improper comment.
On direct appeal, the Georgia Supreme Court should
have granted a new trial based on the violation of Mr. AlAmin’s Fifth Amendment rights. But as the magistrate
judge and the district court explained, the Georgia
Supreme Court instead engaged in a clearly erroneous
application of Chapman. See App. 42a & id. at 27a-28a.
Rather than reviewing the “‘whole record’” to determine if
the error was “‘harmless beyond a reasonable doubt,’” the
Georgia Supreme Court incorrectly viewed the evidence
in the “‘light most favorable to the verdict.’” Id. at 27a-28a
(citations omitted).
As repeatedly observed by Georgia Supreme Court
Justice Hunstein (who dissented from the denial of Mr.
Al-Amin’s application to appeal the rejection of his state
habeas petition, App. 101a), the Georgia Supreme Court

24
has been systematically misapplying Chapman for years.
See Jackson v. State, 651 S.E.2d 702, 707-08 (Ga. 2007)
(Hunstein, J., dissenting) (dissenting from the Georgia
Supreme Court’s use of a “sufficiency-of-the-evidence”
standard to determine “harmless error”); Braithwaite
v. State, 572 S.E.2d 612, 625 (Ga. 2002) (Hunstein, J.,
dissenting) (“the bottom line is that when the evidence
adduced at trial meets the Jackson v. Virginia standard,
this Court will not reverse a criminal conviction,” even
where violation was “extensive or damaging”). Because
of this ongoing error, prosecutors “continue repeatedly”
to engage in forbidden conduct, knowing “this Court
does not hold them accountable for their violations of our
rulings.” Braithwaite, 572 S.E.2d at 625; see also id. (“We
gum the words of prohibition but there are no teeth to nip
prosecutors into obedience.”).
But despite satisfying the extremely narrow criteria
for federal habeas relief under 28 U.S.C. § 2254(d)(1),
the Georgia Supreme Court’s erroneous application
of Chapman in Mr. Al-Amin’s case evaded review
in the courts below, based on their findings Brecht’s
actual prejudice test had not been satisfied. App. 18a
n.8. This compounds the original constitutional errors
and encourages continued misconduct by Georgia’s
prosecutors.
4. A federal habeas court can never fully place itself
in the ebb and flow of the underlying trial. Where, as here,
the Prosecutor makes the conscious decision to engage in
a deliberate and visually-aided egregious Griffin violation
in its closing and then ends its rebuttal with yet another
improper comment, the reviewing court reasonably should
infer from the misconduct that the Prosecutor believed

25
its likelihood of securing a conviction to be in question
and engaged in the violations specifically to “infect the
integrity of the proceeding.” Brecht, 507 U.S. at 638 n.9.
The courts below, however, summarily dispensed
with Mr. Al-Amin’s “unusual case” arguments. The
district court relied on Brecht itself, describing that case
as similarly involving several improper comments on the
defendant’s pre-trial silence during closing arguments.
App. 42a (citing 507 U.S. at 625). But Brecht involved
“infrequent” references to a defendant’s post-Miranda
silence, comprising “less than two pages of the 900-page
trial transcript in this case.” 507 U.S. at 639. In Brecht,
moreover, the State’s evidence included “extensive and
permissible references to petitioner’s pre-Miranda
silence,” rendering the improper references “in effect,
cumulative.” Id. And the defendant in Brecht did not deny
shooting the victim, only whether it was intentional. Id.
Given the “other circumstantial evidence, including the
motive proffered by the State,” the Court found the error
to be harmless. Id.
The constitutional violations at issue here, in contrast
to Brecht, constituted the heart of the Prosecution’s
closing arguments, stretching over 16 pages of the trial
transcript. R32-5 at 23-39. And as the district court noted,
the Prosecution “arguably returned to” the improper
argument in rebuttal. App. 42a. Nor can the Prosecution’s
“repeated, blatant, central to the prosecution’s closing
argument, [and] intentional” comments on Mr. Al-Amin’s
right to remain silent be equated with the “cumulative”
comments on a defendant’s post-Miranda silence in
Brecht, particularly given that the Prosecution returned
to the mock cross-examination and made additional

26
improper comments in its rebuttal argument. App. 42a;
R32-6 at 5. Finally, unlike in Brecht, the State presented
no evidence showing any motive for Mr. Al-Amin to have
engaged in a gunfight over minor offenses arising from
a traffic stop (a point emphasized in the defense’s closing
argument). R32-5 at 83.
The Eleventh Circuit provided no explanation for its
refusal to find Mr. Al-Amin satisfied Brecht’s “unusual
case” exception, stating: “ W hile we condemn the
prosecutor’s behavior in the instant case, we do not believe
the error rises to the level contemplated by the Supreme
Court as to merit reversal under Brecht’s exception.”
App. 18a n.9. If the Prosecution’s carefully orchestrated
attack on Mr. Al-Amin’s constitutional right to remain
silent — described by the court of appeals as “repeated
and central to his closing argument” (App. 14a) — and the
further “patently improper” comments at the end of the
closing argument (see id. 9a n.4) do not “rise to the level”
contemplated by the Brecht “unusual case” exception, it
is difficult to imagine a case that would do so.
B. The court of appeals erred in ruling the Prosecution’s
violation of Mr. Al-Amin’s Fifth Amendment rights
did not result in actual prejudice.
Justice Stevens’ concurring opinion in Brecht
confirmed that “the burden of sustaining a verdict by
demonstrating that the error was harmless rests on the
prosecution.” 507 U.S. at 641 (Stevens, J., concurring). And
while Brecht relaxed Chapman’s “beyond a reasonable
doubt” standard, the government still fails to carry its
burden if the reviewing court harbors “grave doubt as to
harmlessness.” O’Neal v. McAninch, 513 U.S. 432, 437-38
(1995).

27
Under Brecht, a federal court must conduct a thorough
“de novo examination of the trial record” for the purpose
of “consider[ing] all the ways that error can infect the
course of a trial.” 507 U.S. at 642 (Stevens, J., concurring).
The crucial thing is the impact of the thing
done wrong on the minds of other men, not on
one’s own, in the total setting. “This must take
account of what the error meant to them, not
singled out and standing alone, but in relation
to all else that happened. And one must judge
others’ reactions not by his own, but with
allowance for how others might react and not
be regarded generally as acting without reason.
This is the important difference, but one easy to
ignore when the sense of guilt comes strongly
from the record.”
Id. at 643 (quoting Kotteakos v. United States, 328 U.S.
750, 764 (1946)).
1. When this Court prohibited prosecutorial comment
on a defendant’s decision not to testify in Wilson v. United
States, 149 U.S. 60 (1893), it suggested a deliberate
violation of the federal statute at issue (which prohibited
any “presumption” against a defendant who did not testify)
could never be harmless. “Nothing could have been more
effective with the jury to induce them to disregard entirely
the presumption of innocence to which by the law he was
entitled, and which by the statute he could not lose by
a failure to offer himself as a witness.” Id. at 66-67. It
later favorably quoted a state supreme court decision
describing an intentional violation of a similar state statute
as “manifestly prejudicial.” Id. at 69.

28
In Griffin, the Court described comment on a
defendant’s refusal to testify as a “remnant of the
‘inquisitorial system of criminal justice,’ which the Fifth
Amendment outlaws.” 380 U.S. at 614 (citation omitted).
Holding the self-incrimination privilege applied in state
court proceeding, the Court explained that allowing
comment on a defendant’s right to testify “cuts down
on the privilege by making its assertion costly.” Id. The
Griffin court did not address whether a prosecutor’s
comment on a defendant’s silence could be harmless error.
Although the Court held comment on a defendant’s
trial silence could be subject to “harmless error” review
in Chapman, it emphatically found the violation in
the case before it to be harmful. 386 U.S. at 22-26. In
Chapman, the state prosecutor’s argument and the court’s
instruction “continuously and repeatedly impressed the
jury that from the failure of petitioners to testify, to all
intents and purposes, the inferences from the facts in
evidence had to be drawn in favor of the State—in short,
that by their silence petitioners had served as irrefutable
witnesses against themselves.” Id. at 25. Noting some
evidence supported acquittal, the Court found it
“completely impossible” to find the improper comments
“did not contribute to the petitioners’ convictions.” Id.
at 25-26. “Such a machine-gun repetition of a denial of
constitutional rights, designed and calculated to make
petitioners’ version of the evidence worthless, can no more
be considered harmless than the introduction against a
defendant of a coerced confession.” Id. at 26.
When the Court examined the issue of harmlessness
in a habeas case in Anderson, 390 U.S. 523, it applied
a standard virtually identical to that announced in

29
Chapman. Prosecutorial comment on a defendant’s failure
to testify “cannot be labeled harmless error in a case
where such comment is extensive, where an inference
of guilt from silence is stressed to the jury as a basis of
conviction, and where there is evidence that could have
supported acquittal.” Id. at 523-24. In Anderson, where
the defendant had presented some evidence undermining
the government’s case, the Court “cannot say that the
prosecutor’s extensive argument asking the jury to
overlook inferences favorable to [the defendant] because
he invoked his constitutional right not to testify” was
harmless. Id. at 525.
2. The Fifth Circuit found Brecht’s actual prejudice
standard satisfied when presented with extensive
prosecutorial comment on a defendant’s in-trial silence.
Gongora v. Thaler, 710 F.3d 267, 278-83 (5th Cir. 2013).
The Gongora described the factors relevant to this inquiry
as “whether the comments were ‘extensive,’ whether ‘an
inference of guilt from silence [was] stressed to the jury
as a basis for conviction,’ and whether ‘there is evidence
that could have supported acquittal.’” Id. at 278 (alteration
in original) (quoting Anderson, 390 U.S. at 523-24). In the
case before it, the prosecutor’s comments were “numerous
and blatant,” and his “manifest purpose was to ‘strike at
the jugular of the defense’” by “aggressively prompt[ing]
the jury to infer guilt based on [the defendant’s] failure
to testify” at the “very end of the prosecution’s closing
argument.” Id. at 278-80. Although the trial court had
issued curative instructions, the court of appeals found
the “efficacy” of the instructions “diminished” by, among
other things, the court’s overruling of the defendant’s
objection to the prosecutor’s final improper remark. Id.
at 280. And the defendant had presented evidence to the

30
jury calling into question eyewitness testimony that the
defendant was “the shooter,” as well as other evidence that
led the court to describe the evidence against him as “far
from overwhelming.” Id. at 280-82.
Here, after Mr. Al-Amin had followed his attorneys’
advice and remained silent in reliance on the Prosecution
honoring its obligation to respect his Fifth Amendment
rights, the Prosecution made repeated comments that
stressed to the jury it should infer Mr. Al-Amin’s guilt
from his failure to testify, after which the state trial
court gave a “largely ineffectual” instruction. App. 15a.
As for evidence supporting acquittal, the court of appeals
described Mr. Al-Amin as having presented a “substantial
defense,” while the district court stated that, if the
evidence had been limited to the crime scene evidence,
it would have had “grave doubt” as to whether the error
had an injurious effect on the verdict. Id. at 45a. The
exculpatory evidence included:
• Mr. Shaka’s eyew itness testimony he was
“absolutely positive” the shooter was not Mr. AlAmin. App. 35a; R32-3 at 89-90.
• “Both deputies were confident they had wounded
the shooter” (Mr. Al-Amin had not been shot). App.
32a.
• Deputy English’s unequivocal testimony the
assailant had “grey eyes” (Mr. Al-Amin has brown
eyes). App. 32a & 36a.
• Other eyewitness testimony the shooter did not
match Mr. Al-Amin’s physical description. App.
35a.

31
• The “trail of blood from the scene of the crime to
an empty house a few blocks away . . . .” App. 36a.
• The 911 call “stating that a man involved in the
shooting was bleeding and asking for a ride.” App.
36a.
• The lack of DNA, fingerprint, or other physical or
documentary evidence connecting Al-Amin to the
guns found in White Hall. App. 5a.
• The absence of any motive evidence. See R32-5 at
83.
Given the uniquely damaging nature of adverse
inferences drawn from an uncorrected Griffin error in
closing arguments, this evidence should have led the lower
courts to find actual prejudice under Brecht.
3. The Brecht decision involved Doyle errors where
the prosecutor sought to use post-Miranda silence to
impeach a defendant who had elected to testify at trial.
507 U.S. at 624-25. When a prosecutor commits a Griffin
error, in contrast, the jury never hears from the defendant,
rendering the impact of adverse inferences from the
failure to testify particularly acute. And where the Griffin
error occurs in closing arguments, the defendant has no
ability to offset these adverse inferences by changing
his or her decision about testifying. The prosecutor has
irretrievably breached its Fifth Amendment obligation to
the defendant at a time when the defendant cannot attempt
to undo the damage by taking the stand.

32
The Court has described the rule against adverse
inferences as a “vital instrument” for ensuring the
Government “has carried its burden to prove its
allegations while respecting the defendant’s individual
rights.” Mitchell v. United States, 526 U.S. 314, 330
(1999). Here the Prosecution planned and executed an
assault on Mr. Al-Amin’s Fifth Amendment rights after
the defense had presented substantial evidence showing
he was not the shooter and after he had followed his
attorneys’ advice not to testify. The carefully constructed
mock cross-examination used repeated adverse inferences
from Mr. Al-Amin’s failure to testify to blunt the multiple
problems in the Prosecution’s case revealed by the defense.
See Gongora v. Thaler, 726 F.3d 701, 702 (5th Cir. 2013)
(Higginbotham, J.) (denying rehearing en banc) (noting
that in a “difficult case” prosecutor may use improper
“comments on silence” to “close[] the evidentiary gap”).
In an effort to diminish the impact of the Prosecutor’s
comments, the Eleventh Circuit reasoned the subjects
of the mock cross-examination did not relate to the
“viability” of Mr. Al-Amin’s defense theory FBI Agent
Campbell had “planted” the weapons in White Hall to
connect him to the crimes. App. 17a. But the second
question in the chart the Prosecution placed in front of
the jury asked: “Why would the FBI care enough to frame
you?” Id. at 6a. And the third question on the chart asked:
“How did the murder weapons end up in White Hall?”
Id. The Prosecution repeated both of these questions
verbatim in its closing argument. Id. Both of these mock
cross-examination questions directly urged the jury to
question the validity of the defense theory that the FBI
planted the weapons based on an adverse inferences from
Mr. Al-Amin’s failure to testify.

33
The Prosecution never explained the lack of fingerprints
or DNA on the weapons. Rather, the Prosecution asked
the jury to believe Mr. Al-Amin retained the guns for
four days, scoured them of identifying evidence, had
them in his possession or nearby when law enforcement
converged on him, and managed to discard them in the
woods without leaving any physical evidence on them.
Mr. Al-Amin presented contrary evidence, including
testimony that, shortly before his arrest, Agent Campbell
had fallen behind the other agents in White Hall and could
not be observed. R31-5 at 43. He also presented testimony
regarding a different “man in white” seen in the same
wooded area on the day of Mr. Al-Amin’s arrest. R32-1
at 96-98; R32-1 at 124-25, 130.
Mr. Al-Amin’s closing argument emphasized this
evidence, as well as raising questions about the tracking
dogs and their handlers not having located the weapons
when they initially followed Mr. Al-Amin’s trail. R32-5 at
101-02. But the Prosecution improperly undermined the
defense’s White Hall evidence, by urging the jury to draw
an adverse inference from Mr. Al-Amin’s failure to testify.
The court of appeals also opined the Prosecution’s
violation of Mr. Al-Amin’s Fifth Amendment rights had
nothing to do with “the credibility of Deputy English’s
identification of Al-Amin as the assailant.” App. 17a. But
the very first question in the mock cross-examination
– omitted from the Eleventh Circuit’s summary (id. at
6a) – asked, “Who is Mustafa?” Id. at 37a. This sought
to undercut eyewitness testimony that a man named
Mustafa had been asked to leave the masjid the night of
the crime because “he had a bulge in his back” that looked
like “a weapon.” R32-2 at 116-17, 126-27. And all of the

34
mock cross-examination questions encouraged the jury
to disregard the extensive defense evidence showing Mr.
Al-Amin was not the shooter based on adverse inferences
from his failure to testify.
The Eleventh Circuit’s surgical dissection of the
evidence it considered to be most relevant to the actual
jury’s verdict, moreover, ignored the obvious impact
of the extended mock cross-examination on the jury’s
overall assessment of the case. When the evidence closed,
the defense had revealed significant weaknesses in the
Prosecution’s case, prompting Mr. Al-Amin’s attorneys to
advise him not to testify. The Prosecution apparently also
viewed the evidence as a close call, preparing a visual aid
to support the unconstitutional mock cross-examination at
the heart of its closing argument and planning to end its
rebuttal with another improper comment on Mr. Al-Amin’s
decision to remain seated. The court of appeals should
have ruled these constitutional violations substantially
affected the jury’s verdict under Brecht.
***
Defendants decide whether to testify or to remain
silent based on the strength of the prosecutor’s case
and on the assumption prosecutors will comply with
their obligations under the Fifth Amendment. When
a prosecutor deliberately, repeatedly, and egregiously
violates the constitutional obligation to avoid adverse
comment on a defendant’s decision not to testify—
especially when combined with other prosecutorial
misconduct—the prosecutor infects the integrity and
basic fairness of the trial. Such irreparable harm should
never be excused as harmless error.

35
CONCLUSION
The Court should grant certiorari.
Respectfully submitted,
Miles J. A lexander
Counsel of Record
C. A llen Garrett Jr.
Joe P. Reynolds
Kilpatrick Townsend
& Stockton LLP
1100 Peachtree Street, NE,
Suite 2800
Atlanta GA 30309-4528
(404) 815-6500
malexander@ktslaw.com
Counsel for Petitioner

APPENDIX

1a
APPENDIX A — Appendix
OPINIONAOF THE UNITED
STATES COURT OF APPEALS FOR THE
ELEVENTH CIRCUIT, FILED JULY 31, 2019
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 17-14865
D.C. Docket No. 1:12-cv-01688-AT
JAMIL ABDULLAH AL-AMIN,
Petitioner-Appellant,
versus
WARDEN, COMMISSIONER, GEORGIA
DEPARTMENT OF CORRECTIONS,
Respondents-Appellees.
July 31, 2019, Decided
Appeal from the United States District Court
for the Northern District of Georgia
Before WILSON, JILL PRYOR, and TALLMAN,*
Circuit Judges.
* The Honorable Richard C. Tallman, Circuit Judge for the
United States Court of Appeals for the Ninth Circuit, sitting by
designation.

2a
Appendix A
WILSON, Circuit Judge:
Jamil Abdullah Al-Amin appeals the district court’s
denial of his petition for a writ of habeas corpus under 28
U.S.C. § 2254. Al-Amin argues that he is entitled to habeas
relief under Brecht v. Abrahamson, 507 U.S. 619, 113 S.
Ct. 1710, 123 L. Ed. 2d 353 (1993), for the constitutional
errors that occurred during his state trial. After careful
review and with the benefit of oral argument, we affirm
the district court’s denial of habeas relief.
I.

Factual and Procedural Background

One evening in March 2000, Fulton County Deputies
Ricky Kinchen and Aldranon English drove to Al-Amin’s
home to execute a valid arrest warrant.1 Believing that
Al-Amin was not home, the Deputies began to drive away.
But the Deputies quickly turned around when they spotted
a black Mercedes pull in front of Al-Amin’s home. A man
exited the vehicle, and the Deputies approached.
The Deputies asked the man to show his hands. The
man began firing an automatic rifle and pistol at the
officers. The Deputies, standing only a few feet away,
returned fire. During the firefight, Deputy English’s
pepper spray canister exploded, temporarily blinding him.
Deputies Kinchen and English were both shot during the
exchange, and both believed they had shot the assailant
in return. As the man drove away in the black Mercedes,
1. The warrant was issued after Al-Amin failed to appear for
a traffic stop hearing. A Georgia trial court later ruled that the
underlying traffic stop was unconstitutional.

3a
Appendix A
Deputy English radioed for help. When help arrived,
Deputy Kinchen described the assailant as a 6’4” black
male wearing a long coat and a hat. Both Deputies were
transported to a local hospital, where Deputy Kinchen
died from his injuries.
Officers who responded to the scene found a trail of
blood leading from the crime scene to a vacant house and
nearby woods. The investigating officers believed the
blood belonged to the fleeing assailant. Neighbors also
reported seeing a bleeding and injured man in the area
that night.
The next day, while on morphine and other medication,
Deputy English identified Al-Amin as the assailant after
examining a photo lineup. Soon after, law enforcement
received a tip that Al-Amin was in White Hall, Alabama.
Federal and local law enforcement converged on White
Hall, where, after an exchange of gunfire with a fleeing
figure matching Al-Amin’s description, 2 they eventually
found Al-Amin unarmed and alone near a wooded area.
When officers arrested Al-Amin, he was wearing a
bulletproof vest and had the keys to his black Mercedes.
Al-Amin’s medical assessment revealed no signs that he
was recently shot or wounded.

2. Defense witnesses at trial testified that that they observed
this portion of the manhunt for Al-Amin and that only law
enforcement officials fired their weapons. The officers testified
they exchanged gunfire with the suspect as he fled through the
woods.

4a
Appendix A
A fter A l-Amin was arrested, law enforcement
searched the surrounding area for other evidence. The
officers located a 9mm pistol and ammunition. The next
day, officers recovered a bag in the woods containing,
among other things, ammunition, a cell phone, registration
documents for a Mercedes indicating that Al-Amin was
the owner, Al-Amin’s passport, and a bank statement for
Al-Amin. An assault rifle was also discovered nearby.
Expert testimony at trial later established that these
weapons were those used to shoot Deputies Kinchen and
English. Experts matched, for example, the two 9mm
bullets recovered during Deputy Kinchen’s autopsy to
the pistol found at White Hall. Experts also matched
the shell casings found at the scene of the Fulton County
shooting and in the area of Al-Amin’s White Hall arrest
to the .223-caliber Ruger rifle recovered in the White
Hall woods.
Several days after apprehending Al-Amin, law
enforcement discovered his Mercedes on his friend’s
private property. The car was riddled with bullet holes.
Investigators later matched the bullets recovered from
the Mercedes to the Deputies’ service weapons.
Al-Amin was charged with malice murder and various
other offenses in Georgia state court. During the jury
trial, the state’s case against Al-Amin included, among
other things, the physical evidence from White Hall and
in-court testimony by Deputy English identifying Al-Amin
as the assailant.

5a
Appendix A
Invoking his Fifth Amendment right against selfincrimination, Al-Amin did not testify. Al-Amin nonetheless
presented a substantial defense. Approximately twenty
witnesses testified on his behalf, including a neighbor
and eyewitness to the shooting who testified that he was
“absolutely positive” that Al-Amin was not the shooter.
The defense showed that although the Deputies were
confident that they had shot their assailant and there was
a blood trail leading away from the scene, Al-Amin was
not injured when he was apprehended. The defense also
attempted to undermine Deputy English’s identification
of Al-Amin as the shooter. The defense emphasized that
Deputy English was on morphine when he picked Al-Amin
out of a lineup, and that Deputy English had consistently
said the shooter had grey eyes, while Al-Amin has dark
brown eyes.
At trial, the defense argued that law enforcement—
namely, FBI Agent Ron Campbell—planted the weapons
found in the White Hall woods, noting that law enforcement
had never connected Al-Amin’s DNA or fingerprints to
the weapons. 3 Five years before Al-Amin’s arrest, Agent
Campbell was involved in a shooting of an allegedly
unarmed Muslim black man. News reports suggested that
law enforcement may have planted a weapon at the scene,
but Agent Campbell was later cleared of any wrongdoing
in that incident. The trial court refused to let the defense
cross-examine Agent Campbell about this past shooting.
3. As part of its general defense theory, the defense argued
that law enforcement targeted Al-Amin given his status as a
controversial civil rights activist.

6a
Appendix A
During closing arguments, the prosecution told the
jury, “I want to leave you with a few questions you should
have for the defendant.” The prosecution then presented
a visual aid to the jury titled, “QUESTIONS FOR THE
DEFENDANT.” This visual aid included several written
questions, including:
Why would the FBI care enough to frame you?
How did the murder weapons end up in White
Hall?
How did your Mercedes get to White Hall?
How did your Mercedes get shot up?
Why did you flee (without your family)?
Where were you at 10PM on March 16, 2000?
The prosecution also posed these rhetorical questions
aloud to the jury:
Why would the FBI care enough to frame you?
How did the murder weapons end up in White
Hall? . . . Mr. Defendant, how did those murder
weapons get there to White Hall?
Next question. How did your Mercedes get to
White Hall? . . . Did you drive it there?

7a
Appendix A
More important, how did your Mercedes get
shot up?
Defense counsel objected to both the chart and these
questions and moved for a mistrial. The court denied the
motion but ruled that the prosecution should not focus
on Al-Amin’s choice not to testify or failure to present
evidence. The court offered to give a curative instruction,
but the defense declined it, believing such an instruction
would compound the error. The prosecution then changed
its visual aid to read “Q uestions for the D efense”
and continued with its closing arguments. After the
prosecution again asked a question directed specifically
towards Al-Amin, the defense again moved for a mistrial.
This time, the defense asked for a curative instruction
given the impropriety of the comments and chart. The
trial court chastised defense counsel in front of the jury,
characterizing the defense’s objections as “what you
believe is an impropriety.” The trial court overruled the
defense’s objections, but eventually gave an instruction:
There has been an objection to some of [the
prosecution’s] closing which the Court has
overruled. However, in order to clarify, I’m
going to make very clear what I believe is
appropriate.
This is closing argument. Closing argument is
not evidence. Attorneys may draw inferences
and urge you to draw inferences from the
evidence. It is proper for the attorneys to argue
a failure to present certain evidence. However,

8a
Appendix A
you must keep in mind that a defendant in a
criminal case is under no duty to present any
evidence to prove innocence and is not required
to take the stand and testify in the case.
If a defendant elects not to testify, no inference
hurtful, harmful or adverse to him shall be
drawn by you, and no such fact shall be held
against him.
However, it is proper for one side or the other
to comment on failure to present certain
evidence, but not to comment on the failure of
the Defendant to testify. And I’m clarifying
this, that, as you know, the burden of proof
always remains on the State to prove the
guilt of a defendant as to any charge beyond a
reasonable doubt.
The court also emphasized to the jury that it gave the
instruction “just in an abundance of caution” and reiterated
that the court had overruled Al-Amin’s objections to the
prosecutor’s closing argument. The defense renewed its
mistrial motion, arguing the instruction was insufficient.
The motion was denied.
After the instruction, the prosecution continued with
its closing argument, and asked the last question on the
chart: “Where was the defendant at 10 p.m. on March
16?” The prosecution answered its own question: “He was
standing outside his black Mercedes murdering Deputy
Ricky Kinchen and trying to murder Deputy Aldranon
English. That’s the only evidence you have heard and will

9a
Appendix A
hear in this case as to where Jamil Abdullah Al-Amin
was at 10 p.m. on March 16, 2000. That’s it.” The defense,
interpreting this as another comment on Al-Amin’s
decision not to testify, again moved for a mistrial. The
court denied the motion.4 The jury convicted Al-Amin on
all counts, and the court sentenced him to life without the
possibility of parole.
On direct appeal, the Georgia Supreme Court affirmed
Al-Amin’s convictions. Al-Amin v. State, 278 Ga. 74, 597
S.E.2d 332 (2004). The court held that the trial court did
not abuse its discretion in refusing to let Al-Amin crossexamine FBI Agent Campbell about prior allegations
of planting a gun. Id. at 84. The court also held that the
prosecution violated Al-Amin’s Fifth Amendment right
against self-incrimination during closing arguments. Id.
at 84-86. The court found this error harmless, however,
under Chapman v. California, 386 U.S. 18, 87 S. Ct.
824, 17 L. Ed. 2d 705 (1967). The Supreme Court denied
certiorari. Al-Amin v. Georgia, 543 U.S. 992, 125 S. Ct.
509, 160 L. Ed. 2d 380 (2004).
Al-Amin then filed a state habeas petition, which
was denied. 5 The Georgia Supreme Court also denied
4. At the end of its rebuttal argument, the prosecution also
told the jury: “You watched what happened in this courtroom,
who wouldn’t stand for you. Don’t stand for him.” This was a clear
reference to Al-Amin’s religiously based and court approved
decision not to stand when the jury or judge entered the courtroom.
The prosecutor’s comments were patently improper.
5. In support of his state habeas petition, Al-Amin included
an affidavit from a juror at his trial. The district court declined

10a
Appendix A
his Application for a Certificate of Probable Cause. AlAmin then filed the instant federal habeas petition. The
district court, like the Georgia Supreme Court, held
that Al-Amin’s Fifth Amendment rights were violated
by the prosecutor’s comments at closing arguments. The
district court ultimately held, however, that Al-Amin was
not entitled to relief under the stringent harmless error
standard under Brecht v. Abrahamson, 507 U.S. 619, 113
S. Ct. 1710, 123 L. Ed. 2d 353 (1993). The district court also
denied Al-Amin’s Confrontation Clause claim regarding
Agent Campbell. The district court granted Al-Amin a
certificate of appealability on all claims.
II. Standard of Review
We review de novo the district court’s denial of a
28 U.S.C. § 2254 petition. Ward v. Hall, 592 F.3d 1144,
1155 (11th Cir. 2010). Because Al-Amin seeks collateral
review, his appeal is governed by the Antiterrorism and
Effective Death Penalty Act of 1996 (AEDPA), which
“establishes a highly deferential standard for reviewing
state court judgments.” Parker v. Sec’y, Dep’t of Corr., 331
F.3d 764, 768 (11th Cir. 2003). Under AEDPA, a federal
court may only grant habeas relief to a state petitioner
if the state court’s determination of a federal claim was
(1) “contrary to, or involved an unreasonable application
of, clearly established Federal law” or (2) “was based on
an unreasonable determination of the facts in light of the
to consider this affidavit, as do we. Both federal law and Georgia
law permit the introduction of jury testimony to impeach a verdict
only in rare circumstances, none of which are present here. See
O.C.G.A. § 24-6-606(b); Fed. R. Evid. 606(b)(2).

11a
Appendix A
evidence presented in the State court proceeding.” 28
U.S.C. § 2254(d).
W hen a defenda nt a l leges a non- st r uc t u ra l
constitutional error at his trial, a state court reviewing
a conviction on direct review analyzes the error under
the standard established in Chapman v. California, 386
U.S. 18, 87 S. Ct. 824, 17 L. Ed. 2d 705 (1967). Under the
Chapman standard, a constitutional violation is harmless
if the government can show beyond a reasonable doubt
that the error did not contribute to the verdict. Chapman,
386 U.S. at 24.
But on collateral review, we apply a more stringent
harmless error standard. See Brecht, 507 U.S. at 623.
Under Brecht, we cannot grant habeas relief unless we
have “grave doubt” that the constitutional error “had
substantial and injurious effect or influence in determining
the jury’s verdict.” O’Neal v. McAninch, 513 U.S. 432,
436, 115 S. Ct. 992, 130 L. Ed. 2d 947 (1995) (explaining
the Brecht standard). To prevail, a petitioner must show
“actual prejudice” from the constitutional error. Trepal
v. Sec’y, Fla. Dep’t of Corr., 684 F.3d 1088, 1110 (11th
Cir. 2012). “To show prejudice under Brecht, there must
be more than a reasonable possibility that the error
contributed to the conviction or sentence.” Mansfield v.
Sec’y, Dep’t of Corr., 679 F.3d 1301, 1313 (11th Cir. 2012)
(quotation and citation omitted).
“Harmlessness under the Brecht standard is a
question of law that we review de novo.” Id. at 1307.
Ultimately, “for a federal court to grant habeas relief,

12a
Appendix A
it must be true both that the state court’s application
of the Chapman harmless beyond a reasonable doubt
standard was objectively unreasonable and that the error
had a substantial and injurious effect or influence on the
verdict.” Id. at 1307-08; see also Fry v. Pliler, 551 U.S.
112, 119, 127 S. Ct. 2321, 168 L. Ed. 2d 16 (2007).
III.

Discussion

On appeal, Al-Amin argues that (1) the State violated
his Fifth and Fourteenth Amendment rights when the
prosecution engaged in a mock cross-examination of him
after he invoked his right not to testify, and (2) the State
violated his Sixth and Fourteenth Amendment rights
by precluding him from cross-examining FBI Agent
Campbell about alleged conduct in a past shooting. AlAmin argues that because both errors prejudiced him,
he is entitled to relief under Brecht.
A.

Griffin Error Analysis

The Fifth Amendment prohibits a prosecutor from
commenting directly or indirectly on a defendant’s choice
not to testify. See Griffin v. California, 380 U.S. 609,
614-15, 85 S. Ct. 1229, 14 L. Ed. 2d 106 (1965); see also
United States v. Knowles, 66 F.3d 1146, 1162 (11th Cir.
1995). A comment amounts to a constitutional violation
where it was “manifestly intended to be a comment on the
defendant’s failure to testify” or it was “of such a character
that a jury would naturally and necessarily take it to be a
comment on” the defendant’s silence. Isaacs v. Head, 300
F.3d 1232, 1270 (11th Cir. 2002) (quotation omitted). The

13a
Appendix A
prosecutor’s “comment must be examined in context, in
order to evaluate the prosecutor’s motive and to discern
the impact of the statement.” Knowles, 66 F.3d at 1163.
It is not erroneous, for example, for a prosecutor “to
comment on the failure of the defense, as opposed to the
defendant, to counter or explain the evidence.” United
States v. Griggs, 735 F.2d 1318, 1321 (11th Cir. 1984)
(quotation omitted).
Every court to review this case—including the Supreme
Court of Georgia—concluded that the prosecutor’s
comments during closing argument violated Al-Amin’s
Fifth Amendment right not to testify. The Georgia
Supreme Court found that the prosecutor’s comments and
use of the chart amounted to a “mock cross-examination”
of a defendant who had invoked his right to remain silent.
See Al-Amin v. State, 278 Ga. 74, 85, 597 S.E.2d 332 (2004).
We agree. The prosecutor’s closing argument highlighted
the defendant’s failure—not the defense’s failure—to
explain inculpatory evidence. The mock cross-examination
was thus “of such a character that a jury would naturally
and necessarily take it to be a comment on” the defendant’s
silence. Isaacs, 300 F.3d at 1270 (quotation omitted). This
was constitutional error.
The primary issue, then, is not whether Al-Amin’s
Fifth Amendment rights were violated, but whether AlAmin suffered actual prejudice from the error. See Davis
v. Ayala, 135 S. Ct. 2187, 2197, 192 L. Ed. 2d 323 (2015)
(“For reasons of finality, comity, and federalism, habeas
petitioners are not entitled to habeas relief based on trial
error unless they can establish that it resulted in actual

14a
Appendix A
prejudice.” (quotation omitted)). This requires “more than
a reasonable probability that the error was harmful.” Id.
at 2198 (quotation omitted). Determining whether the
error was harmful requires a close examination of the
facts particular to the case. See Mansfield, 679 F.3d at
1313; see also Trepal, 684 F.3d at 1114 (explaining that,
to determine “the effect on the verdict of a constitutional
error, the Court must consider the error ‘in relation to all
else that happened’ at trial” (quoting Kotteakos v. United
States, 328 U.S. 750, 764, 66 S. Ct. 1239, 90 L. Ed. 1557
(1946))).
To determine whether a trial error was harmless, we
typically consider the magnitude of the error, the effect
of any curative instruction, and whether the prosecution
otherwise presented overwhelming evidence of guilt to the
jury. See, e.g., Hill v. Turpin, 135 F.3d 1411, 1416-19 (11th
Cir. 1998) (holding that a Doyle error 6 was not harmless
when the prosecutor’s statements were “repeated and
deliberate,” the trial court’s curative instruction was
ineffective, there were significant weaknesses in the
state’s case, and the defendant’s credibility was critical to
his case). Other circuits have considered similar factors
in the specific context of a Griffin error. See Gongora v.
Thaler, 710 F.3d 267, 278 (5th Cir. 2013) (holding that a
Griffin error was not harmless when there were repeated
references to defendant’s silence, the jury instructions
to ignore the references were ineffective, and there was
substantial evidence supporting acquittal).
6. A Doyle error refers to when the prosecution uses a
defendant’s post-Miranda silence to impeach a defendant’s
exculpatory testimony at trial. See Doyle v. Ohio, 426 U.S. 610,
96 S. Ct. 2240, 49 L. Ed. 2d 91 (1976).

15a
Appendix A
We agree with Al-Amin, and with the district court,
that the constitutional error in Al-Amin’s case was
substantial. The prosecutor’s unconstitutional comments
were not isolated—they were instead repeated and central
to his closing argument.
We also agree that the trial court’s curative instruction
was largely ineffective. The trial court likely confused the
jury by instructing that, although it was not proper for the
prosecution to comment “on the failure of the Defendant to
testify,” it was proper for the prosecution to comment on
one side’s “failure to present certain evidence.”7 The court
further undermined this instruction when it admonished
the defense attorneys in front of the jury, emphasized
that it was overruling the defense’s objections to the
prosecution’s closing argument, and reiterated that it was
giving the instruction “just in an abundance of caution.”
The instruction thus did little to cure the error.
To determine whether the error prejudiced Al-Amin,
we must consider it in light of everything that happened
at trial. See Trepal, 684 F.3d at 1114. The district court
ultimately denied habeas relief because it found that the
7. It is proper for a prosecutor to comment on the defense’s
failure to present evidence. See United States v. Griggs, 735 F.2d
1318, 1321 (11th Cir. 1984). But when we consider the trial court’s
instruction in light of the prosecutor’s specific closing argument
in Al-Amin’s case, we find that the jury could have understood
this instruction to mean that it could consider Al-Amin’s failure—
instead of the defense’s failure—to counter or explain the
evidence. At a minimum, after multiple rounds of objections and
arguments, the jury was likely confused about which comments
it was permitted to consider.

16a
Appendix A
evidence proving Al-Amin’s guilt was otherwise “weighty”
or “overwhelming.” We are unable to quarrel with the
district court’s determination. The prosecution introduced
substantial physical evidence recovered from White Hall
linking Al-Amin to the crime. The White Hall ballistics
evidence included, for example, the same ammunition
used to shoot the Deputies among Al-Amin’s personal
effects, the gun used to shoot the Deputies, and Al-Amin’s
Mercedes, found hidden in White Hall and riddled with
bullets matched to the Deputies’ service weapons. The
prosecution also presented evidence that the Mercedes
drove away immediately after the shooting and that the
car’s registration and keys were found on Al-Amin when
he was apprehended. Finally, the prosecution presented
Deputy English’s eyewitness identification of Al-Amin as
his shooter, which was consistent with his identification
in the hours following the shooting.
But Brecht does not necessarily demand that we deny
relief to a defendant even when there is overwhelming
evidence against him, especially in the face of a substantial
and uncured error. Brecht adopted its harmless error
standard from Kotteakos v. United States, which explained
that the harmless error analysis does not focus solely
on whether there was enough evidence to convict the
defendant. See Kotteakos, 328 U.S. 750, 765, 66 S. Ct.
1239, 90 L. Ed. 1557 (1946) (“The inquiry cannot be merely
whether there was enough to support the result, apart
from the phase affected by the error.”). We instead must
consider the specific context and circumstances of the trial
to determine whether the error contributed to the verdict.

17a
Appendix A
At Al-Amin’s trial, the defense’s general theory of the
case was that law enforcement had targeted and framed
Al-Amin for the murder of Deputy Kinchen. An important
component of this theory was that the FBI had planted
the murder weapons and other incriminating evidence at
the scene at White Hall to connect Al-Amin to the murder.
The viability of this theory turned on (1) the credibility
of Deputy English’s identification of Al-Amin as the
assailant, and (2) the reliability of the physical evidence
found in White Hall. Both issues can be—and likely
were—resolved by weighing the credibility of competing
eyewitness accounts and expert opinions on the reliability
and chain of the physical evidence. We find it unlikely that
the verdict was substantially affected by the prosecutor’s
attempt to highlight that Al-Amin had not explained his
whereabouts or activity.
Al-Amin argues this case is similar to Hill v. Turpin,
135 F.3d 1411 (11th Cir. 1998), in which we granted habeas
relief in light of an uncured Doyle error. In Hill, the State
lacked concrete eyewitness testimony or strong physical
evidence connecting the defendant to a murder. The
defendant, who served as the defense’s primary witness,
testified that he was unarmed at the time of the murder.
Id. at 1418. Throughout the trial, the prosecution made
multiple references to the defendant’s post-Miranda
silence, each time attempting to impeach his story that
he was unarmed. Id. at 1414-15. These errors were not
cured, and when we considered both the “significant
weaknesses in the state’s case against [the defendant]”
and “the importance of [the defendant’s] credibility to
his defense,” we found that the error likely impacted the

18a
Appendix A
verdict and prejudiced the defendant. Id. at 1416-17. The
defendant was therefore entitled to habeas relief.
A l-A m i n’s ca se is d i f ferent . Given both the
overwhelming evidence against Al-Amin—including
physical evidence and eyewitness testimony—and the
difficulty in tracing the error to the verdict in his case, we
conclude that Al-Amin did not suffer actual prejudice from
the error. 8 Al-Amin is thus not entitled to habeas relief.9
B. Confrontation Clause Analysis
The Sixth Amendment, applicable to the States
through the Fourteenth Amendment, guarantees a
criminal defendant “the right . . . to be confronted with the
8. Because Al-Amin does not satisfy the Brecht standard,
we need not consider whether the Georgia Supreme Court
unreasonably applied the Chapman harmless error standard in
denying relief. See Mansfield, 679 F.3d at 1308 (explaining that
we may deny relief based solely on a determination that a federal
constitutional error was harmless under the Brecht standard).
9. Brecht also recognized the possibility that “in an unusual
case, a deliberate and especially egregious error . . . or one that
is combined with a pattern of prosecutorial misconduct” could
warrant habeas relief even if the error did not substantially
influence the jury’s verdict. Brecht, 507 U.S. at 638 n.9. Al-Amin
urges us to use Brecht’s exception for “deliberate and egregious”
trial errors to grant habeas relief if we do not find that he suffered
actual prejudice. While we condemn the prosecutor’s behavior
in the instant case, we do not believe the error rises to the level
contemplated by the Supreme Court as to merit reversal under
Brecht’s exception. We do not foreclose the possibility, however,
that such a case may emerge.

19a
Appendix A
witnesses against him.” U.S. Const. amend. VI. A court
violates the Confrontation Clause when it inappropriately
restricts the scope of cross-examination. See Delaware
v. Fensterer, 474 U.S. 15, 19, 106 S. Ct. 292, 88 L. Ed. 2d
15 (1985); Davis v. Alaska, 415 U.S. 308, 316-18, 94 S. Ct.
1105, 39 L. Ed. 2d 347 (1974). But “trial judges retain wide
latitude insofar as the Confrontation Clause is concerned
to impose reasonable limits on such cross-examination
based on concerns about, among other things, harassment,
prejudice, confusion of the issues, the witness’ safety,
or interrogation that is repetitive or only marginally
relevant.” Delaware v. Van Arsdall, 475 U.S. 673, 679, 106
S. Ct. 1431, 89 L. Ed. 2d 674 (1986).
If a defendant’s Confrontation Clause rights are
violated, the error should be analyzed on direct review
under Chapman’s harmless beyond a reasonable doubt
standard. Id. at 684. On federal collateral review, however,
we review an alleged Confrontation Clause error under
Brecht’s actual prejudice standard. See Grossman v.
McDonough, 466 F.3d 1325, 1339 (11th Cir. 2006). Whether
such an error was harmless may depend on, among other
things, “the importance of the witness’ testimony in the
prosecution’s case, whether the testimony was cumulative,
the presence or absence of evidence corroborating or
contradicting the testimony of the witness on material
points, the extent of cross-examination otherwise
permitted, and, of course, the overall strength of the
prosecution’s case.” Van Arsdall, 475 U.S. at 684.
Of course, we must first find an error before we can
determine whether that error is harmless. See Williams

20a
Appendix A
v. Singletary, 114 F.3d 177, 180 (11th Cir. 1997). Al-Amin
claims the State violated his Sixth and Fourteenth
Amendment rights by precluding him from crossexamining FBI Agent Ron Campbell about Campbell’s
previous involvement in a shooting of an allegedly
unarmed Muslim man in 1995. Newspaper accounts at
the time alleged that law enforcement may have planted
a gun to cover up the shooting, although Agent Campbell
was later cleared of any wrongdoing. The defense intended
to question Agent Campbell about the incident, but the
trial court did permit this line of questioning, believing
it would confuse the jury. Al-Amin argues that the error
prejudiced him because this line of questioning was critical
to his defense theory that Agent Campbell planted the
murder weapons in White Hall, Alabama.
Like the district court, we discern no Confrontation
Clause error. Agent Campbell was investigated and cleared
of any wrongdoing in the incident, and the newspaper
accounts accusing law enforcement of wrongful conduct
did not allege wrongdoing by Agent Campbell individually,
but by law enforcement more generally. Al-Amin’s
proposed questioning about the prior shooting was thus
inherently speculative and likely to lead the jury astray.
Importantly, the trial court otherwise permitted crossexamination of Agent Campbell, and the prohibition on
cross-examining Agent Campbell about these particular
allegations did not prevent Al-Amin from making his
general defense that the weapons were planted. Although
“the Confrontation Clause guarantees an opportunity
for effective cross-examination,” it does not guarantee
“cross-examination that is effective in whatever way, and

21a
Appendix A
to whatever extent, the defense might wish.” Fensterer,
474 U.S. at 20. Given the trial court’s significant discretion
to limit the scope of cross-examination where appropriate,
we find no constitutional error.
IV. Conclusion
The standard for granting habeas relief under
Brecht is extremely demanding. And it provides no
disincentive for a prosecutor to disregard the boundaries
of his constitutional obligation. We regret that we cannot
provide Mr. Al-Amin relief in the face of the prosecutorial
misconduct that occurred at his trial. A prosecutor’s duty
in a criminal proceeding is not to secure a conviction by
any means, but to ensure that justice will prevail. See
Berger v. United States, 295 U.S. 78, 88, 55 S. Ct. 629,
79 L. Ed. 1314 (1935). The prosecutor at Al-Amin’s trial
failed to live up to that duty. Al-Amin is nevertheless not
entitled to habeas relief unless the error had a substantial
and injurious effect on the jury’s verdict. Because Al-Amin
has not shown that the Griffin error prejudiced him, the
error was not harmful under Brecht v. Abrahamson. Nor
has Al-Amin successfully shown a Confrontation Clause
error. Accordingly, we affirm the district court’s denial
of habeas relief.
AFFIRMED

22a
B THE UNITED
APPENDIX B —Appendix
ORDER OF
STATES DISTRICT COURT FOR THE NORTHERN
DISTRICT OF GEORGIA, ATLANTA DIVISION,
FILED SEPTEMBER 29, 2017
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
HABEAS CORPUS
28 U.S.C. § 2254
CIVIL ACTION NO.
1:12-CV-1688-AT-GGB
JAMIL ABDULLAH AL-AMIN,
Petitioner,
v.
JOHN “J.T.” SHARTLE, WARDEN, et al.,
Respondents.
ORDER
This matter is before the Court on Petitioner Jamil
Abdullah Al-Amin’s (“Mr. Al-Amin”) Objections to the
Magistrate Judge’s Report and Recommendation (“R&R”)
that Mr. Al-Amin’s Fourth Amended Habeas Petition be
denied. For the following reason, the Court OVERRULES
Mr. Al-Amin’s Objections and DENIES his habeas
petition. The Court GRANTS Mr. Al-Amin a Certificate

23a
Appendix B
of Appeal as to all claims discussed in this Order (and not
already abandoned by him).
I.

St a nd a r d of R e v iew for a R ep or t a nd
Recommendation

Under 28 U.S.C. § 636(b)(1), the Court reviews the
Magistrate Judge’s Report and Recommendation for
clear error if no objections are filed to the report. 28
U.S.C. § 636(b)(1). If a party files objections, however,
the district court must determine de novo any part of the
Magistrate Judge’s disposition that is the subject of a
proper objection. Fed. R. Civ. P. 72(b); 28 U.S.C. § 636(b).
Petitioner has objected to the entirety of the R&R. The
Court therefore reviews the Petition and record on an
independent de novo basis.
II. Procedural Background
Petitioner Al-Amin1 is a former civil rights activist
who served as a community leader for over two decades
in Atlanta’s West End neighborhood. He was the fifth
Chairman of the Student Nonviolent Coordinating
Committee and one of a “handful of civil rights leaders
. . . specifically identified in the [1967] FBI memorandum
outlining the counterintelligence program known as
‘COINTELPRO,’ the purpose of which was to ‘expose,
disrupt . . . or otherwise neutralize’ civil rights leaders
and organizations.” (Fourth Am. Pet. at 23.)

1. Mr. Al-Amin was formerly known as H. Rap Brown.

24a
Appendix B
On March 9, 2002 Mr. Al-Amin was convicted of malice
murder and other offenses related to the March 16, 2000
shooting of Fulton County, Georgia Deputy Sheriffs Ricky
Kinchen and Aldranon English. He filed a motion for a new
trial, which was denied on July 2, 2003. Mr. Al-Amin then
filed a notice of appeal with the Supreme Court of Georgia.
In his appeal, Mr. Al-Amin argued that his constitutional
rights were violated when the prosecutor engaged in a
mock cross-examination of Mr. Al-Amin even though
he had invoked his right to remain silent. The Supreme
Court of Georgia agreed that Mr. Al-Amin’s rights were
violated but found that the error was harmless. Al-Amin v.
Georgia, 597 S.E.2d 332, 346 (Ga. 2004). The court reached
its decision by viewing the evidence against Mr. Al-Amin
in the “light most favorable to the verdict,” looking only
to “determine if the evidence was sufficient for a rational
trier of fact to find” Mr. Al-Amin guilty of the charged
offenses. Id. at 339 (citing Jackson v. Virginia, 443 U.S.
307 (1979)). The United States Supreme Court declined to
grant certiorari. Al-Amin v. Georgia, 543 U.S. 992 (2004).
Mr. Al-Amin filed his state habeas petition in 2005.
The state court held an evidentiary hearing on February
27, 2007, and denied relief on July 28, 2011. The Supreme
Court of Georgia denied a certificate of probable cause to
appeal on May 7, 2012. (Doc. 1-11.) Mr. Al-Amin next filed
his federal habeas petition in Colorado. It was transferred
to this district shortly thereafter. He amended his petition
several times, finally filing his Fourth Amended Petition
on November 24, 2015. His Fourth Amended Petition
raises four claims:

25a
Appendix B
(1) the State violated Al-Amin’s Fifth and
Fourteenth A mendment rights when the
prosecut ion eng aged i n a mock c ross examination of him after he invoked his right
not to testify;
(2) the State violated Al-Amin’s Sixth and
Fourteenth Amendment rights by precluding
him from cross-examining FBI Agent Ron
Campbell about Campbell’s involvement in a
1995 shooting of a black Muslim man;
(3) Al-Amin was deprived of effective assistance
of counsel; and
(4) the State violated Brady v. Maryland by
failing to provide exculpatory evidence.
Mr. Al-Amin voluntarily withdrew his Brady claim
(claim four in the Petition) on December 23, 2015. (Doc.
135.) On March 24, 2016, the Magistrate Judge issued the
instant R&R.
The Magistrate Judge first recommended that the
Court find that Mr. Al-Amin’s Fifth Amendment rights
were violated when the prosecution made repeated
references to Al-Amin’s silence. The Magistrate Judge
further recommended finding that the Supreme Court
of Georgia unreasonably erred in calling this violation
harmless because that court (incorrectly) looked only
at the evidence most favorable to the verdict, not the
whole record. (R&R at 11.) However, the Magistrate

26a
Appendix B
Judge found that any error at Mr. Al-Amin’s trial did
not have a “substantial and injurious effect” on the jury
because the remainder of the evidence against him was so
overwhelming and because the trial court “immediately
and comprehensively” addressed the prosecutor’s
unconstitutional closing remarks. (R&R at 28); Brecht v.
Abrahamson, 507 U.S. 619, 629 (1993). For these reasons,
the Magistrate Judge recommended that all remaining
claims in Mr. Al-Amin’s Petition be denied.
Mr. Al-Amin argues that the R&R was incorrect for
several primary reasons.
• First, he says that the R&R failed to give
proper weight to the fact that the violations
were repeated and core to the prosecution’s
closing argument. (Objections, Doc. 143 at
17.)
• Second, he argues that that the trial court’s
instructions were at best ineffectual and at
worst actively harmful. (Id. at 15-17.)
• Third, he claims that the prosecution did
not put on overwhelming evidence of guilt in
light of the “significant evidence supporting
acquittal.” (Id. at 25.)
• Fourth, he contends that the two reasons
offered by the Magistrate Judge to reject
Al-Amin’s confrontation clause claim – that
FBI Agent Ron Campbell was not a key
witness and that Al-Amin failed to offer

27a
Appendix B
“admissible” evidence to support asking
Campbell about a 1995 shooting – are
irrelevant.
• Fifth, he argues that the Magistrate
Judge failed to appreciate that the state
habeas court made an unreasonable fact
determination in rejecting Mr. Al-Amin’s
ineffective assistance of counsel claim.
• Sixth, he argues that the Magistrate Judge
erred in rejecting his cumulative error
argument.
III. Legal Standards
This case primarily requires the Court to assess if the
constitutional errors in Mr. Al-Amin’s trial were harmless,
or instead so impacted the jury’s verdict that the Court
must grant habeas relief. The procedural posture of this
case has a significant impact on both the evidence the
Court must consider in deciding that question and on the
Court’s ultimate answer.
In Mr. Al-Amin’s direct appeal, the Supreme Court of
Georgia reviewed whether (1) the State violated Mr. AlAmin’s constitutional rights at trial and (2) if so, if those
violations were “harmless beyond a reasonable doubt.”
Chapman v. California, 386 U.S. 18, 23-24 (1967). The
Supreme Court of Georgia was required to examine “the
whole record” to determine if the error was harmless.
Delaware v. Van Ardsall, 475 U.S. 673, 681 (1986). The

28a
Appendix B
Supreme Court of Georgia agreed that Mr. Al-Amin’s
Fifth and Fourteenth Amendment right to not testify
was violated but then held such error was harmless after
(incorrectly) viewing the evidence in the “light most
favorable to the verdict.” Al-Amin, 597 S.E.2d at 346.
The Supreme Court of Georgia thus erred when it failed
to review the whole record when judging the impact of
the violations.
But this habeas case is a collateral proceeding, not a
direct appeal. Therefore, the Court must impose the twin
requirements of the Antiterrorism and Effective Death
Penalty Act of 1996 (“AEDPA”) and the Supreme Court’s
harmless error test laid out in Brecht v. Abrahamson,
507 U.S. 619, 629 (1993) – not the harmless error test
established by Chapman. The Court thus looks at this case
through a different prism than that used by the Supreme
Court of Georgia on direct appeal.
Under AEDPA:
An application for a writ of habeas corpus on
behalf of a person in custody pursuant to the
judgment of a State court shall not be granted
with respect to any claim that was adjudicated
on the merits in State court proceedings unless
the adjudication of the claim(1) resulted in a decision that was contrary to, or
involved an unreasonable application of, clearly
established Federal law, as determined by the
Supreme Court of the United States; or

29a
Appendix B
(2) resulted in a decision that was based on an
unreasonable determination of the facts in light
of the evidence presented in the State court
proceedings.
AEDPA also requires this Court to presume that a state
court’s factual findings are correct. 28 U.S.C. § 2254(e)
(1). However, because the Supreme Court of Georgia
failed to consider “the whole record” when deciding if
the trial errors were harmless, the Court must now
consider the whole record. Libby v. Duval, 19 F.3d 733,
741 (1st Cir. 1994) (noting that both Chapman and Brecht
require “whole-record” review). For this reason, the
Court discusses evidence in the record not outlined in
the Supreme Court of Georgia’s decision rejecting Mr.
Al-Amin’s direct appeal.
If the Court determines that the state court
“unreasonably” applied Chapman, then it must also
determine that the trial error resulted in “actual
prejudice” before it can grant habeas relief under Brecht.
507 U.S. at 629. “Under this test, relief is proper only if
the federal court has grave doubt about whether a trial
error of federal law had substantial and injurious effect
or influence in determining the jury’s verdict.” Davis v.
Ayala, 135 S. Ct. 2187, 2198 (2015) (cleaned up). “There
must be more than a ‘reasonable possibility’ that the error
was harmful.” Id. (quoting Brecht, 507 U.S. at 637).
Brecht’s “actual prejudice” test is more onerous to
habeas petitioners than Chapman’s “harmless beyond a
reasonable doubt” test. Brecht “subsumes the limitations

30a
Appendix B
imposed by AEDPA,” Ayala, 135 S. Ct. at 2199, and
imposes its own requirements above and beyond AEDPA.
See id. (“Ayala must show that he was actually prejudiced
[by the error], a standard that he necessarily cannot
satisfy if a fair-minded jurist” could agree that the state
court’s harmlessness determination was reasonable.)
Thus, satisfying AEDPA is necessary but not sufficient to
satisfy Brecht’s requirements for habeas relief in a federal
court’s review of a state court criminal judgment. See
Mansfield v. Sec’y, Dep’t of Corr., 679 F.3d 1301, 1307–08
(11th Cir. 2012) (emphasis supplied) (“The Brecht standard
is more favorable to and less onerous on the state, and
thus less favorable to the defendant, than the Chapman
harmless beyond a reasonable doubt standard.”)
Ultimately, “for a federal court to grant habeas relief,
it must be true both that the state court’s application
of the Chapman harmless beyond a reasonable doubt
standard was objectively unreasonable and that the error
had a substantial and injurious effect or influence on the
verdict.” Mansfield, 679 F.3d at 1307–08.
With these standards in mind, the Court turns to the
facts of the case.
IV. Factual Background2
Deputy Kinchen and Deputy English arrived in
Mr. Al-Amin’s West End Neighborhood at around 10:00
2. The Court draws from the Record, the Petition, the R&R,
and Petitioner’s Objections to the R&R in presenting this factual
background.

31a
Appendix B
pm to serve Mr. Al-Amin with a Cobb County bench
warrant relating to a May 31, 1999 traffic stop. 3 They
were uniformed and driving a marked police car. After
finding that Mr. Al-Amin was not at home, the deputies
began to drive away. But they stopped and turned around
when they noticed a black 1979 Mercedes-Benz sedan
park in front of Mr. Al-Amin’s residence and witnessed an
individual they believed matched Mr. Al-Amin’s physical
description get out. The deputies pulled up nose-to-nose
with the Mercedes and then exited their vehicle. Deputy
English asked the individual to show him his right hand.
The man responded by frowning, saying “yeah,” raising
an assault rifle, and opening fire. (Doc. 29-3 at 66-70, 78.)
The deputies returned fire. (Doc. 29-3 at 77-81.) Deputy
English ran to an adjacent field and radioed for assistance.
Deputy Kinchen remained by the patrol car.
Both deputies were shot. Deputy English was shot
four times, and a pepper spray canister on his utility belt
was ruptured by a bullet, temporarily blinding him. (Doc.
29-3 at 13, 81-82, 98.) Deputy Kinchen was also hit several
times, and seriously wounded by a gunshot to his abdomen
just under his bulletproof vest. (Doc. 31-3 at 144, 157-58.)
While in the field adjacent to his parked squad car, Deputy
English radioed in a report that the shooter had fled north
in a black Mercedes-Benz. (Doc. 29-6 at 84.)
When responding officers arrived on the scene, Deputy
Kinchen identified the shooter as a 6’4” tall black male
3. The trial court later ruled that the traffic stop leading to
this warrant was unconstitutional and suppressed the resulting
indictment (but not the warrant itself). (Doc. 15-6 at 45-47.)

32a
Appendix B
in trench coat-like attire. (Doc. 29-6 at 7.) Both injured
officers were loaded into ambulances and transported to
a hospital for surgery. Deputy Kinchen died of his wounds
the day after the shooting. Deputy English, hospitalized
and under the influence of morphine4 (Doc. 31-5 at 152-156),
identified Mr. Al-Amin from a photo array of six pictures.
Deputy English was told before picking Mr. Al-Amin out
of the photo array that the suspect may or may not have
been in the array. (Doc. 29-3 at 108.) But when Deputy
English identified the shooter, he insisted the shooter had
grey eyes. (See Doc. 29-4 at 121.) Mr. Al-Amin’s eyes are
in fact brown, but were (mistakenly) listed as grey on the
Cobb County traffic warrant. Deputy English also later
identified Mr. Al-Amin in the courtroom during trial.
(Doc. 29-3 at 63.) Mr. Al-Amin attacked Deputy English’s
identifications by raising the “inherent concerns presented
where officers eager to secure an identification to support
an arrest warrant present a single photo line-up with only
six pictures.” Mr. Al-Amin also “raised numerous questions
regarding the reliability of Deputy English’s eyewitness
identification,” including the fact that he was blinded
during much of the gunfight by pepper spray, inaccurately
described the color of Mr. Al-Amin’s eyes, and was under
the influence of powerful pain medication. (Fourth Am. Pet.
at 48; Doc. 31-5 at 152-156.)
Both deputies were confident that they had wounded
the shooter. Deputy English testified that he fired three
rounds, “[t]wo to the chest, one to the head.” (Doc. 29-3
4. Deputy English was also prescribed Phenergan, but his
surgeon testified that the Phenergan dosage was not high enough
to have a sedative effect. (Doc. 31-5 at 156.)

33a
Appendix B
at 80.) Deputy Kinchen informed officers who arrived
on the scene that “I shot him, I think I shot him.” (Doc.
29-6 at 77.) On this basis, the police secured a search
warrant for blood, bloody clothing, and evidence of medical
intervention. (E.g., Doc. 30-1 at 74.) Ultimately, none of
this blood evidence matched Mr. Al-Amin.
Mr. Al-Amin acknowledges that he was in the West
End area during the shooting but denies any involvement
in it. 5 At the state habeas hearing, he testified that he fled
because he thought the shooting might be a retaliatory
attack directed towards him by third parties. Earlier on
the day of the shooting, Mr. Al-Amin had engaged in a
heated discussion with four young men he thought were
selling drugs in the neighborhood. He feared that they
were the ones doing the shooting, and that it was aimed at
him. (Doc. 1-3 at 141.) Mr. Al-Amin drove away from the
scene in a Mercedes. (Doc. 1-3 at 125.) He acknowledged
that the car may have been hit by gunfire: as he was
driving away, “the back window, you know, collapsed and
fell out of the car.” (Doc. 1-3 at 152.)6 He testified that this
too caused him to believe the shooting “was directed at
[him].” (Doc. 1-3 at 152.) After the shooting, Mr. Al-Amin
drove to White Hall, Alabama, a small town where he had
helped develop a Muslim community. (Doc. 1-3 at 128.)

5. The evidence in this paragraph is drawn from the state
habeas hearing.
6. (See also id. at 125 (“I didn’t know in terms that the car
had been hit until I pulled down the street and the back window
fell out.”).)

34a
Appendix B
The FBI tracked Mr. Al-Amin to White Hall and began
conducting surveillance in an attempt to locate him. Four
days after the shooting, United States Marshals spotted
Mr. Al-Amin in White Hall and reported that he fled into
the woods.7 United States Marshall Jerry Lowery testified
that Mr. Al-Amin took three shots at him and other law
enforcement officers just before retreating into the woods.
(Doc. 30-5 at 37-39.) Mr. Al-Amin presented civilian witnesses
at trial who testified that they observed this portion of the
manhunt for Mr. Al-Amin and that only law enforcement
officials fired their weapons. (E.g., Doc. 32-1 at 93-97.)
FBI agents (including an agent named Ron Campbell)
and a dog tracking team followed Mr. Al-Amin into the
woods. Three hours later, Mr. Al-Amin was apprehended
walking along a road near the woods, wearing torn jeans
and a bulletproof vest. He was carrying the keys to the
black Mercedes and driver’s licenses in his name from
three states. (Doc. 30-3 at 115-116; Doc. 30-7 at 65; 103;
Doc. 31-2 at 22-24.) While Mr. Al-Amin was handcuffed
and on the ground, Ron Campbell called Mr. Al-Amin a cop
killer, spit on him, and kicked him. Mr. Al-Amin showed no
signs of having been shot, and no gun residue was found
on him that might indicate he had fired a weapon recently.
(See Doc. 31-2 at 107. 139-40.)
After Mr. Al-Amin was apprehended, local and
federal officers combed Mr. Al-Amin’s path through the
7. There is conflicting testimony in the record about whether,
in the area near the woods, Mr. Al-Amin fired at law enforcement
officials, whether law enforcement officials fired at Mr. Al-Amin,
or whether both sides exchanged fire.

35a
Appendix B
woods. They discovered a piece of fabric from his jeans
on a barbed wire fence, a 9mm handgun and ammunition,
an assault rifle and ammunition, a nylon bag, documents
indicating Mr. Al-Amin owned the Mercedes-Benz, Mr.
Al-Amin’s day planner, a bank statement, a cell phone,
and a jacket with Mr. Al-Amin’s passport.
The 9mm pistol and assault rifle found in the White
Hall woods were the same used to shoot Deputies Kinchen
and English. However, they had no fingerprints on them,
and Mr. Al-Amin consistently contended that they were
planted by Ron Campbell. Several days later, investigators
found the license plate for the Mercedes-Benz. About a
week after that they found the car itself, riddled with
bullet holes fired from the deputies’ service weapons. The
car was in the White Hall area on property owned by a
friend of Mr. Al-Amin. (Doc. 31-3 at 2.)
Mr. Al-Amin maintained his innocence throughout the
investigation and trial. At trial, he offered nearly twenty
(20) witnesses, including Imhotep Shaka, an individual
who had known Mr. Al-Amin for several years. Shaka
testified that he witnessed the West End shooting and
saw the shooter, and was positive that it was not Al-Amin
because the shooter did not have Mr. Al-Amin’s distinctive
tall and skinny frame. (Doc. 32-3 at 88-90.) Another
eyewitness similarly testified that the shooter did not
match Mr. Al-Amin’s physical description. Mr. Al-Amin
also highlighted inconsistencies in the testimony and
evidence, several of which are listed on pages 22 and 23

36a
Appendix B
of the R&R. 8 In particular, Mr. Al-Amin focused on these
evidentiary problems:
1. The Deputies both stated that each was positive
or nearly positive that they had shot their assailant, but
Mr. Al-Amin did not have any gunshot wounds when he
was arrested.
2. There is evidence in the record that there was a trail
of blood from the scene of the crime to an empty house a
few blocks away, and a 911 operator received at least one
phone call stating that a man involved in the shooting was
bleeding and begging for a ride. (Doc. 128 at 49-50.) But
because Mr. Al-Amin was not shot, this blood trail cannot
be his and it is plain he was not the wounded individual
supposedly asking for a ride.
3. Deputy English reported and repeatedly testified
that the shooter had grey eyes, when Mr. Al-Amin has
brown eyes.
4. There is no fingerprint or gunshot residue evidence
connecting Mr. Al-Amin to the firearms used in the
murder,9 and no other evidence linking him to the weapons
other than the fact that they were found in his vicinity
in White Hall, Alabama. Mr. Al-Amin argued that Ron
Campbell planted the two guns found in the White Hall
woods.
8. The Court considered all of these inconsistencies when
viewing the record as a whole.
9. The Court notes that investigators did not test Al-Amin
for gunshot residue. (Doc. 31-2 at 107, 119, 139-40.)

37a
Appendix B
Finally, Mr. Al-Amin offered the witnesses from
White Hall who claimed that United States Marshalls or
FBI agents fired at Mr. Al-Amin.
Mr. Al-Amin elected not to take the stand to testify
at his trial, on his attorneys’ advice. During closing
arguments, the prosecution repeatedly referenced Mr.
Al-Amin’s decision to remain silent. The prosecutor
first did so by displaying a visual aid for the jury titled,
“QUESTIONS FOR THE DEFENDANT.” This visual
aid posed several mock cross-examination questions,
including:
Who is Mustafa?
Why would the FBI care enough to frame you?
How did the murder weapons end up in White
Hall?
How did your Mercedes get to White Hall?
How did your Mercedes get shot up?
Why did you flee (without your family?)
Where were you at 10 PM on March 16, 2000?
The prosecutor then stated that he wanted to leave
the jury “with a few questions you should have for the
defendant.” He then rattled off a series of queries aimed
at Mr. Al-Amin which mirrored the visual aid:
“The First Question. Who is Mustafa?”
“Question two. Why would the FBI care enough
to frame you?”

38a
Appendix B
“Third question. How did the murder weapons
end up in White Hall? . . . Mr. Defendant, how
did those murder weapons get there to White
Hall?”
“Next question. How did your Mercedes get to
White Hall? . . . More important, how did your
Mercedes get shot up?”
(Doc. 32-5 at 23 – 26.)
Mr. Al-Amin’s attorneys objected and moved for a
mistrial. The trial court denied the motion outside the
presence of the jury but offered a curative instruction. The
defense declined the trial court’s offer, fearing it would
make the matter worse.
The prosecutor re-labeled his visual aid to “Questions
for the Defense.” But after the jury returned, the
prosecutor persisted in his unconstitutional line of
questioning, and again referred to Mr. Al-Amin’s failure
to take the stand. He began to ask, “the question is
either your car was there at the scene parked in front
of your store,” before the defense interjected and
objected and again moved for a mistrial. The trial court
refused the request a second time, this time in front of
the jury. (Doc. 32-5 at 33.) In response, Mr. Al-Amin’s
attorneys requested a curative instruction because of the
“impropriety” of the prosecution’s comments and chart.
The trial court corrected the defense attorneys in front of
the jury, characterizing the defense’s objections as “what
you believe is an impropriety.” (Doc. 32-5 at 34.)

39a
Appendix B
The trial court then gave this instruction:
There has been an objection to some of Mr.
McBurney’s closing which the Court has
overruled. However, in order to clarify, I’m
going to make very clear what I believe is
appropriate.
This is closing argument. Closing argument is
not evidence. Attorneys may draw inferences
and urge you to draw inferences from the
evidence. It is proper for the attorneys to argue
a failure to present certain evidence. However,
you must keep in mind that a defendant in a
criminal case is under no duty to present any
evidence to prove innocence and is not required
to take the stand and testify in the case.
If a defendant elects not to testify, no inference
hurtful, harmful or adverse to him shall be
drawn by you, and no such fact shall be held
against him.
However, it is proper for one side or the other
to comment on failure to present certain
evidence, but not to comment on the failure of
the Defendant to testify. And I’m clarifying
this, that, as you know, the burden of proof
always remains on the State to prove the
guilt of a defendant as to any charge beyond a
reasonable doubt.

40a
Appendix B
The defense renewed its motion for a mistrial, which
the trial court again denied. After the instruction, the
prosecution asked, “Why run if you didn’t do it? If you’re
innocent, just turn yourself in.” (Doc. 32-5 at 38.) The
defense again renewed its motion for a mistrial, which
was again overruled. (Doc. 32-5 at 39.)
The prosecutor also stated near the end of closing
arguments: “Don’t stand for him.” Here, the prosecution
was blatantly referencing Mr. Al-Amin’s religiously-based
(and court-approved) decision to not stand when the jury
or judge entered the courtroom. The prosecutor made
his “Don’t stand for him” comment not once, but twice.
(Doc. 32-6 at 13-14.) Mr. Al-Amin was convicted and then
sentenced to life without parole.
V. Discussion
The Court now turns to the twin lenses of AEDPA
and Brecht. AEDPA governs a federal court’s review of a
state court’s determination that a constitutional error in
a criminal trial was harmless. Davis v. Ayala, 135 S. Ct.
2187, 2199 (2015). Mr. Al-Amin must therefore satisfy this
standard to obtain habeas relief. But as discussed above,
AEDPA is “subsumed” into the requirements of Brecht.
For this reason, the Court focuses its gaze on whether or
not Al-Amin has met Brecht’s test.
Under Brecht, Mr. Al-Amin must show that the
underlying trial error resulted in actual prejudice. Brecht,
507 U.S. at 637. Brecht’s test is satisfied only if the federal
court has “grave doubt” about whether a trial error had a

41a
Appendix B
“substantial and injurious effect or influence” on the jury’s
verdict. Ayala, 135 S. Ct. at 2198. In making this inquiry,
the court must not focus on whether or not it believes the
petitioner is guilty, but instead on whether or not the error
had an impact on the minds of the jurors in the case in
light of the rest of the trial. Trepal v. Sec’y, Florida Dep’t
of Corr., 684 F.3d 1088, 1114 (11th Cir. 2012).
The Brecht analysis is intensely fact-specific. Courts
may consider whether the references to the defendant’s
silence were repeated or intentional; whether the trial
court promptly addressed the violation with a curative
instruction; and whether the evidence was otherwise
“weighty” or “overwhelming.” Hill v. Turpin, 135 F.3d
1411, 1417 (11th Cir. 1998); Gongora v. Thaler, 710 F.3d
267, 278 (5th Cir. 2013) (violation not harmless when there
were repeated references to defendant’s silence, the jury
instruction to ignore the references were half-hearted, and
the evidence in case “was not overwhelming, and there was
substantial evidence supporting acquittal.”) At its core, the
Brecht test is concerned with “what effect the error had
. . . upon the jury’s” actual decision. Duest v. Singletary,
997 F.2d 1336, 1338-39 (11th Cir. 1993) (quoting Kotteakos
v. United States, 328 U.S. 750, 764-65 (1946)).
Finally, when there is “weighty” evidence in favor
of guilt, Brecht is likely not met, even if other factors
weigh in favor of habeas relief. E.g., Prevatte v. French,
547 F.3d 1300, 1306 (11th Cir. 2008); see also Trepal, 684
F.3d at 1114 (“the erroneous admission of evidence is
likely to be harmless under the Brecht standard where
there is significant corroborating evidence, or where other
evidence of guilt is overwhelming.”)

42a
Appendix B
The Court first agrees with Mr. Al-Amin and the
R&R that the Supreme Court of Georgia’s application
of the incorrect standard of review was contrary to the
clearly established law found in Chapman.10 However, this
finding does not end the Court’s analysis of Claim 1. Under
Brecht, Mr. Al-Amin must show “actual prejudice” and a
substantial and injurious effect or influence resulting from
the State’s violation of Mr. Al-Amin’s Fifth and Fourteenth
Amendment rights.
The Court next finds that the prosecution’s comments
were repeated, blatant, central to the prosecutor’s closing
argument, intentional, and were arguably returned to in
the prosecution’s rebuttal. (See Doc. 32-6 at 13-14.) But
under Brecht, these facts are not enough on their own.
In fact, Brecht itself confronted that situation. There,
the prosecutor made three references to the defendant’s
pretrial silence during closing arguments. 507 U.S. at 625
n.2. But the Supreme Court still held that this was not
a “deliberate and especially egregious” trial error or a
“pattern of prosecutorial misconduct” worthy of granting
habeas relief in the face of weighty or overwhelming
evidence of guilt. See id. at 638 n.9; see also United States
v. Wiley, 29 F.3d 345, 349 (8th Cir. 1994) (three references
to defendant’s post-Miranda silence not enough to
warrant habeas relief in face of overwhelming evidence).
The Court also finds that the trial court’s curative
instruction did not actually “cure” any harm because
it was not strongly worded, failed to admonish the
10. The State did not concede this point at oral argument.
(Doc. 153 at 55-56.)

43a
Appendix B
prosecution for the blatant nature of the violation, and
was undermined by the trial court’s contemporaneous
but confusing instruction that the jury was permitted to
draw inferences from Mr. Al-Amin’s failure to present
evidence, but not his failure to testify.
Gongora v. Thaler illustrates the problems with the
trial court’s instructions. 710 F.3d 267, 280 (5th Cir. 2013).
There, a defendant was on trial for his alleged role in a
conspiracy to rob and shoot an individual. The defendant’s
alleged co-conspirators testified against him. However, the
co-conspirators had major credibility problems, including
the fact that one of them had initially identified other
individuals as the shooters. Id. at 271. Thus, “[a] principal
focus of the prosecutor’s closing argument, and central to
the State’s case, was the credibility of co-conspirators’
statements that [the defendant] was the shooter.” 710
F.3d at 279.
In closing arguments, the prosecutor made at least
five comments about the defendant’s failure to testify. The
district court characterized the remarks as “numerous
and blatant.” Id. Among the comments, the prosecutor
asked, “[w]ho else would you want to hear from, though?
The shooter? We’re not going to talk to that person.” Id.
In doing so, the prosecutor “attempted to bolster the
credibility” of the co-conspirators’ statements by pointing
to the fact that they had taken the stand and the defendant
had not.
The trial court issued general instructions about the
defendant’s right to not testify at voir dire and before
closing arguments. However, the prosecutor’s improper

44a
Appendix B
comments followed those closing arguments. Two of the
prosecutor’s comments were objected to. The trial court
sustained those objections and told the jury to disregard
the comments, but in a manner that the Fifth Circuit
characterized as “perfunctory and devoid of specificity.”
Id. at 280. And the trial court did not sustain all of the
defense’s objections to the prosecution’s remarks. The
Fifth Circuit thus found that the curative instruction
was, “diminished by the lack of a strong admonishment
. . . the court’s overruling of [defendant’s] objection . . . and
the mixed message resulting from allowing the jury to
consider the comments in some respects.” Id. The Fifth
Circuit granted habeas relief because the remarks were
blatant, the curative instructions ineffective, and because
there was “substantial evidence supporting acquittal.” Id.
at 281. The instruction here was lengthier than those given
in Gongora, but similarly ineffective. As in Gongora, the
trial court here overruled some of the defense’s objections.
And like Gongora, some of the unconstitutional comments
came after the curative instruction was given. Moreover,
here the trial court undermined its instruction by
characterizing the prosecution’s comments as something
that “[Mr. Al-Amin] believe[s] is an impropriety,” and by
stating to the jury in the middle of its instruction that “it
is proper for one side or the other to comment on failure
to present certain evidence” – likely mitigating the
instruction’s impact. Thus it is plain that the instruction
was ineffective, as it was in Gongora. This too weighs in
favor of relief.
The Court nonetheless must deny Mr. Al-Amin relief
because there is “weighty” evidence supporting his
conviction. Brecht, 507 U.S. at 639.

45a
Appendix B
Mr. A l-A min’s best evidence is the mishmash
of inconsistencies from the scene of the shooting.
Eyewitnesses testified that Mr. A l-A min was not
responsible for the shooting. (Doc. 32-3 at 88-90.) The
deputies and the shooter exchanged fire at close range.
Both deputies were convinced that each had shot Mr. AlAmin, and the police obtained a warrant based on blood
evidence at the scene. But that blood evidence did not
match Al-Amin, and he was not wounded when he was
apprehended. Deputy English swore that the shooter
had grey eyes, when Mr. Al-Amin has brown eyes. And
both deputies were severely wounded and under duress
at the time they identified Mr. Al-Amin. Deputy English
had been shot and pepper sprayed and was under the
influence of morphine when he picked Mr. Al-Amin out
of a photo array. And the shooter had fatally wounded
Deputy Kinchen. In addition, a 911 operator received a
call that a man “involved in the shooting of the deputies”
was bleeding in the West End area and begging for a ride
– a fact inconsistent with the reality that Mr. Al-Amin
was not shot. (Doc. 31-8 at 48-49; Doc. 32-3 at 43.) If this
were the only evidence in the record, the Court might
harbor “grave doubt about whether [the] trial error[s] of
federal law had a substantial and injurious effect . . . in
determining the jury’s verdict.” Ayala, 135 S. Ct. at 2198
(punctuation and citation omitted).
But the ev idence from W hite Hall is “ i f not
overwhelming, certainly weighty.” Brecht, 507 U.S. at 639.
Investigators found the license plate for Mr. Al-Amin’s
black Mercedes-Benz in a shed near where Mr. Al-Amin
was first spotted in White Hall. The car itself was found

46a
Appendix B
several days after Mr. Al-Amin was apprehended, mixed
in with other abandoned cars on a property owned by one
of Mr. Al-Amin’s friends. (Doc. 31-3 at 2.) Mr. Al-Amin
concedes that this car was at the crime scene, that he
drove it away, and that it was hit by at least one bullet
(though he disputes the surrounding circumstances of
all of the above).
The car had several bullet holes containing bullets
fired from the deputies’ handguns. Other of Mr. Al-Amin’s
effects were found in the woods near White Hall near
where Mr. Al-Amin was apprehended and along the path
between where he was initially spotted and the place of
his arrest. The murder weapons were also found along the
path. Mr. Al-Amin simply has no reasonable explanation
for how this evidence got to White Hall. His claim that the
weapons were planted by a rogue FBI agent is not credible
given the lack of supporting evidence for that assertion.
To believe this argument the Court would have to assume
that the FBI somehow acquired the weapons from the
real perpetrator, the scene of the crime, or elsewhere,
without disclosing that fact to Atlanta police, and then
transported the weapons across state lines to drop them
in the Alabama woods.
Mr. Al-Amin offers no real evidence to support this
purported conspiracy. Mostly he claims he was prevented
from doing so because he was prevented from crossexamining FBI Agent Campbell about a 1995 incident
in Philadelphia where Campbell allegedly planted a
fingerprint-less gun on a Muslim man whom he shot in
the context of a law enforcement stop. But as discussed

47a
Appendix B
below in connection with Claim 2, it was not error for the
state trial court to preclude this cross examination.
Mr. Al-Amin’s evidence is also not as powerful as that
in other cases where courts granted habeas relief. For
example, in Gongora, a robbery and murder case, one
of the prosecution’s witnesses was under the influence of
heroin, pot, and alcohol at the time of the shooting and had
participated in the robbery and feared a capital murder
charge himself. 710 F.3d at 272. Another key witness
had also participated in the crime but had identified two
individuals other than the defendant as likely shooters,
before changing his story. Id. at 271. Most importantly,
“the physical evidence and the statement of the only
non-biased eyewitness did not support the” idea that
the defendant was the shooter. Id. at 283. And another
individual had bragged to a non-party that he was the
shooter, not the defendant. Id.
Jensen v. Clements also provides a contrast. 800 F.3d
892 (7th Cir. 2015). There, a husband was convicted of
killing his wife. The investigation and prosecution of the
crime dragged on, and the husband was not convicted
until nearly nine years after his wife died. At trial, the
prosecution submitted into evidence a handwritten letter
from the husband’s late wife that said, in a nutshell, if
anything bad happened to her then it should be assumed
her husband killed her. Id. at 895. The case “was no
slam dunk” and the “evidence was all circumstantial.”
Id. at 908. There was significant evidence in favor of
the theory that the wife had taken her own life. She had
called her neighbor the day of her death to tell her not to

48a
Appendix B
worry if she did not see her outside that day. She saw her
doctor two days before her death, and he described her
as “depressed and distraught.” One of the prosecution’s
witnesses was a jailhouse informant whom the trial judge
referred to as the “top liar I’ve ever had in court.” Id. at
907. The informant’s testimony was the only basis for later
testimony from a medical professional that the victim had
suffocated. A defense witness doctor testified that the wife
was a “significant suicide risk.” The court ultimately held
that the jury “improperly heard [the wife’s] voice from the
grave” and so there was a serious risk of error warranting
habeas relief under Brecht.
By contrast, here the evidence at the actual crime
scene might be a mixed bag, but the White Hall evidence
strongly ties Mr. Al-Amin to the crime. He was found
after fleeing, and the evidence strongly suggests he
possessed and dumped the murder weapons and secluded
his car amongst other abandoned cars.11 It was punctured
with bullet holes containing projectiles fired by the two
deputies.
Mr. Al-Amin attempts to undercut this significant
evidence by introducing the testimony of a juror who avers
that his verdict was influenced by Mr. Al-Amin’s failure to
testify. But under both federal and Georgia law applicable
at the time of Mr. Al-Amin’s conviction, evidence of jury
testimony to impeach a verdict is not permitted. There
11. The Court recognizes, though, that Mr. Al-Amin’s theory
is that the car had bullet holes in it only because it was parked
near the scene of the shooting – not because he was involved in
the crime.

49a
Appendix B
are only a few exceptions, almost all of which concern the
problem of outside influences on a jury’s decision-making.
For example, in Turpin v. Todd, relied upon by
Petitioner, a bailiff remarked to the jury that a homicide
defendant who received a life sentence would likely only
be in prison for “about seven years.” 493 S.E. 2d 900,
903-04 (Ga. 1997). The jury then sentenced the defendant
to die. Importantly, this “extra-judicial evidence was
offered outside the presence of Todd and his counsel,”
and therefore not subject to the adversarial process and
not rectifiable by the trial court. Id. The Supreme Court
of Georgia held that the habeas court should consider
whether jurors could testify about the impact of the
bailiff’s statements because the “general rule against
impeaching verdicts must succumb to the defendant’s
right to a fair trial.” Id.
But this does not mean that Georgia applied this
exception willy-nilly at the time. Instead, it was confined
to cases like Todd “where extrajudicial and prejudicial
information has been brought to the jury’s attention
improperly, or where non-jurors have interfered with the
jury’s deliberations.” Gardiner v. State, 444 S.E.2d 300,
303 (Ga. 1994).12 And at the time, Georgia law was that,
“[t]he affidavits of jurors may be taken to sustain but
12. Ward v. Hall, 592 F.3d 1144, 1177-78 (11th Cir. 2010)
also involved a bailiff’s comment to juror’s about a defendant’s
eligibility for parole. Lawson v. Borg, 60 F.3d 608 (9th Cir. 1995)
similarly concerned extrajudicial information. There, a juror said
in the jury room that he knew people who knew the defendant and
that the defendant had a propensity for violence. Id.

50a
Appendix B
not impeach their verdict.” OCGA § 17-9-41.13 Fed. R.
Evid. 606 contains the same exceptions as those outlined
in Gardiner, and is focused on the same concern: the
influence of extrajudicial evidence or communications on
the jury.
Recently, in Pena-Rodriguez v. Colorado, --- S. Ct.
---- (2017), the Supreme Court recognized an exception to
this bar, and permitted a habeas court to consider juror
testimony about racial bias infecting jury deliberations.
But in doing so, the Supreme Court relied on the uniquely
pernicious nature of racial bias. It explained that it had
rejected such an exception even in cases where jury
members were drinking during the trial, falling asleep,
or ingesting cocaine. Tanner, 483 U.S. 109-11. PenaRodriguez is a narrow exception to the otherwise fairly
straightforward rule that jurors may not impeach their
own verdicts except in cases where they offer evidence
of outside influence or information infiltrating the jury’s
deliberations.
Mr. Al-Amin’s other cited cases also fall within
the exception for extrajudicial information. In Scott v.
Calderon the Ninth Circuit upheld a trial court’s refusal
to admit jury testimony to show that a juror had brought
into the jury room and shared with the jury a newspaper
article ridiculing diminished capacity defenses in a case
involving just that defense. 39 F.3d 188 (9th Cir. 1994)
(Table). This is because no juror purported to testify
13. This statute was repealed in 2012 as part of Georgia’s
overhaul of its evidence code, but was in effect at the time Todd
and Gardiner were decided, as is reflected in both opinions.

51a
Appendix B
that they were actually influenced by the article. Setting
aside the fact that the trial court’s refusal to consider
juror testimony was affirmed, the case still dealt with
extrajudicial information. In Perez v. Marshall, a
California federal district court discussed competing juror
affidavits about the jury’s discussion of the defendant’s
refusal to testify. 946 F. Supp. 1521, 1537-38 (S.D. Cal.
1996). The court did not reach the issue of whether or not
it was appropriate to consider the juror affidavits because
it instead held that even if it had considered them, the
jury’s consideration of the defendant’s failure to testify
halted when the jury foremen informed them they could
not do so and so the constitutional error did not actually
prejudice the defendant. Id. The court also concluded that
the jury would have convicted regardless of whether or
not the defendant testified. Calderon v. Coleman, 525 U.S.
141, 146 (1998) is inapposite because Mr. Al-Amin relies
on that case’s dissent. (Pet.’s Supp. Br., Doc. 156 at 17.)
Although Mr. Al-Amin argues that the juror’s affidavit
concerns “an improper external influence on the jury” in
the form of “the unconstitutional mock cross-examination,”
(Pet.’s Supp. Br., Doc. 156 at 18 n.12) most all of the cases
discussed above involve information not presented in court.
In other words, they involve information or influences
“external” to the trial, not improper conduct that occurred
within the trial. Moreover, the juror’s affidavit at issue
does not explicitly point to the prosecutor’s comments as
the impetus for the jury’s consideration of Mr. Al-Amin’s
failure to testify. For these reasons, the Court declines
to consider the juror’s affidavit.

52a
Appendix B
Claim 2
Mr. Al-Amin’s second claim alleges that his Sixth and
Fourteenth Amendment rights were violated when he was
prevented from cross-examining Robert Campbell about
Campbell’s 1995 shooting of an unarmed Muslim man in
Philadelphia. Campbell allegedly planted a fingerprintless gun next to the Philadelphia victim’s body to cover
up the shooting. Mr. Al-Amin contends that he should
have been permitted to examine Campbell to establish
that Campbell had acted in a “certain manner previously
and, therefore, the jury [should] infer that he acted in a
similar manner” here. (Fourth Am. Pet., Doc. 129 at 71.)
He claims there is evidence that Campbell fell behind
the dog tracking team while it was in pursuit of Al-Amin
and White Hall and took the opportunity to plant some
of the evidence found there just like he allegedly did in
Philadelphia in 1995.
Mr. Al-Amin submitted to the state trial court (and
attached to his Objections to the R&R) a handful of news
articles and other documents about the shooting. (See
Doc. 143-3.) Mr. Al-Amin contends these materials were
offered to show his “good faith basis” for asking Campbell
about the 1995 incident on cross examination. Coquina
Investments v. TD Bank, N.A., 760 F.3d 1300, 1313 (11th
Cir. 2014) (citing United States v. Beck, 625 F.3d 410, 418
(7th Cir. 2010)). The trial court excluded this evidence on
the basis that “Campbell had not been prosecuted for the
alleged misconduct, and [] any probative value was far
outweighed by the danger of unfair prejudice.” Al-Amin,
597 S.E. 2d at 345-46.

53a
Appendix B
The collection of documents offered by Mr. Al-Amin
does not suggest that the state court(s) erred. First,
Campbell was investigated by the Philadelphia district
attorney’s office, the FBI, and the Department of Justice
in connection with the shooting and was cleared of
wrongdoing. (Doc. 143-3 at 12.) Mr. Al-Amin’s documents
say as much. And none of the articles convincingly tie
Campbell to the alleged planting of the gun on the
Philadelphia shooting victim; instead, at least some
of them simply suggest the gun was “planted by law
enforcement officers.” (Doc. 143-3 at 30.) The Court
understands that Mr. Al-Amin firmly believes that had he
been permitted to cross-examine Campbell about the 1995
shooting, the resulting testimony would have been core
to his theory that he was framed. But the trial court had
broad discretion to limit the scope of cross-examination
based on concerns regarding the significant danger of
unfair prejudice given the specific circumstances before
the Court, even if Al-Amin had a good faith basis for his
questions. And the materials relied upon by Al-Amin were
not nearly so strong as to suggest that the trial court
abused its discretion in precluding questioning Campbell
about the 1995 shootings.
The Court therefore cannot say it was an unreasonable
application of clearly established law to bar questions
about the 1995 shooting or to reject Mr. Al-Amin’s
confrontation clause argument. 28 U.S.C. § 2254(d). The
Court therefore agrees with the Magistrate Judge that
Mr. Al-Amin is not entitled to habeas relief under Claim
2, even if the Court’s reasoning differs from that in the
R&R. (R&R at 34.)

54a
Appendix B
Claim 3
Mr. Al-Amin also argues that his trial attorneys failed
to adequately investigate the confession of Otis Jackson,
an individual who recanted and then re-confessed to the
crime several times. The Court also agrees with the R&R
that Mr. Al-Amin’s ineffective assistance of counsel claim
fails. Habeas petitioners who seek to prevail on a claim for
ineffective assistance of counsel must meet the standard
laid out in Strickland v. Washington, 466 U.S. 668
(1984), which asks whether an attorney’s representation
amounted to incompetence under prevailing professional
norms. Harrington v. Richter, 562 U.S. 86, 105 (2011).
A petitioner seeking to establish that a state court’s
application of Strickland was unreasonable must also
overcome § 2254(d)’s deferential standard of review. Id.
Thus, Mr. Al-Amin must overcome two highly deferential
standards of review to prevail on his ineffective assistance
of counsel claim.
Mr. Al-Amin simply cannot do so. His trial counsel
reasonably decided not to pursue more information about
Otis Jackson’s confession or interview him personally
after Jackson recanted that confession. Trial counsel was
(perhaps wrongfully) under the impression that ankle
monitoring data or documents showed that Jackson was
not in the area of the crime on the night of the shooting,
and trial counsel’s investigator described Jackson as “a
little kooky.” (Objections at 37.) Although Mr. Al-Amin’s
attorneys have since developed information that might
have caused an attorney to more carefully examine
Mr. Jackson as a potential alternative shooter, much of

55a
Appendix B
that information was not available at trial. As the R&R
observes, relying on hindsight bias is what “Strickland and
AEDPA seek to prevent.” (R&R at 39 (citation omitted).)
Cumulative Error Claim
The R&R properly rejected Mr. Al-Amin’s cumulative
error claims for the reasons stated therein. If a cumulative
error claim exists, it requires more than one error. Morris
v. Sec’y, Dep’t of Corr., 677 F.3d 1117, 1132 n.3 (11th Cir.
2012). Because the Court is rejecting Mr. Al-Amin’s
second and third claims, there are not multiple errors to
accumulate. And even if the Court considered the impact
of the prosecution’s “Don’t stand for him” comments in
conjunction with Mr. Al-Amin’s first claim, the Court
cannot find that there was sufficient cumulative error to
warrant granting the Petition based on governing legal
standards. Id.
VI. Conclusion
For the foregoing reasons, the Court ADOPTS
IN PART and DECLINES TO ADOPT IN PART the
Report and Recommendation as described herein. [Doc.
136]. The Court DENIES Mr. Al-Amin’s habeas petition.
The constitutional violations at Mr. Al-Amin’s trial as
described in Claim One were serious and repeated. But
under the onerous standards set forth by AEDPA and
the Supreme Court’s case law, the Court is constrained
to reject his request for relief.
Under Slack v. McDaniel, 529 U.S. 473 (2000) the
Court may issue a certificate of appeal if “reasonable

56a
Appendix B
jurists would find the district court’s assessment of the
constitutional claims debatable or wrong.” The Court finds
that Mr. Al-Amin meets the standards set forth by Slack
for a Certificate of Appeal and grants it as to all claims
discussed in this Order (and not already abandoned by
Mr. Al-Amin). It does so because (1) reasonable jurists
could disagree about this Court’s “actual prejudice”
holding under Brecht and (2) Mr. Al-Amin’s other claims
should be considered alongside the Court’s Brecht holding
because they are intertwined with and inform it. The
Court therefore GRANTS Mr. Al-Amin a Certificate of
Appeal as described herein.
The Clerk is DIRECTED to close this case.
IT IS SO ORDERED this 29th day of September,
2017.
/s/Amy Totenberg
Amy Totenberg
United States District Judge

57a
Appendix c Appendix
— FINALCREPORT AND
RECOMMENDATION AND ORDER of the
UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF GEORGIA, ATLANTA
DIVISION, filed march 24, 2016
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
HABEAS CORPUS
28 U.S.C. § 2254
CIVIL ACTION NO. 1: 12-CV-1688-AT-GGB
JAMIL ABDULLAH AL-AMIN, BOP ID 99974-555,
Petitioner,
v.
JOHN “J.T.” SHARTLE, WARDEN, AND
HOMER BRYSON, COMMISSIONER,
Respondents.
FINAL REPORT AND
RECOMMENDATION AND ORDER
This matter is before me for entry of a Final Report
and Recommendation (“Final R&R”) addressing (A) state
inmate Jamil Al-Amin’s Fourth Amended Petition for Writ
of Habeas Corpus by a Person in State Custody (Doc.
129), (B) Georgia Department of Corrections (“GDOC”)

58a
Appendix C
Commissioner Homer Bryson’s Fourth Supplemental
Answer-Response (Doc. 130) and Brief (Doc. 131), both as
corrected (Doc. 132), (C) Al-Amin’s Reply in Support of
Fourth Amended Petition (Doc. 133), and (D) Al-Amin’s
Unopposed Amendment to Withdraw and Delete Brady
Claim (Claim IV) (Doc. 135). In addition, this matter is
before me for entry of an Order addressing (E) Al-Amin’s
Motion to Expand the Record (Doc. 101), (F) Al-Amin’s
Second Motion to Expand the Record (Doc. 116), and (G)
Al-Amin’s Supplement to Second Motion to Expand the
Record (Doc. 117).
For the reasons set forth below, I recommend that AlAmin’s Fourth Amended Petition, as further amended to
delete Claim IV, be denied, and I deny each of Al-Amin’s
motions to expand the record.
I.
A.
As a preliminary matter, I note that although Al-Amin
is a prisoner serving a state sentence, he is incarcerated
in a federal prison pursuant to an agreement between the
GDOC and the Federal Bureau of Prisons. As a result,
Al-Amin has named as respondents in his federal habeas
petitions both the Commissioner of the GDOC (currently,
Homer Bryson) and the wardens of the various federal
penitentiaries in which he has been incarcerated. Al-Amin
has advised the Court that he was recently transferred to
the Federal Correctional Institution in Tucson, Arizona,
and stated that both he and Commissioner Bryson consent

59a
Appendix C
to the substitution of that facility’s Warden, John “J.T.”
Shartle, as a Respondent, in place of Warden David
Ebbart. See (Doc. 135 at 1 n.1).
The Clerk is DIRECTED to update the docket to add
Warden Shartle as a Respondent and to terminate Warden
Ebbart as a Respondent.
B.
For reasons that are discussed later in this Final
R&R, Al-Amin sharply contests the Georgia Supreme
Court’s summary of the facts as proven at trial and
the state habeas court’s summary of facts as proven in
collateral proceedings. To provide context at the outset,
however, it is still useful to recite the Georgia Supreme
Court’s summary of the procedural history of this case:
Jamil Abdullah Al-Amin was convicted of
malice murder and various other offenses
stemming from the shooting of two Fulton
County Deputy Sheriffs, that resulted in the
death of one and injury to the other.
The crimes took place on March 16, 2000. On
March 28, 2000, Al-Amin was charged in a
13-count indictment with malice murder, felony
murder (four counts), aggravated assault on a
police officer (two counts), obstruction of a law
enforcement officer (two counts), aggravated
battery on a police officer, possession of a
firearm by a convicted felon, and possession

60a
Appendix C
of a firearm in the commission of a felony (two
counts). The state sought the death penalty.
Voir dire commenced on January 22, 2002,
and on March 9, 2002, Al-Amin was found
guilty on all counts. At the conclusion of the
sentencing phase on March 13, 2002, the jury
fixed punishment at life without possibility of
parole. Al-Amin was sentenced accordingly on
the same day. He filed a timely motion for new
trial, which was amended on December 10 and
13, 2002, and denied on July 2, 2003. A notice
of appeal was filed on July 18, 2003, and the
case was docketed in [the Georgia Supreme]
Court on September 26, 2003. Oral argument
was heard on January 27, 2004.
Al-Amin v. State, 597 S.E.2d 332, 339 & 339 n.1 (Ga. 2004)
(footnote moved).
The Georgia Supreme Court denied Al-Amin’s
direct appeal on May 24, 2004. Id. Later that year, the
United States Supreme Court declined to grant a writ of
certiorari. See Al-Amin v. Georgia, 543 U.S. 992 (2004).
Beginning in 2005, Al Amin attacked his convictions
and sentence in state habeas proceedings. See (Doc. 1-6).
Al-Amin received an evidentiary hearing on February
27, 2007. See (Doc. 1-7). The state habeas court denied
relief by Order dated July 28, 2011. See (Doc. 1-2). The
Georgia Supreme Court denied Al-Amin’s application for
a certificate of probable cause to appeal on May 7, 2012.
See (Doc. 1-11). The following day, Al-Amin filed his initial
federal habeas petition in Colorado. See (Doc. 1).

61a
Appendix C
The District of Colorado case was transferred to this
Court. Al-Amin ultimately filed the Fourth Amended
Petition now pending before me on November 24, 2015,
see (Doc. 129), amending it further on December 23, 2015,
to delete one of his four numbered claims, see (Doc. 135).
C.
Al-Amin’s lawyers state that “[i]n the 1960s, Mr.
Al-Amin was widely known by his name at that time, H.
Rap. Brown, as a civil rights activist.” (Doc. 129 at 37).
Because of the nature of the crimes and the identity of the
defendant, this was a high-profile case, drawing pooled
press coverage from the national media. See, e.g., (Doc.
15-6 at 1; Doc. 20-2 at 86).
It is also notewor thy that A l-A min has been
represented by court-appointed or pro bona counsel
at all relevant times. Before and at trial, Al-Amin was
represented by John “Jack” Martin, Bruce Harvey,
Michael Warren, and Tony Axam. See Fourth Am. Pet.
at 70. On direct appeal, Al-Amin was represented by
Jack Martin, Don Samuel, and William Lea. See id. at
81. In state habeas proceedings, Al-Amin was initially
represented by G. Terry Jackson and Linda Sheffield,
see id. at 90, later adding A. Stephens Clay and C. Allen
Garrett Jr. as counsel. See id. And in this federal habeas
proceeding, Al-Amin continues to be represented by
Messrs. Clay and Garrett, together with their partners
Miles Alexander and Ronald Raider. See id. at cover page.

62a
Appendix C
Because Al-Amin has been represented at all times
by lawyers, the rule that a pro se litigant’s filings ought
to be liberally construed does not apply.
D.
Commissioner Bryson has contested neither the
timeliness of Al-Amin’s federal habeas petitions, nor the
adequacy of the exhaustion of available state remedies
with respect to Al-Amin’s three remaining numbered
Claims.
II
The Anti-Terrorism and Effective Death Penalty Act
of 1996 (“AEDPA”) applies to this case. AEDPA established
new limits on the circumstances in which federal habeas
relief may be granted. The relevant statutory text now
provides, in part, as follows:
An application for a writ of habeas corpus on
behalf of a person in custody pursuant to the
judgment of a State court shall not be granted
with respect to any claim that was adjudicated
on the merits in State court proceedings unless
the adjudication of the claim—
(1) r e su lt ed i n a dec i sion t hat
was contrar y to, or involved an
unreasonable application of, clearly
established Federal law, as determined
by the Supreme Court of the United
States; or

63a
Appendix C
(2) re su lt ed i n a dec i sion t hat
wa s ba sed on a n u n rea sonable
determination of the facts in light of
the evidence presented in the State
court proceedings.
28 U.S.C. § 2254(d).
The Supreme Court has observed that:
If this standard is difficult to meet, that is
because it was meant to be. . . . Section 2254(d)
reflects the view that habeas corpus is a guard
against extreme malfunctions in the state
criminal justice systems, not a substitute for
ordinary error correction through appeal. As
a condition for obtaining habeas corpus from
a federal court, a state prisoner must show
that the state court’s ruling on the claim being
presented in federal court was so lacking
in justification that there was an error well
understood and comprehended in existing
law beyond any possibility for fairminded
disagreement.
Harrington v. Richter, 562 U.S. 86, 102-03 (2011) (internal
quotation marks and citation omitted).
AEDPA also requires that deference be shown to
state court findings of fact and establishes limits on
the introduction of new evidence and the scheduling of
evidentiary hearings during federal habeas proceedings.
The relevant statutory text now provides, in part, as
follows:

64a
Appendix C
(1) In a proceeding instituted by an application
for a writ of habeas corpus by a person in
custody pursuant to the judgment of a State
court, a determination of a factual issue made
by a State court shall be presumed to be
correct. The applicant shall have the burden
of rebutting the presumption of correctness by
clear and convincing evidence.
(2) If the applicant has failed to develop
the factual basis of a claim in State court
proceedings, the court shall not hold an
evidentiary hearing on the claim unless the
applicant shows that—
(A) the claim relies on—
(i) a new rule of constitutional
law, made retroactive to cases
on collateral review by the
S upr eme Cou r t , t h at w a s
previously unavailable; or
(ii) a factual predicate that
could not have been previously
discovered through the exercise
of due diligence; and
(B) the facts underlying the claim
would be sufficient to establish by
clear and convincing evidence that but
for constitutional error, no reasonable

65a
Appendix C
factf inder would have found the
applicant guilty of the underlying
offense.
28 U.S.C. § 2254(e). The proper application of the standards
in § 2254(d)&(e) have been elaborated on in many decisions
handed down by the Supreme Court since the enactment
of AEDPA. Those decisions are discussed further below,
where applicable.
III.
The three numbered Claims Al-Amin asserts are as
follows:
CLAIM I The State violated Mr. Al-Amin’s
Fifth and Fourteenth Amendment rights
when the prosecution engaged in a mock
cross-examination of Mr. Al-Amin after he had
invoked his constitutional right not to testify ....
CLAIM II The State court violated Mr. AlAmin’s Sixth and Fourteenth Amendment
rights by precluding him from cross-examining
FBI Agent Campbell regarding Campbell’s
1995 shooting of Glenn Thomas in Philadelphia.
CLAIM III The Defense Lawyers violated Mr.
Al-Amin’s Sixth and Fourteenth Amendment
rights to effective assistance of counsel by
failing to investigate the confession of Otis
Jackson adequately.

66a
Appendix C
Fourth Am. Pet. at iv-v.
Al-Amin had initially included a Claim IV in his
Fourth Amended Petition, but he withdrew it in an
Unopposed Amendment to Withdraw and Delete Brady
Claim (Claim IV). See (Doc. 135).
Al-Amin also included in his Fourth Amended Petition
a “catch-all” claim for relief, see Fourth Am. Pet. at 15,
and he sought to incorporate by reference the more than
thirty other issues and grounds for relief that he had
previously raised in his direct appeal or in state habeas
proceedings, see id. at 17-19 nn. 3, 5 & 6.
Each of these numbered and unnumbered Claims is
discussed below.
A.
Al-Amin states his Claim I as follows: “The State
violated Mr. Al-Amin’s Fifth and Fourteenth Amendment
rights when the prosecution engaged in a mock crossexamination of Mr. Al-Amin after he had invoked his
constitutional right not to testify.” Fourth Am. Pet. at 79;
id. at iv. (same). This statement of the issue is incomplete,
however, and obscures the question that must actually be
answered in a federal habeas corpus proceeding.
During his trial, Al-Amin never took the stand,
and he was not “examined” or “cross-examined.” As he
acknowledged in his brief on direct appeal in the Georgia
Supreme Court, and acknowledged again in his application

67a
Appendix C
for a certificate of probable cause to appeal in the state
habeas proceeding, Al-Amin is actually complaining that
the prosecutor improperly commented during closing
argument on his election not to testify.
Indeed, the Georgia Supreme Court has already
agreed with Al-Amin that the prosecutor “impermissibly
commented on the failure of Al-Amin to testify, in violation
of his Fifth Amendment right against self-incrimination.”
Al-Amin, 597 S.E.2d at 346. Thus, there is no dispute that
Al-Amin’s constitutional rights were violated. Rather, what
is really at issue is the Georgia Supreme Court’s further
conclusion that “the error, although of constitutional
magnitude, was harmless beyond a reasonable doubt.” Id.
The Supreme Court’s decision in Chapman v.
California, 386 U.S. 18 (1967), set forth the “harmless
error” standard that the Georgia Supreme Court was
obliged to apply. Al-Amin is now arguing that the Georgia
Supreme Court’s application of the Chapman harmlesserror standard either “was contrary to, or involved an
unreasonable application of, clearly established Federal
law, as determined by the Supreme Court of the United
States” or “resulted in a decision that was based on an
unreasonable determination of the facts in light of the
evidence presented in the State court proceedings” as
those standards are set forth in § 2254(d).
Al-Amin’s contention that the Georgia Supreme Court
should not have summarized the facts proven at trial under
the Jackson v. Virginia, 443 U.S. 307 (1979), “sufficiencyof-the-evidence” standard and relied on that summary as

68a
Appendix C
the basis for conducting its review pursuant to Chapman
for “harmless error” is well-taken. Under Chapman, the
reviewing court in a direct appeal should examine “the
whole record,” Delaware v. Van Arsdall, 475 U.S. 673, 681
(1986), not just the portions of the record that support the
convictions.
However, on federal habeas review this Court is
required to apply a different test for “harmless error”
than the one set forth in Chapman that the Georgia
Supreme Court was required to apply. As the Supreme
Court has stated:
The principle that collateral review is different
from direct review resounds throughout
our habeas jurisprudence .... The role of
federal habeas proceedings, while important
in assuring that constitutional rights are
observed, is secondary and limited. Federal
courts are not forums in which to relitigate
state trials ....
State courts are fully qualified to identify
constitutional error and evaluate its prejudicial
effect on the trial process under Chapman, and
state courts often occupy a superior vantage
point from which to evaluate the effect of trial
error. For these reasons, it scarcely seems
logical to require federal habeas courts to
engage in the identical approach to harmlesserror review that Chapman requires the state
courts to engage in on direct review ....

69a
Appendix C
The test [on federal habeas review] is whether
the error had substantial and injurious effect
or influence in determining the jury’s verdict.
Under this standard, habeas petitioners may
obtain plenary review of their constitutional
claims, but they are not entitled to habeas relief
based on trial error unless they can establish
that it resulted in actual prejudice.
Brecht v. Abrahamson, 507 U.S. 619, 633, 636, 637 (1993)
(internal quotations marks and citations omitted).
Moreover, as the Supreme Court explained very
recently, obtaining federal habeas relief in the wake of
AEDPA now also requires demonstrating that the state
court’s merits adjudication under Chapman is not entitled
to deference under Section 2254(d). See generally Davis
v. Ayala, 135 S. Ct. 2187 (2015). And even if deference
pursuant to § 2254(d) is not warranted, the Brechtstandard still applies, and sets a very high bar for relief.
We assume for the sake of argument that
[the petitioner’s] federal rights were violated,
but that does not necessarily mean that he
is entitled to federal habeas relief. . . . In the
absence of the rare type of error that requires
automatic reversal, relief is appropriate
only if the prosecution cannot demonstrate
harmlessness ....
The test for whether a federal constitutional
error was harmless depends on the procedural

70a
Appendix C
posture of the case. On direct appeal, the
harmlessness standard is the one prescribed in
Chapman: Before a federal constitutional error
can be held harmless, the court must be able to
declare a belief that it was harmless beyond a
reasonable doubt.
In a collateral proceeding, the test is different.
For reasons of finality, comity, and federalism,
habeas petitioners are not entitled to habeas
relief based on trial error unless they can
establish that it resulted in actual prejudice.
Under this test, relief is proper only if the
federal court has grave doubt about whether a
trial error of federal law had a substantial and
injurious effect or influence in determining
the jury’s verdict. There must be more than
a reasonable possibility that the error was
harmful. The Brecht standard reflects the view
that a State is not to be put to the arduous
task of retrying a defendant based on mere
speculation that the defendant was prejudiced
by trial error; the [federal habeas] court must
find that the defendant was actually prejudiced
by the error.
Id. at 2197-98 (internal quotations marks, brackets, and
citations omitted).
A thorough review of the entire trial record reveals
this: After Al-Amin failed to appear to answer criminal
charges in Cobb County in January 2010, a bench warrant

71a
Appendix C
was issued for his arrest. See (Doc. 29-3 at 18-19 & 23; Doc.
29-6 at 107); State Tr. Ex. 9. Because Al-Amin resided
in Fulton County, the Fulton County Sheriffs Office was
assigned to serve the warrant. See (Doc. 29-3 at 8).
Shortly before 10:00 pm on March 16, 2000, Fulton
County Deputy Sheriffs Ricky Kinchen and Aldranon
English drove slowly by Al-Amin’s address at 1128 Oak
Street in Atlanta. See (Doc. 29-3 at 20, 24 & 42-43).
Because no one appeared to be there and they were
concerned they would “blow the warrant,” the deputies
decided not to stop. See (Doc. 29-3 at 50). As the deputies
continued up the street, Deputy Kinchen observed a black
sedan pull up and park in front of 1128 Oak Street, and
he brought the patrol car to a stop. See (Doc. 29-3 at 51).
When, in the deputies’ judgment, a man matching AlAmin’s general physical description in the warrant and
wearing Muslim garb exited the black sedan, they turned
around and drove back. See (Doc. 29-3 at 51-53).
The deputies identified the black sedan as a MercedesBenz and noted that it was parked facing the wrong-way
on Oak Street in front of Al-Amin’s address. See (Doc.
29-3 at 53-54). The deputies pulled their clearly-identified
patrol car up nose-to-nose with the Mercedes-Benz and
parked. See (Doc. 29-3 at 56).
Observing the man-whom they could now see was an
older black male-still standing beside the driver’s side
door, both uniformed deputies exited the patrol car. See
(Doc. 29-3 at 55-61). Deputy English, the passenger in the
patrol car and the officer on the same side as the man, was

72a
Appendix C
the “contact officer.” See (Doc. 29-3 at 45 & 61). Deputy
Kinchen, the driver, stood beside the patrol car, and was
the “cover officer.” See (Doc. 29-3 at 61).
When Deputy English approached the man beside
the Mercedes-Benz and asked him to show his right hand,
the man said “yeah,” frowned, swung up an assault rifle,
and started shooting. See (Doc. 29-3 at 66-68, 70 & 78).
Both deputies drew their handguns and returned fire. See
(Doc. 29-3 at 77, 80-81 & 117; Doc. 29-4 at 109; Doc. 29-5
at 114). Deputy English ran between the patrol car and
the Mercedes-Benz into an adjacent field. See (Doc. 29-3
at 76 & 79). While running and while in the field, Deputy
English used his radio to call for assistance. See (Doc. 29-3
at 77 & 84; Doc. 29-4 at 23-28); State Tr. Ex. 10. Deputy
Kinchen remained in the road, beside the patrol car. See
(Doc. 29-5 at 13, 106-08 & 112; Doc. 29-6 at 5 & 176).
Both deputies were shot. See (Doc. 29-5 at 82-83).
Deputy English was hit four times, and he was further
incapacitated when a bullet ruptured the pepper spray
canister on his utility belt, temporarily blinding him. See
(Doc. 29-3 at 13, 81-82, 98 & 118-30; Doc. 29-4 at 11214); State Tr. Exs. 18, 19, 22-27 & 229. Deputy Kinchen
was also shot multiple times, receiving a fatal wound in
his abdomen, just below the bottom of his bullet-proof
vest. See (Doc. 31-3 at 144 & 157-58); State Tr. Exs. 338,
339, 341, 343-346, 348, 349, 351-355, 357, 358, 360-62. A
gunshot had also rendered Deputy Kinchen’s handgun
inoperable. See (Doc. 29-6 at 180-81; Doc. 30-1 at105-09);
State Tr. Exs. 141, 143, 144 & 213. As Deputy Kinchen lay
defenseless on his back in the road, the man shot him in

73a
Appendix C
the groin with a 9mm handgun several more times. See
(Doc. 29-5 at 90; Doc. 30-3 at 146; Doc. 31-3 at 144). The
paramedic who found Deputy Kinchen testified that
“there were literally like war wounds, like Vietnam War
wounds,” something outside her previous and subsequent
experience, (Doc. 29-5 at 90), testimony echoed by the
trauma surgeon who operated on Deputy Kinchen, see
(Doc. 30-3 at 144-45).
Fearing that the shooter would come to find him in the
field, Deputy English began pleading for his life. See (Doc.
29-3 at 87-88; Doc. 29-6 at 139). After hearing a door slam
and an engine start, Deputy English radioed in a report
that the shooter had fled north in a black Mercedes-Benz
toward Ralph David Abernathy Boulevard. See (Doc. 29-3
at 88-89; Doc. 29-6 at 84); State Tr. Ex. 10.
As officers from multiple law enforcement agencies
flooded the area, Atlanta Police Department Officer
Peavy found Deputy English lying in a fetal position in
the field. See (Doc. 29-3 at 84; Doc. 29-5 at 26-27 & 30;
Doc. 29-7 at 40-42). See also (Doc. 29-5 at 84) (paramedic
finds Deputy English in a “semi-fetal position”). Deputy
English told Officer Peavy that the shooter was a tall black
male, about 6’4”, wearing a tan trenchcoat. See (Doc. 29-3
at 99); see also (Doc. 29-3 at 62 (Deputy English equating
“trenchcoat” with Muslim attire)).
When responding officers found Deputy Kinchen
lying in the road, he told one that “the subject was 6’4” in
height and had on a tan or black trench-like coat.” (Doc.
29-6 at 7). Moments later, Deputy Kinchen told another

74a
Appendix C
that the shooter had been “a black male, with long black
trenchcoat, some sort of hat on.” (Doc. 29-5 at 109).
The crime scene was chaotic. See (Doc. 29-5 at 36,
41, & 95; Doc. 29-6 at 83). There were difficulties with
inter-agency communication and on-scene coordination.
See (Doc. 29-5 at 16 & 158; Doc. 31-7 at 155-56). Evidence
was disturbed, see, e.g., (Doc. 30-1 at 113), in the rush to
provide medical treatment to the deputies, see, e.g., (Doc.
30-4 at 29).
One law enforcement officer noted that members of
the community were much less forthcoming in response
to queries for information than in previous instances.
See (Doc. 29-7 at 50). Another noted that unlike a
typical homicide investigation scene, where a crowd of
onlookers often gathers, in this instance there were
none. See (Doc. 30-1 at 94). Two witnesses called by the
defense acknowledged on cross-examination that they
intentionally gave false answers to investigating officers.
See, e.g., (Doc. 32-2 at 98, 114 & 121).
The following day, Deputy Kinchen died. See (Doc.
29-6 at 91; Doc. 29-7 at 9-12). Deputy English, while
hospitalized after surgery and receiving morphine and
other medication, identified Al-Amin as the shooter in a
photo line-up. See (Doc. 29-3 at 106-112; Doc. 30-1 at 37 &
39; Doc. 30-2 at 17-18); State Tr. Ex. 17. Deputy English
also identified Al-Amin during the course of trial as the
man who had shot him and Deputy Kinchen. See (Doc.
29-3 at 63 & 96-97).

75a
Appendix C
After an arrest warrant for Al-Amin was issued, see
(Doc. 30-2 at 22-23 (initial warrant for aggravated assault)
& 24 (subsequent warrant for murder)), a federal unlawful
flight to avoid prosecution warrant was also issued, see
(Doc. 30-1 at 76; Doc. 30-2 at 32; Doc. 31-1 at 111; Doc. 31-2
at 3-4). The FBI tracked Al-Amin to White Hall, Alabama,
a town just outside Montgomery. See, e.g., (Doc. 30-5 at
17; Doc. 31-2 at 4-5).1 Federal and local law enforcement
officers then conducted intensive surveillance in White
Hall to locate Al-Amin, see, e.g., (Doc. 30-5 at 18-21 &
23-26; Doc. 30-6 at 116; Doc. 31-2 at 5-6), and the FBI
dispatched SWAT teams from Alabama and Georgia to
assist with any arrest.
Four days after Deputies Kinchen and English
had been shot, United States Marshals involved in the
surveillance spotted Al-Amin in White Hall, stated that
he fired an assault rifle at them, and reported that he fled
into nearby woods. See (Doc. 30-5 at 26, 29, 37-38, 146,
155-57). A local dog tracking team followed Al-Amin into
the woods, supported by three FBI agents who were to
provide security for the dog handlers. See (Doc. 30-6 at
43; Doc. 30-8 at 2-3). One of the supporting FBI agents
was Ron Campbell.
About three hours later, a Deputy Sheriff posted
nearby apprehended Al-Amin walking along a road near
the woods, trailed by a dog from the tracking team. See
(Doc. 30-5 at 106; Doc. 30-7 at 12-15, 34, 87 & 137). See also
1. As his trial lawyers acknowledged in their opening
statement, White Hall is a community in which Al-Amin had close
friends and contacts.

76a
Appendix C
(Doc. 31-1 at 15 (explaining why the tracking dog walked
beside Al-Amin after finding him). When arrested, AlAmin was wearing tom blue jean overalls and a bulletproof
vest. See (Doc. 30-6 at 3; Doc. 30-7 at 65, 100 & 138; Doc.
31-2 at 21); State Tr. Ex. 75. Al-Amin was also carrying a
pocketknife, several sets of keys (including the key to the
black Mercedes-Benz), three drivers’ licenses issued in his
name by different states, and slightly more than $1,000 in
paper currency and change. See, e.g., (Doc. 30-3 at 115-116;
Doc. 30-7 at 65 & 103; Doc. 31-2 at 22-24). See also St. Tr.
Exs. 56, 58-60, 78, 79 & 80. Upon examination by an FBI
medic, Al-Amin showed no signs of having been shot in
the gunfight with the deputies in Atlanta. See (Doc. 30-7
at 63-66 & 89).
A few minutes later, three more dogs, the pursuing
dog handlers, and the accompanying FBI agents arrived
at the arrest site. See (Doc. 30-6 at 48-49 & 141). While
Al-Amin was handcuffed and facing sideways on the
ground, Agent Campbell called Al-Amin a cop killer and
kicked him; and, when Al-Amin responded verbally, Agent
Campbell spat and Al-Amin spat back. See (Doc. 30-6 at
49-50 & 122; Doc. 30-7 at 16-17 & 125; Doc. 31-5 at 47). A
supervisory FBI agent intervened, immediately pushing
Agent Campbell away and later directing him to leave
Alabama. See (Doc. 30-8 at 18; Doc. 31-1 at 101-102).
That night and the following day, local and federal
officers re-tracing Al-Amin’s path through the woods
discovered, among other things, a piece of fabric tom
from his blue jean overalls on a barbed wire fence, a 9mm
handgun and ammunition, an assault rifle and ammunition,

77a
Appendix C
shell casings, a nylon bag, paperwork listing Al-Amin
as the Mercedes-Benz’s owner, Al-Amin’s dayplanner, a
bank statement for Al-Amin with the 1128 Oak address,
a shooting glove, a cellular telephone, and a field jacket
with a passport in Al-Amin’s name in one pocket. See, e.g.,
(Doc. 30-3 at 115-16; Doc. 30-6 at 127 & 164-65; Doc. 30-7
at 1, 4 & 74-76; Doc. 30-8 at 24-30 & 50-60; Doc. 31-1 at
34-40, 106-08 &148-52; Doc. 31-2 at 25-53); State Tr. Exs.
77, 81, 81-A, 82-114A & 374. The assault rifle and handgun
recovered in White Hall were determined to be the ones
used to shoot Deputies Kinchen and English. See (Doc.
31-7 at 28-32 & 38-44).
Several days after that, investigators found the license
plate for the black Mercedes-Benz secreted in a shed near
where Al-Amin had first been spotted in White Hall.
See (Doc. 31-2 at 149-51; Doc. 31-3 at 36); State Tr. Exs.
125 & 126. And, roughly a week after that, investigators
searching by helicopter found the Mercedes-Benz itself,
tagless, punctured with bullet-holes, and containing
bullets fired from the deputies’ handguns. See, e.g., (Doc.
30-2 at 132; Doc. 31-3 at 1-8 & 35-42; Doc. 31-5 at 90-103;
Doc. 31-7 at 18-28); State Tr. Exs. 131-36, 248-68 & 38288. When found, the Mercedes-Benz was mixed in with
abandoned vehicles on property owned by a friend of AlAmin’s. See (Doc. 30-6 at 135-36; Doc. 31-3 at 2-8, 18-19
& 36-40).
At trial, Al-Amin contended that he was the victim
of mistaken identity. During the guilt/innocence phase of
trial, he offered nineteen witnesses, including Imhotep
Shaka, who testified that he looked out his window after

78a
Appendix C
hearing gunfire on Oak Street and did not believe the
shooter he saw had Al-Amin’s tall, thin body-type. See
(Doc. 32-3 at 88-90). Al-Amin further contended through
an expert witness that Deputy English’s photo line-up
identification was unreliable because of the effects of
post-surgical pain relief medication. See (Doc. 29-3 at
42-43; Doc. 30-1 at 58; Doc. 32-1 at 46-47, 50 & 78). And
Al-Amin asserted that Deputy English’s testimony that he
“would never forget” the shooter’s grey eyes, suggested
that Al-Amin could not have been the shooter because his
eyes are brown. See (Doc. 29-4 at 106-08 & 120-21; Doc.
29-5 at 3-4).
A l-A min also sought to demonstrate that the
investigation and investigators were inept and/or corrupt
through direct and cross-examination of multiple law
enforcement witnesses. In support, Al-Amin alleged
that there were material inconsistencies in the evidence,
including inconsistencies among the deputies’ personal
statements and inconsistencies between the deputies’
statements and the physical evidence. See, e.g., (Doc. 29-4
at 40-57 & 61-135; Doc. 29-6 at 144 (lay witness saw a
Cadillac rather than a Mercedes drive away); Doc. 29-6 at
160 (lay witness testified that pistol fire preceded assault
rifle fire); Doc. 31-6 at 117-19; Doc. 32-2 at 172-75 (same)).
Al-Amin also suggested that investigators had
prevented him from obtaining helpful evidence, including,
for example, by having the deputies’ patrol car repaired,
by failing to follow-up fully on leads generated before
the investigation focused tightly on him, and by failing to
test the guns found in White Hall for fingerprints or to

79a
Appendix C
examine the clothing that he had been wearing for bullet
holes or gunshot residue. See, e.g., (Doc. 29-6 at 132-33;
Doc. 30-2 at 116-17 & 123; Doc. 30-3 at 53, 70-71 & 122;
Doc. 31-2 at 78-88; Doc. 31-3 at 127-28; Doc. 31-6 at 84-94;
Doc. 32-3 at 144)
Al-Amin’s attorneys alluded vaguely to other people
who might have shot the deputies and implied through
examination that there might have been multiple shooters
and multiple getaway vehicles. See, e.g., (Doc. 29-4 at
119-20; Doc. 29-6 at 144; Doc. 31-3 at 48; Doc. 32-2 at
115-16 (reference to “Mustafa” as possibly possessing
a “weapon”); Doc. 32-3 at 19-22 (testimony that a club
van, driven by a man under 6’0”, was seen by neighbors
fleeing the crime scene with its lights out) & 36-39 (same)
& 129 (testimony regarding security camera footage shot
at 3:00 am at a retirement home one and one-half miles
away from the crime scene of an apparently injured man));
Def. Tr. Exs. 92-99, 100 (911 tape subject to limiting
instruction relating to a report of a wounded man in the
neighborhood), and 106-120.
Al-Amin offered witnesses from White Hall, Alabama
who stated that the U.S. Marshals or FBI agents were
the only ones who fired shots near the woodline. See, e.g.,
(Doc. 32-1 at 93-96, 138-40 & 164). And Al-Amin suggested
that the FBI, and particularly Agent Ron Campbell who
fell behind the dog tracking team, might have planted
incriminating evidence in Alabama in order to frame
him for the shooting of Deputies Kinchen and English.
See, e.g., (Doc. 30-8 at 35-46 & 57-60; Doc. 31-1 at 163-64;
Doc. 31-5 at 43-45). See also (Doc. 31-1 at 68-70 (eliciting

80a
Appendix C
testimony that the tracking team did not see most of the
items recovered later that night or the next day in the
course of their pursuit); Doc. 31-5 at 64 (implying the FBI
“want[ed] to maintain control” over Agent Campbell); Doc
32-5 at 105 (closing argument that the evidence was “too
staged, too convenient, too perfect”). 2
Al-Amin elected not to take the stand to testify in his
own defense. This reflected his four trial lawyers’ advice
that he ought not do so. See, e.g., (Doc. 32-3 at 157); see
also (Doc. 32-5 at 70 (closing argument)). 3

2. ln closing argument, Al-Amin went so far as to suggest
that had the FBI captured him in Alabama rather than local law
enforcement officers: “We might not have a trial today because
... a Ron Campbell with a high-powered rifle would finish him off
....” (Doc. 32-5 at 105); see also (id. at 114) (“It was shoot first, ask
questions later .... If Big John hadn’t been there we wouldn’t be
having a trial today.”).
3. By avoiding testifying himself or seeking to introduce
character evidence, Al-Amin was able during the guilt/innocence
phase of trial to limit the stipulation with respect to his criminal
history to a statement that he had been convicted of a felony, see
(Doc. 31-7 at 140), without having to reveal that his prior criminal
history included multiple felony convictions after a 1970s shootout
with police in New York in which an officer was shot and disabled
with an assault rifle, see generally (Doc. 29-6 at 25-27 & 116120 (side-bar exchange regarding the introduction of character
evidence); Doc. 33-1 at 7-44 (side-bar discussion of New York
convictions during penalty phase and trial court’s exclusion of any
discussion of the underlying facts); Doc. 33-3 at 106-07 (argument
regarding New York indictment and convictions)); St. Tr. Ex. 398.

81a
Appendix C
As noted above, during closing argument the
prosecutor violated Al-Amin’s constitutional rights by
commenting impermissibly on Al-Amin’s decision not to
testify. The prosecutor did this by posing and “answering”
rhetorical “Questions for the Defendant” that he displayed
with a visual aid for the jury to read. The questions were
as follows:
QUESTIONS FOR THE DEFENDANT
- Who is Mustafa?
- Why would the FBI care enough to frame you?
- How did the murder weapons end up in Whitehall?
- How did your Mercedes get to Whitehall?
- How did your Mercedes get shot up?
- Why did you flee (without your family)?
- Where were you at 10PM on March 16, 2000?
(Doc. 15-7 at 62).
When Al-Amin’s attorneys objected and moved for a
mistrial, the trial judge directed the prosecutor to alter
his line of argument so that he was not commenting on
Al-Amin’s failure to testify. See (Doc. 32-5 at 29). At AlAmin’s lawyers’ suggestion that it “might be okay to say
Questions for the Defense,” the prosecutor re-labeled his

82a
Appendix C
visual aid accordingly. See (Doc. 32-5 at 27 & 31). Al-Amin’s
lawyers expressly declined the trial judge’s offer to give
a curative instruction. See (Doc. 32-5 at 29 & 31).
The prosecutor persisted, however, and Al-Amin’s
lawyers renewed their motion for a mistrial. See (Doc. 32-5
at 33). Asked by the trial judge do “you wish the Court to
do anything,” Al-Amin’s lawyers responded “not at this
time, your Honor.” (Doc. 32-5 at 33.).
When the prosecutor continued to pose his rhetorical
questions, Al-Amin’s lead trial attorney said: “Your Honor,
changing my mind. I do believe we need an instruction.
With this type of chart we believe it’s improper. We would
request instruction to the jury about the impropriety of
it.” (Doc. 32-5 at 34). The specific request was that:
The court give an instruction to the jury that
— two things. That first the Defendant has no
burden to present any evidence whatsoever in
any case. The burden is always on the State
to prove its case. And the Defendant has no
obligation to testify or explain, and no adverse
— no inference should be drawn against the
Defendant for his failure to testify.
(Doc. 32-5 at 34-35).
The Court then gave a curative instruction making
all those points, saying, inter alia:

83a
Appendix C
This is closing argument. Closing argument is
not evidence. Attorneys may draw inferences
and urge you to draw inferences from the
evidence. It is proper for the attorneys to argue
a failure to present certain evidence. However,
you must keep in mind that a defendant in a
criminal case is under no duty to present any
evidence to prove innocence and is not required
to take the stand and testify in the case.
If a defendant elects not to testify, no inference
hurtful, harmful or adverse to him shall be
drawn by you, and no such fact shall be held
against him.
However, it is proper for one side or the other
to comment on failure to present certain
evidence, but not to comment on the failure of
the Defendant to testify.
And I’m clarifying this, that, as you know, the
burden of proof always remains on the State to
prove the guilt of a defendant as to any charge
beyond a reasonable doubt.
(Doc. 32-5 at 35-36).
Al-Amin expressed dissatisfaction with the instruction
at trial, (Doc. 32-5 at 36), and he does so again in his
Fourth Amended Petition, see (Doc. 129 at 57-64). He now
also argues that he is entitled to federal habeas relief.

84a
Appendix C
While of constitutional dimension, the acknowledged
violation that occurred when the prosecutor impermissibly
commented on Al-Amin’s decision not to testify at
trial is insufficient to entitle Al-Amin to have his
convictions overturned. Applying the Brecht-standard,
and considering the totality of the evidence presented at
trial, including that presented by Al-Amin, I am not in
“grave doubt” as to whether the prosecutor’s improper
comments during closing argument had a “substantial
and injurious” effect on the outcome of the case. The
prosecutor’s constitutional violation was addressed
immediately and comprehensively, and the evidence of
Al-Amin’s guilt was overwhelming.4 In sum, under the
Brecht-standard, it is clear that Al-Amin did not suffer
“actual prejudice.”5
4. I note that after hearing evidence over the course of three
weeks during the guilt/innocence phase, the jury returned its
verdict the day after receiving final instructions from the trial
court.
5. I am aware that A l-Amin offered in state habeas
proceedings an affidavit from one juror asserting his belief that
members of the jury would liked to have heard Al-Amin testify.
But the state habeas court concluded that under Georgia law it
had no authority to revisit the Georgia Supreme Court’s decision
on issues relating to closing argument because those issues had
been resolved on direct appeal. Although Al-Amin’s four habeas
lawyers may well believe they identified a “better” argument and
“better” evidence that the prosecutor’s comments during closing
argument were harmful under the Chapman-standard than AlAmin’s four trial and three appellate lawyers made and offered on
his behalf at trial, in the motion for new trial, and on direct appeal,
the time for making that argument and offering the affidavit were
long-past by the time of the state habeas proceeding. Al-Amin’s

85a
Appendix C
Al-Amin is not entitled to federal habeas relief based
on his Claim I.
B.
Al-Amin states his Claim II as follows: “The State
court violated Mr. Al-Amin’s Sixth and Fourteenth
Amendment rights by precluding him from crossexamining FBI Agent Campbell regarding Campbell’s
1995 shooting of Glenn Thomas in Philadelphia.” Fourth
Am. Pet. at 103; id. at iv (same).
Al-Amin and his lawyers contend that in 1995 Agent
Campbell executed an unarmed Muslim man by shooting
him in the back of the head and then planting a gun at the
scene. Al-Amin’s habeas lawyers now assert that Al-Amin’s
trial lawyers wanted to offer evidence of this “similar
transaction” not “to tarnish the witness’s character (i.e.,
for pure impeachment), but to show [that] the witness
acted in a certain manner previously and, therefore, the
jury [could] infer that he acted in a similar manner in this
case.” (Doc. 129 at 71). It is Al-Amin’s contention that the
trial court improperly precluded him from pursuing this
line of examination of Agent Campbell. Id. See also (Doc.
30-6 at 58-59). And it is Al-Amin’s further contention
that Georgia Supreme Court repeated this error when
it concluded that Al-Amin’s true aim was to impeach the
character or veracity of Agent Campbell with evidence
habeas lawyers offered nothing to demonstrate that the affidavit
from the juror could not have been obtained and offered sooner,
so that it might have been considered before the Georgia Supreme
Court had had its final say on the issue.

86a
Appendix C
of a specific instance of prior misconduct. See, e.g., AlAmin, 597 S.E.2d at 345-46 & (Doc. 30-6 at 58-59). But
even assuming for the sake of discussion that both state
courts missed the thrust of Al-Amin’s argument, he has
not demonstrated that it resulted in an error warranting
the grant of federal habeas corpus relief.
Although Al-Amin’s habeas lawyers now seek,
repeatedly, to characterize Agent Campbell as a “key” or
“critical” or “essential” prosecution witness, see, e.g., (Doc.
129 at 122-25), he was none of those things. Al-Amin’s trial
lawyers acknowledged as much in their closing arguments
when they stated that “[t]his case is not all about Ron
Campbell,” (Doc. 32-5 at 103), and observed that Deputy
English was the “key witness” (Doc. 32-5 at 96).
Moreover, Al-Amin’s trial lawyers’ assessment is
borne out by the trial record. The prosecution offered 45
witnesses whose testimony spanned roughly 3000 pages
at trial. Agent Campbell’s direct and redirect testimony
constituted about 53 pages of that total. He testified to
none of the material facts summarized above, other than
that he accompanied the dog tracking team that pursued
Al-Amin into the woods, and that he had engaged in
egregious professional misconduct at the arrest site by
calling Al-Amin a cop killer, kicking him, and spitting.
He also testified that he had been investigated and was
subject to discipline for that misconduct.
None of this testimony was “key,” “critical,” or
“essential” to the prosecution’s case; it established no
element of any of the crimes for which Al-Amin was

87a
Appendix C
prosecuted. On this basis alone, the trial court’s decision
to preclude “cross-examination” of Agent Campbell
on Al-Amin’s allegation that he had shot a Muslim
African-American man in Philadelphia in 1995 is readily
distinguishable from Davis v. Alaska, 415 U.S. 308 (1974),
and United States v. Cohen, 888 F.2d 770 (11th Cir. 1989),
the decisions relied upon by Al-Amin’s habeas lawyers.
The first of those cases involved “a crucial witness for the
prosecution” whose testimony went to the heart of the
charges against the defendant. Davis v. Alaska, 415 U.S.
at 310. The second involved a cooperating co-defendant
who “was the government’s primary witness” to his noncooperating co-defendants’ participation in the fraudulent
scheme for which they were being prosecuted. Cohen, 888
F.2d at 776.
Moreover, Al-Amin’s trial lawyers never offered,
and his habeas lawyers have not offered, any admissible
evidence that the criminal conduct they accuse FBI Agent
Campbell of having committed in Philadelphia in 1995
actually occurred. Al-Amin’s trial lawyers could say only
“we have strong reason to believe that Mr. Campbell back
in June the 1st of 1995 shot a young African-American
who was also a Muslim in the head, the back of the head.”
(Doc. 29-2 at 25). And, Al-Amin’s habeas lawyers can now
point only to “multiple contemporaneous press accounts.”
(Doc. 121 at 166). But newspaper articles do not establish
the “truth” of the statements included therein. See, e.g.,
United States ex rel. Osheroff v. Humana, Inc., 776 F.3d
805, (11th Cir. 2015) (“Courts may take judicial notice of
documents such as the newspaper articles at issue here
for the limited purpose of determining which statements

88a
Appendix C
the documents contain (but not for determining the truth
of those statements).”) (emphasis added). On the other
hand, there is a reported Pennsylvania decision affirming
the dismissal of a private criminal complaint filed by
a community member against Agent Campbell for the
alleged shooting. See Commonwealth v. Campbell, 686
A.2d 1318 (Pa. Super. Ct. 1996).
Al-Amin’s habeas lawyers also argue that “[t]he
FBI generally and FBI Agent Campbell in particular
were a critical focus of the defense team’s conspiracy
theory.” (Doc. 129 at 124). Central to this defense theory
are the propositions that the FBI somehow (A) collected
the murder weapons and many of Al-Amin’s belongings
from the crime scene in Atlanta before any local law
enforcement officers could respond to Deputy English’s
radio report that he and Deputy Kinchen were under
fire, (B) transported it all to Alabama, and (C) then had
Agent Campbell walk through the woods distributing this
evidence surreptitiously for other law enforcement officers
to find. Al-Amin had no evidence to offer at trial that any
of this occurred, and he still has no evidence. Rather, he
wanted to imply that it might have occurred, given Agent
Campbell’s acknowledged misconduct at the arrest site
in White Hall and alleged misconduct at an arrest site in
Philadelphia five years earlier.
Although “the Confrontation Clause guarantees an
opportunity for effective cross-examination,” it does not
guarantee “cross-examination that is effective in whatever
way, and to whatever extent, the defense might wish.”
Delaware v. Fensterer, 474 U.S. 15, 20 (1985). There was

89a
Appendix C
no effective cross-examination to be had on this issue
where all Al-Amin could do was cast unsubstantiated
accusations.
Thus, looking at Al-Amin’s claim pursuant to the
Brecht-standard in light of the whole record, I readily
conclude that Al-Amin did not suffer “actual prejudice.”
See, e.g., Grossman v. McDonough, 466 F.3d 1325, 1339
(11th Cir. 2007) (applying the Brecht-standard to the
harmless error analysis of an alleged Confrontation
Clause violation on habeas review).6
Al-Amin is not entitled to federal habeas corpus relief
on his Claim IL
C.
Al-Amin states his Claim III as follows: “The Defense
Lawyers violated Mr. Al-Amin’s Sixth and Fourteenth
Amendment rights to effective assistance of counsel
6. Even under the less-onerous Chapman-harmless error
standard that the Georgia Supreme Court would have applied
had it concluded that Al-Amin’s Confrontation Clause rights
were violated, there is no good argument that reversible error
occurred. None of the factors a reviewing court must weigh on
direct review — “the importance of the witness’ testimony in the
prosecution’s case, whether the testimony was cumulative, the
presence or absence of evidence corroborating or contradicting the
testimony of the witness on material points, the extent of crossexamination otherwise permitted, and, of course, the strength of
the prosecution’s case,” Delaware v. Van Arsdall, 475 U.S. 673,
686-87 (1986)—weighed in Al-Amin’s favor.

90a
Appendix C
by failing to investigate the confession of Otis Jackson
adequately.” Fourth Am. Pet. at 111; id. at iv-v (same).
As noted above, this was a high profile case, both
because of the nature of the crimes and the identity of
the defendant. In the aftermath of the crime, a number of
people “confessed” to having committed it, among them,
Otis Jackson.
In the state habeas proceeding, Al-Amin’s habeas
lawyers claimed that his trial lawyers failed adequately to
investigate Jackson’s confession. In support, they offered
testimony given by Jackson in a deposition after the
Georgia Supreme Court had issued its decision on direct
appeal summarizing the trial evidence, that they allege
“tracks key trial evidence.” (Doc. 129 at 113).
The state habeas court was required to judge AlAmin’s claim under the two-pronged standard set forth
in Strickland v. Washington, 466 U.S. 668 (1984). “The
performance prong of Strickland requires a defendant to
show ‘that counsel’s representation fell below an objective
standard of reasonableness.’” Lafler v. Cooper, 132 S. Ct.
1376, 1384 (2012) (quoting Strickland, 466 U.S. at 688)).
The prejudice prong of Strickland requires the defendant
to “show that there is a reasonable probability that, but
for counsel’s unprofessional errors, the result of the
proceeding would have been different.” Strickland, 466
U.S. at 694. And it is plain from the record that the state
habeas court, in fact, applied that standard.

91a
Appendix C
It is noteworthy that Strickland itself involved an
inadequate investigation claim and said this:
These standards require no special amplification
in order to define counsel’s duty to investigate,
the duty at issue in this case. As the Court
of Appeals concluded, strategic choices made
after thorough investigation of law and facts
relevant to plausible options are virtually
unchallengeable; and strategic choices made
after less than complete investigation are
reasonable precisely to the extent that
reasonable professional judgments support
the limitations on investigation. In other
words, counsel has a duty to make reasonable
investigations or to make a reasonable
decision that makes particular investigations
unnecessary. In any ineffectiveness case, a
particular decision not to investigate must be
directly assessed for reasonableness in all the
circumstances, applying a heavy measure of
deference to counsel’s judgments.
Strickland, 466 U.S. at 690-91. And Strickland emphasized
that “a court deciding an actual ineffectiveness claim must
judge the reasonableness of counsel’s challenged conduct
on the facts of the particular case, viewed as of the time
of counsel’s conduct” and that “the court should recognize
that counsel is strongly presumed to have rendered
adequate assistance and made all significant decision in
the exercise of reasonable professional judgment.” Id. at
690.

92a
Appendix C
Furthermore, on federal habeas review:
Establishing that a state court’s application of
Strickland was unreasonable under § 2254(d)
is all the more difficult. The standards created
by Strickland and§ 2254(d) are both highly
deferential, and when the two apply in tandem,
review is doubly so. The Strickland standard
is a general one, so the range of reasonable
applications is substantial. Federal habeas
courts must guard against the danger of
equating unreasonableness under Strickland
with unreasonableness under § 2254(d). When
§ 2254(d) applies, the question is not whether
counsel’s actions were reasonable. The question
is whether there is any reasonable argument
that counsel satisfied Strickland’s deferential
standard.
Richter, 562 U.S. at 105 (internal quotations marks and
citations omitted).
Although Al-Amin argues that§ 2254(d) should not
apply in this case, I conclude that he is mistaken. The state
habeas court cited Strickland, applied it in a manner that
was not unreasonable, and summarized the evidence it
found most relevant to its analysis, also in a manner that
was not unreasonable.
Specifically, the state habeas court found and
concluded as follows:

93a
Appendix C
Mr. Martin testified at [Al-Amin’s] evidentiary
hearing that [the defense lawyers] had charged
their experienced investigator, Mr. Watanni
Tyehimba, with locating and interviewing
Mr. Jackson. [T]he defense team strategically
decided not to use the information about Otis
Jackson for three reasons: 1) Mr. Jackson was
being monitored by an ankle bracelet at the
time of the shooting and the ankle monitor
documents showed Mr. Jackson was at his home
and could not have been present on the night of
the shooting; 2) Mr. Jackson had retracted and
repeated his confession numerous times; and
3) the defense team’s experienced investigator
had interviewed Mr. Jackson and doubted the
reliability of his testimony. Mr. Martin further
stated the defense team ultimately chose not to
utilize Mr. Jackson or his confession because
he was afraid the tactic would “backfire” on
the Petitioner and make him look “desperate.”
Based on the foregoing and because deciding
on which defense witnesses to call is a matter
of trial strategy and tactics that does not
constitute ineffective assistance of counsel, the
Court rejects the Petitioner[’s] argument that
he was denied effective assistance of counsel
as to this claim.
(Doc. 1-2 at 11).
The complete failure to investigate cases that AlAmin now cites are inapposite. Al-Amin’s trial attorneys

94a
Appendix C
did investigate Jackson’s confession, through their
experienced investigator. There was no obligation for
the attorneys personally to have interviewed Jackson.
It is axiomatic that “[a]n attorney can avoid activities
that appear distractive from more important duties [and
counsel] was entitled to formulate a strategy that was
reasonable at the time and to balance limited resources in
accord with effective trial tactics and strategy.” Richter,
562 U.S. at 107 (internal quotation marks and citations
omitted). A reasonable jurist could conclude that is the
decision the defense team made here.
Moreover, “[a]n attorney need not pursue an
investigation that would be fruitless, much less one that
might be harmful to the defense.” Id. at 108. It is evident
from Martin’s testimony that is precisely what the defense
team feared. It was not unreasonable for the state habeas
court to conclude that Al-Amin’s trial lawyers decided that
further investigation would be fruitless and might well be
harmful to Al-Amin.
Al-Amin’s habeas lawyers now ask that this Court
revisit that strategic pretrial decision and judge it against
information they developed years after the trial was
concluded. But “[r]eliance on the harsh light of hindsight
to cast doubt on a trial that took place now more than 157
years ago is precisely what Strickland and AEDPA seek
to prevent.” Id. at 107. Under the doubly deferential review
that the state habeas court’s decision is entitled to receive,
7. ln Richter, the trial had occurred 15 years earlier. Here,
Al-Amin’s trial occurred 14 years ago.

95a
Appendix C
I readily find and conclude that there is a “reasonable
argument that counsel satisfied Strickland’s deferential
standard.” Id. at 788.
Al-Amin is not entitled to federal habeas relief on his
Claim III.
I note that in connection with Claim III Al-Amin’s
habeas lawyers seek to add new material to the record.
This new evidence includes an affidavit from Martin to
supplement the testimony he gave at the state habeas
hearing. Al-Amin’s habeas lawyers, however, give no
reason for the failure to have asked Martin during state
habeas proceedings questions that would have elicited the
information they now offer in the affidavit.
Not only would A l-A min have a very tenuous
argument as a general matter for adding to the record
now information that was available to him before the
state habeas evidentiary hearing, but in light of AEDPA’s
restrictions his “fail[ure] to develop the factual basis of a
claim in State court proceedings” clearly precludes him
from doing so now. 28 U.S.C. § 2254(e)(2); see also Cullen
v. Pinholster, 563 U.S. 170, 181 (2011) (“We now hold that
review under § 2254(d)(1) is limited to the record that
was before the state court that adjudicated the claim on
the merits.”).
Accordingly, Al-Amin cannot expand the record in
support of his Claim III.

96a
Appendix C
D.
Al-Amin has withdrawn the Claim IV that he included
in his Fourth Amended Petition, see (Doc. 135), and it
requires no substantive discussion.
To the extent that Al-Amin’s is still asking to expand
the record to introduce new material related to his Brady
claim, those requests must be denied as moot.
E.
As I noted earlier, see p. 9 supra, Al-Amin also
contended in passing that his Claims collectively warrant
federal habeas relief, even if none of those Claims
individually warrant relief. Al-Amin’s entire argument
on this point was that:
Taken individually, any of the constitutional
errors infecting Mr. Al-Amin’s trial support[s]
habeas relief. All four errors, however, relate
to and support each other. A llow ing the
cross-examination of FBI Agent Campbell
regarding the Philadelphia incident would
have developed evidence answering several
of the Prosecution’s mock cross-examination
questions (such as “Why would the FBI care
enough to frame you? and “Mr. Defendant,
how did those murder weapons get there to
White Hall?”). Similarly, the confession of Otis
Jackson and any exculpatory evidence from
the FBI’s investigation of Mr. Al-Amin at the

97a
Appendix C
time of the crime would answer the question
of who actually shot Deputy Sheriffs Kinchen
and English on March 16, 2000. Taken together,
these errors compel habeas relief.
Accordingly, Mr. Al-Amin respectfully requests
that his petition for habeas corpus be granted.
Fourth Am. Pet. at 15-16. Al-Amin, who has four attorneys
representing him in this federal habeas proceeding, cited
no cases in support of this argument and developed it no
further in his 150-page Fourth Amended Petition.
To his credit, Commissioner Bryson addressed this
argument on the merits and at length. See (Doc. 131 at 4850). Commissioner Bryson’s response informed Al-Amin’s
habeas attorneys that they were making a “cumulative
error” argument and cited relevant cases. Thus, in their
Reply in Support of Fourth Amended Petition, Al-Amin’s
habeas lawyers developed a more complete argument on
this point. See (Doc. 133 at 41-43).
As a threshold matter, I conclude that Al-Amin’s
“fail[ure] to provide any citation to authority or arguments
in support” of his ‘catch-all’ claim in the Fourth Amended
Petition waived it. It is a well-established that “[a] party
abandons all issues on appeal that he or she does not
‘plainly and prominently’ raise in his or her initial brief.”
United States v. Krasnow, 484 F. App’x 427, 429 (11th
Cir. 2012) (quoting United States v. Jernigan, 341 F.3d
1273, 1283 n.8 (11th Cir. 2003)). Similarly, a failure to
provide any citation to authority or arguments in support

98a
Appendix C
waives an issue. U.S. Steel Corp. v. Astrue, 495 F.3d 1272,
1287 n.13 (11th Cir. 2007) (“We will not address this
perfunctory and underdeveloped argument”); see also
Flanigan ‘s Enters. Inc. v. Fulton Cty, Ga., 242 F.3d 976,
987 n.16 (11th Cir. 2001) (holding that a party waives an
argument if the party “fail[s] to elaborate or provide any
citation of authority in support” of the argument). Nor may
“[p]arties ... raise new issues in reply briefs.” Krasnow,
484 F. App’x at 429 (citing Timson v. Sampson, 518 F.3d
870, 874 (11th Cir. 2008)). The same principles apply at the
district court level.
Moreover, even if I were to conclude that Al-Amin had
“plainly and prominently” raised the issue of “cumulative
error” and even if he had provided citations to authority,
I would still conclude that federal habeas relief is not
warranted on this basis. First, there is no merit to any
of Al-Amin’s three numbered claims individually, and in
these circumstances it is unnecessary to decide whether
the “cumulative error” doctrine applies. See, e.g., Morris
v. Secy, Dep’t of Corr., 677 F.3d 1117, 1132 n.3 (11th Cir.
2012). Second, Al-Amin does not appear to have raised a
“cumulative error” argument in the state courts, and he
thus failed to fully-exhaust this claim. See generally 28
U.S.C. § 2254(b)(1).
Federal habeas relief is not warranted on this “catchall” basis, and it provides no basis for expanding the
record, either.

99a
Appendix C
F.
Finally, I note that Al-Amin included in his Fourth
Amended Petition a footnote declaring: “Mr. Al-Amin
incorporates and does not waive any of the claims asserted
in his direct appeal, his initial state habeas petition, or his
amended state habeas petition.” Fourth Am. Pet. at 19 n.6.
This footnote purports to incorporate by reference the 16
issues that he raised on direct appeal and the 17 grounds
for relief that he raised in state habeas proceedings. See
id. at nn. 4&5. For the reasons just discussed above in the
text—namely that none of these claims was “plainly and
prominently” raised or supported by citations to authority
in the Fourth Amended Petition—I conclude that all of
these claims were waived.
IV.
For the foregoing reasons, I RECOMMEND that AlAmin’s Fourth Amended Petition (Doc. 129), as further
amended to withdraw Claim IV (Doc. 135), be DENIED.
I further RECOMMEND that Al-Amin be DENIED
a Certificate of Appealability because he has not
demonstrated that he meets the requisite standards. See
Slack v. McDaniel, 529 U.S. 473, 478 (2000). See also 28
U.S.C. § 2253(c)(2); 28 U.S.C. foll. § 2254, Rule 11(a).
And I DENY Al-Amin’s Motion to Expand the Record
(Doc. 101), Second Motion to Expand the Record (Doc.
116), and Supplement to Second Motion to Expand the
Record (Doc. 117)

100a
Appendix C
I DIRECT the Clerk to terminate the referral of this
case to me.
IT IS SO RECOMMENDED, ORDERED, AND
DIRECTED, this 24th day of March, 2016.
/s/							
GERRILYN G. BRILL
UNITED STATES MAGISTRATE JUDGE

101a
Appendix
D
Appendix D — ORDER
DENYING
APPLICATION
FOR CERTIFICATE OF PROBABLE CAUSE of
the SUPREME COURT OF GEORGIA,
DATED May 07, 2012
SUPREME COURT OF GEORGIA
Case No. S12H0007
Atlanta, May 07, 2012
The Honorable Supreme Court met pursuant to
adjournment. The following order was passed.
JAMIL ABDULLAH AL-AMIN
v.
HUGH SMITH, WARDEN
From the Superior Court of Tattnall County.
Upon consideration of the Application for Certificate
of Probable Cause to appeal the denial of habeas corpus,
it is ordered that it be hereby denied. All the Justices
concur, except Hunstein, C.J., who dissents
Trial Court Case No. 2005-HC-66
SUPREME COURT OF THE STATE OF GEORGIA
Clerk’s Office, Atlanta

102a
Appendix D
I certify that the above is a true extract from minutes
of the Supreme Court of Georgia.
Witness my signature and the seal of said court hereto
affixed the day and year last above written.
/s/Pamela M. Fishburne
Deputy Clerk

103a
Appendix OF
E THE SUPREME
APPENDIX E — OPINION
COURT OF GEORGIA, DATED MAY 24, 2004
SUPREME COURT OF GEORGIA
No. S04A0151.
AL-AMIN
v.
THE STATE
May 24, 2004.
Al-Amin v. State, 278 Ga. 74, 597 S.E.2d 332 (2004):
THOMPSON, Justice.
Jamil Abdullah Al–Amin was convicted of malice
murder and various other offenses stemming from the
shooting of two Fulton County Deputy Sheriffs, that
resulted in the death of one and injury to the other.1 The
1. The crimes took place on March 16, 2000. On March 28, 2000,
Al–Amin was charged in a 13–count indictment with malice murder,
felony murder (four counts), aggravated assault on a peace officer
(two counts), obstruction of a law enforcement officer (two counts),
aggravated battery on a peace officer, possession of a firearm by a
convicted felon, and possession of a firearm in the commission of a
felony (two counts). The State sought the death penalty. Voir dire
commenced on January 22, 2002, and on March 9, 2002, Al–Amin was
found guilty of all counts. At the conclusion of the sentencing phase on
March 13, 2002, the jury fixed punishment at life without possibility
of parole. Al–Amin was sentenced accordingly on the same day. He

104a
Appendix E
State sought the death penalty, but a jury returned a
sentence of life without possibility of parole, and judgment
was entered accordingly. Finding no reversible error, we
affirm.
1. On appeal from a criminal conviction, we view the
evidence in a light most favorable to the verdict, and the
defendant no longer enjoys the presumption of innocence.
Short v. State, 234 Ga.App. 633, 634(1), 507 S.E.2d
514 (1998). We do not weigh the evidence or determine
witness credibility, but only determine if the evidence was
sufficient for a rational trier of fact to find the defendant
guilty of the charged offense beyond a reasonable doubt.
Jackson v. Virginia, 443 U.S. 307, 99 S.Ct. 2781, 61
L.Ed.2d 560 (1979).
So viewed, the evidence established that Fulton
County Deputy Sheriffs Aldranon English and Ricky
Kinchen went to the home of Al–Amin in the West End
community of Atlanta to execute a bench warrant for
his arrest issued by Cobb County Superior Court. 2 The
warrant was issued when Al–Amin failed to appear at an
arraignment in that court to answer charges of theft by
filed a timely motion for new trial, which was amended on December
10 and 13, 2002, and denied on July 2, 2003. A notice of appeal was
filed on July 18, 2003, and the case was docketed in this Court on
September 26, 2003. Oral argument was heard on January 27, 2003.

2. Al–Amin served as an Iman (prayer leader) at a Muslim
Masjid (house of worship) which was established in a small renovated
house. The address on the warrant which Al–Amin listed with
Cobb County authorities as his residence, is the same location as
the Masjid.

105a
Appendix E
receiving stolen property, impersonating an officer, and
operating a motor vehicle without proof of insurance. The
Fulton County deputies were in uniform with their badges
displayed and they were driving a marked Fulton County
Sheriff’s patrol car.
Al–Amin’s residence was unlit and it appeared to
the deputies that he was not at home. Instead of possibly
“blowing the warrant” by alerting neighbors of their
attempt to find the subject, the deputies decided to leave
the area. 3 They had driven a short distance when they saw
a black car pull up and park near Al–Amin’s residence,
and they observed a man exit the vehicle. Although it was
after dark, the street lights provided good illumination so
that the deputies were able to discern that the individual,
dressed in Muslim attire, appeared to fit the description of
their subject as provided in the warrant. Deputy Kinchen
made a U-turn, drove toward Al–Amin’s residence, and
parked the patrol car nose-to-nose with Al–Amin’s vehicle,
a black Mercedes–Benz. Al–Amin stood next to his vehicle
and kept his gaze on the patrol car as it approached; his left
hand was on his car door and he held a brown bag in his
right hand. Deputy English exited from the passenger side
and walked toward Al–Amin; the officer had not drawn his
service revolver. Deputy Kinchen simultaneously exited
the patrol car from the driver’s side; he was to provide
cover for his partner. Deputy English directed that Al–
Amin place his right hand in view, whereupon Al–Amin
3. This was their second attempt; Deputy English along with a
second deputy had been to Al–Amin’s residence to execute the Cobb
County warrant one week earlier. On that occasion, it also appeared
that the residence was unoccupied, and the deputies left.

106a
Appendix E
suddenly produced an assault rifle and began firing at
the two officers. After shooting both deputies numerous
times, using both the assault rifle and a pistol, Al–Amin
drove away from the scene.
A neighbor who heard repeated gunfire called 911
and reported that there was an officer down in the street
begging for his life. The neighbor described a dark–
colored vehicle (he believed to be a Cadillac) speed away
from the scene.
Deputy English radioed for help and alerted the
dispatcher that the perpetrator left the scene in a black
Mercedes. When police arrived at the scene, Deputy
Kinchen was able to describe his assailant as an African–
American male, 6′4″ in height, wearing a long trenchcoat,
a “beanie” type hat, and armed with an assault rifle.
The next day Deputy English gave the investigating
officers a statement describing the events, and he identified
Al–Amin in a photo line-up. Later that afternoon, Deputy
Kinchen died from his injuries. A Fulton County warrant
was issued for the arrest of Al–Amin on charges of
murder, aggravated assault, and other crimes stemming
from the shooting. In addition, federal authorities, acting
on information that Al–Amin had left Georgia, issued a
warrant for unlawful flight to avoid prosecution (UFAP
warrant).
Within a day of the shooting, federal authorities
received information that Al–Amin might have fled to
Whitehall, Alabama; a multi-agency surveillance team

107a
Appendix E
was deployed to that area. On the fourth day after the
shooting, Al–Amin was spotted on foot in Whitehall
by a team of three United States Marshals who were
part of the surveillance operation. When the uniformed
marshals observed Al–Amin walk toward a wooded area,
they exited their vehicle and identified themselves as law
enforcement officers. Al–Amin immediately opened fire
on them, and then retreated into the woods; the marshals
were uninjured.
Al–Amin was captured about three hours later
after a team of tracking dogs was brought in to assist
in the search. He was wearing a bulletproof vest, and
he had in his possession a wallet containing $1,000 in
cash and three drivers’s licenses issued in his name by
three different states. In the vicinity, officers located a .9
millimeter pistol, holster, belt, a magazine of .9 millimeter
ammunition, and a piece of fabric on a barbed wire fence
that had been torn from the shirt Al–Amin was wearing.
The next morning, officers conducted a further search of
the area and located the following: several .223 caliber
shell casings (both expended and live); a green canvas
bag containing a cellular phone, clothing, a magazine
containing .223 ammunition, and the registration
documents for a Mercedes–Benz automobile showing Al–
Amin as owner and reflecting his Fulton County address;
a brown day planner containing a bank statement issued
to Al–Amin at the same address; and a .223 caliber semiautomatic Ruger assault rifle and two magazines of .223
ammunition.
Nine days after Al–Amin’s arrest, his black Mercedes
automobile was recovered on private property in the

108a
Appendix E
Whitehall area; the license plate was found in a nearby
shed. Numerous bullet holes were visible on the car.
Bullets which had been fired from the service revolvers
of both Deputies Kinchen and English were removed
from the wheel rim, frame, windshield, and rear seat of
the vehicle.
Ballistics evidence also established that two .9
millimeter metal jacket bullets which had been removed
from Deputy Kinchen’s abdomen and femur had been
fired from the .9 millimeter pistol recovered at the time
of Al–Amin’s arrest in Whitehall. It was also shown that
shell casings collected from the site of the Fulton County
shootings had been ejected from that weapon. Numerous
.223 caliber cartridge casings collected both at the
site of the Fulton County shootings and in the vicinity
of Al–Amin’s arrest, had been ejected from the .223
caliber Ruger rifle found along with Al–Amin’s personal
belongings on the morning after his arrest in Whitehall.
The evidence was sufficient for a rational trier of fact
to have found Al–Amin guilty of the crimes for which he
was convicted. Jackson v. Virginia, supra.
2. Al–Amin claims that his constitutional right to
equal protection, as well as the statutory procedures for
selecting grand juries, were violated because the grand
jury wheel from which his grand jurors were selected
was “forced balanced” by selecting people based on race,
gender, and age.
Evidence presented at a pretrial hearing showed
that the voter registration list for Fulton County was

109a
Appendix E
the sole source for the master grand jury list from which
the grand jury in this case was summoned; and because
African–Americans in Fulton County do not register to
vote at the same rate as Caucasians, a random selection
from the voter registration list did not result in a master
grand jury wheel which accurately represented the ageeligible African–American community. To remedy this
disparity, and to ensure compliance with the Unified
Appeal Procedure (UAP) applicable in a death penalty
prosecution, jury commissioners employed the process
of “forced balancing.”4 A computer was instructed to
pick names of potential grand jurors from the voter
registration list based on race, gender, and age in order
to comply with the five percentage point requirements of
UAP II(E).
The statutory procedures for creating the grand
jury list are found at OCGA § 15–12–40, et seq. 5 This
4. Under UAP II(C)(6), a trial court in a death penalty case is
required to compare the percentages of cognizable groups on the
grand jury source list with the percentages of those groups in the
population as measured by the most recent census, to certify that
there is “no significant under-representation,” and to correct any
such under-representation. Under UAP II(E), the difference in
those percentages must be less than five percentage points. See
Ramirez v. State, 276 Ga. 158(3), 575 S.E.2d 462 (2003).
5. OCGA § 15–12–40(a) was revised effective July 1, 2000,
requiring jury commissioners to make use of lists of county
residents who are holders of drivers’ licenses, personal identification
cards issued by the Department of Public Safety, registered voters
lists, and other lists deemed appropriate, in compiling revisions
to the grand jury and trial jury lists. At the time of Al–Amin’s

110a
Appendix E
Court has consistently held that the use of forced racial
balancing is not violative of a defendant’s statutory rights.
See Ramirez v. State, 276 Ga. 158(1); 575 S.E.2d 462
(2003) (Court approved a grand jury selection procedure
fixing the percentage of African–American persons on
the grand jury source list to the percentage of African–
American persons in the county as reported in the most
recent census in accordance with the requirements of the
UAP); Yates v. State, 274 Ga. 312(5), 553 S.E.2d 563 (2001)
(Court approved forced balancing to ensure that the racial
balance in a grand or traverse jury pool reflects the racial
balance in the county population); and Gissendaner v.
State, 272 Ga. 704(5), 532 S.E.2d 677 (2000) (forced racial
balancing is not unlawful).
Al–Amin further asserts that the process of forced
balancing violates his right to equal protection. To succeed
on an equal protection challenge in the context of grand
jury selection, defendant must show (1) that the group
is a recognizable, distinct class; (2) the degree of underrepresentation by comparing the proportion of the group
in the total population to the proportion called to serve
as grand jurors; and (3) that the selection procedure
is susceptible of abuse or is not racially neutral, thus
supporting a presumption of discrimination raised by the
statistics. Castaneda v. Partida, 430 U.S. 482, 97 S.Ct.
1272, 51 L.Ed.2d 498 (1977); Ramirez, supra. See also
Morrow v. State, 272 Ga. 691(1), 532 S.E.2d 78 (2000).
indictment on March 28, 2000, jury commissioners were only to
look to the voter registration list in the county in composing the
grand jury list, former OCGA § 15–12–40(a).

111a
Appendix E
In Ramirez, supra, we rejected defendant’s equal
protection claim arising from the use of the county’s
forced balancing system. We explained that where the
source list “was constructed in accordance with the
[UAP], specifically with the intent to equally represent
the cognizable groups in [the county] as measured by
the most comprehensive and objective source available
at the time the list was constructed [the 1990 census],”
id. at 161, 575 S.E.2d 462, Ramirez failed to establish the
third element of a prima facie claim of an equal protection
violation—that the grand jury selection process was
susceptible of abuse or was not racially neutral. See also
Meders v. State, 260 Ga. 49, 56, 389 S.E.2d 320 (1990)
(Benham, J., concurring). It follows that Al–Amin’s equal
protection claim fails under both the federal and Georgia
constitutions.
3. Al–Amin claims that his rights to equal protection
and to a fair cross-section of jurors were violated because
the master grand jury wheel grid had no category for
potential grand jurors 65 years and over who were neither
African–American nor Caucasian, but were categorized
as “other” for racial purposes. Jury commissioners
testified that such individuals were not included because
they represented such a small fraction of the population
that even the inclusion of one would amount to overrepresentation. To make a prima facie showing of a fair
cross-section violation as well as an equal protection
violation, Al–Amin was required to show, in part, that
those who are both over the age of 65 and are not African–
American or Caucasian were a cognizable group; and
such persons were under-represented over a significant

112a
Appendix E
period of time. Ramirez, supra at 159–161(1)(b),(c). He has
established neither.
4. Al–Amin also asserts that his right to a fair crosssection of jurors was violated by the alleged systematic
and substantial under-representation of the Hispanic/
Latino community in the master petit jury wheel from
which his petit jurors were selected.6
Evidence presented on this issue established that the
absolute disparity of Hispanics/Latinos (the difference
between the Hispanic/Latino percentage of the jury pool
and the Hispanic/Latino percentage of the community)
was 1.84 percent, well within constitutional requirements
and the five percent permitted by the UAP. See Cook v.
State, 255 Ga. 565(11), 340 S.E.2d 843 (1986); Smith v.
State, 275 Ga. 715(1), 571 S.E.2d 740 (2002); Morrow,
supra at 692(1) (defendant must show “wide absolute
disparity” between percentage in the population and in the
jury pool). Al–Amin urges that a comparative disparity
method be applied (the absolute disparity divided by the
percentage of the Hispanic/Latino community), which
would show that the age eligible and citizen eligible
Hispanic/Latino community was under-represented by 67
percent. However the comparative disparity method has
6. In Congdon v. State, 261 Ga. 398(2), 405 S.E.2d 677 (1991),
this Court acknowledged that a criminal defendant has standing
to raise an equal protection claim with respect to race-based
exclusions of petit jurors, whether or not the defendant and the
excluded juror share the same race. The same rule applies to
equal protection challenges alleging systematic exclusion of grand
jurors. Campbell v. Louisiana, 523 U.S. 392, 118 S.Ct. 1419, 140
L.Ed.2d 551 (1998).

113a
Appendix E
been expressly criticized, and we decline to apply it here.
Cook, supra at 570(11). See also United States v. Pepe,
747 F.2d 632, 649 (11th Cir. 1984); Godfrey v. Francis, 613
F.Supp. 747 (N.D.Ga.1985).
The trial court found that Hispanic/Latino citizens
were a cognizable group for Sixth Amendment fair
cross-section analysis in Al–Amin’s case, see Smith,
supra at 716(1); Castenada, supra, but it concluded that
the evidence presented failed to demonstrate this group
was systematically excluded from the jury pool. We find
no error. Morrow, supra at 692(1); Smith, supra at 716(1).
5. Al–Amin claims that the statutory exclusion of
non-citizens, OCGA § 15–12–40.1, reduced the Hispanic/
Latino population in Fulton County and thus violated his
fair cross-section rights under the Sixth Amendment.
A potential juror must be a citizen of the United States
in order to serve. OCGA § 15–12–40.1. Therefore, eligible
population statistics, not gross population figures, must
be considered. Al–Amin has not established error in the
composition of the jury pool on this ground. See Smith,
supra at 723(5).
6. Because the voter registration list was the sole
source of names for the petit jury, Al–Amin asserts
that the result was a substantial under-representation
of African–American persons and a substantial overrepresentation of Caucasian persons, in violation of the
Sixth Amendment and the UAP requirements.7
7. His argument is premised on evidence that an inordinate
portion of African–American registered voters were inactive

114a
Appendix E
As shown previously, prior to July 1, 2000, voter
lists were appropriate sources for potential jurors.
Former OCGA § 15–12–40(a). And the list required
supplementation only if it failed to represent a fair crosssection of the community. See Lipham v. State, 257 Ga.
808(5), 364 S.E.2d 840 (1988). “A defendant has no right
to a jury selected from a list which perfectly mirrors
the percentage structure of the community. What is
required is a list which represents a fair cross-section of
the community and which is not the product of intentional
racial or sexual discrimination.” Cook, supra at 573, 340
S.E.2d 843. Al–Amin has not established that use of the
voter registration list fails to result in a fair cross-section
of the eligible members of the community.
7. We reject the claim that reversal of Al–Amin’s
convictions is required because jury selection officials
systematically violated statutory authority for the
selection of petit jurors, as well as a court-ordered plan
established pursuant to that authority, which resulted in
the exclusion of eligible citizens. See OCGA § 15–12–42(b)
(1) (chief judge of the superior court may establish a plan
for selection of jurors by mechanical and electronic means).
“Statutes regulating the selection, drawing, and
summoning of jurors are intended to distribute jury duties
among the citizens of the county, provide for rotation in
jury service, and are merely directory. Obviously, however,
a disregard of the essential and substantial provisions of
voters, while Caucasians were over-represented on the active
voter list and under-represented on the inactive list.

115a
Appendix E
the statute will have the effect of vitiating the array.”
(Punctuation omitted.) Meders, supra at 53, 389 S.E.2d
320. The trial court found that the jury commissioners
did not violate or disregard any essential and substantial
statutory provisions. We agree that the allegations of
non-compliance with the plan do not constitute substantial
violations and do not require reversal. We find no abuse
of the trial court’s discretion. Id.
8. It is asserted that the trial court erred in failing
to sever the two weapons possession counts (unlawful
possession of a firearm by a convicted felon, and felony
murder predicated on unlawful possession of a firearm by
a convicted felon), or alternatively, to order a bifurcated
trial of these counts, on the basis that inclusion of these
counts impermissibly placed defendant’s character in
issue.
The trial court correctly determined that the
possession charge was material in that it served as
the predicate offense for felony murder. Under such
circumstances, a bifurcated trial is not required. George
v. State, 276 Ga. 564(3), 580 S.E.2d 238 (2003); Johnson
v. State, 275 Ga. 508(2), 570 S.E.2d 292 (2002); Jones v.
State, 265 Ga. 138(2), 454 S.E.2d 482 (1995). It follows that
the trial court did not abuse its discretion in refusing to
grant the requested relief.
9. The State introduced into evidence a cover letter
attached to the Cobb County bench warrant which
contained the following notation: “AGG ASSAUL; POSS
ARMED.” Al–Amin asserts the trial court erred in

116a
Appendix E
denying his motion to redact the statement which falsely
suggests that he had been charged with aggravated
assault in Cobb County, and that the failure to redact
impermissibly placed his character in evidence.
The document was introduced into evidence along
with a limiting instruction informing the jury that both
parties agree the reference to aggravated assault “was
not accurate,” and setting forth the correct Cobb County
charges. As for the further notation that the suspect was
possibly armed, the information is relevant to show that
the accused had a motive for shooting the officers who were
there to effect a lawful arrest. See generally Groves v.
State, 175 Ga. 37(2), 164 S.E. 822 (1932). “ ‘Evidence which
is relevant and responsive but which minimally places
the character of the defendant into issue, is nevertheless
admissible where the relevance of the testimony outweighs
any prejudice it may cause. (Cits.)’ [Cit.]” Roebuck v. State
277 Ga. 200, 205(5), 586 S.E.2d 651 (2003). We find no
error.
10. In reliance on Carr v. State, 267 Ga. 701(1), 482
S.E.2d 314 (1997), overruled on other grounds in Clark v.
State, 271 Ga. 6(5), 515 S.E.2d 155 (1999), Al–Amin asserts
that the trial court erred in admitting evidence that he
was tracked by dogs when he was arrested in Alabama
because there was no scientific evidence shown of the
reliability of the evidence.
In Carr, supra, we held that evidence of the use of a
dog trained to alert to the presence of accelerants is not
admissible in the absence of a showing that the evidence

117a
Appendix E
has reached the “state of verifiable certainty” required by
Harper v. State, 249 Ga. 519(1), 292 S.E.2d 389 (1982). The
Harper requirement was imposed in Carr, supra, because
the testimony concerning the dog alert was offered as
substantive evidence of the presence of accelerants, and
thus bore directly on the guilt of the accused on arson and
murder charges. Because that type of expert testimony
is not one that the average layperson could determine
for himself, we held that the analysis and data gathering
leading to the testimony should have been subject to the
requirements of scientific verifiability required under
Harper, supra. Carr, supra at 703, 482 S.E.2d 314.
Unlike Carr, the issue now before the Court turns on
“testimony regarding use of dogs to flush defendant out
of a wooded area ... [It] was not germane to the question
of whether defendant committed the crimes charged ...
[but] was relevant only to prove the manner in which law
enforcement officers apprehended [the] suspect.” Ingram
v. State, 211 Ga.App. 821(1), 441 S.E.2d 74 (1994). Because
this is evidence which is within the ken of the average
layperson, it was not necessary that the Harper standards
be met. Carr, supra at 703, 482 S.E.2d 314.
11. Nor did the court err in refusing to conduct a
Harper hearing regarding the admissibility of firearms/
ballistic/tool marks evidence. “Once a procedure has been
recognized in a substantial number of courts, a trial judge
may judicially notice, without receiving evidence, that the
procedure has been established with verifiable certainty,
or that it rests upon the laws of nature.” Harper, supra
at 526(1), 292 S.E.2d 389. The ballistics evidence was

118a
Appendix E
introduced through the testimony of a properly qualified
expert. Such ballistics evidence “is not novel, and has been
widely accepted in Georgia courts.” Whatley v. State, 270
Ga. 296, 299(6), 509 S.E.2d 45 (1998). 8 It follows that the
trial court was authorized to accept the expert’s testimony
and that a Harper hearing was not required.
12. It is asserted that FBI Special Agent Campbell,
who was part of the federal task force which apprehended
Al–Amin, gave substantially misleading testimony at the
behest of the prosecution, in violation of defendant’s due
process rights. The undisputed evidence showed that after
8. Such evidence has also been widely accepted in other
jurisdictions. In United States v. Foster, 300 FSupp2d 375, n.
1 (D.Md.2004), the court observed that [b]allistics evidence
has been accepted in criminal cases for many years. The first
comprehensive textbook of ballistics, Firearms Investigation,
Identification and Evidence, was published by Major Julian S.
Hatcher in 1935.... [N]umerous cases have confirmed the reliability
of ballistics identification. See, e.g., United States v. Santiago, 199
FSupp2d 101, 111 (S.D.N.Y.2002) ( “The Court has not found a
single case in this Circuit that would suggest that the entire field
of ballistics identification is unreliable.... To the extent that [the
defendant] asserts that the entire field of ballistics identification
is unacceptable ‘pseudo-science,’ the Court disagrees.”); United
States v. Cooper, 91 FSupp2d 79, 82–83 (D.D.C.2000) (implying
that ballistics identification involves “well-established” scientific
principles); United States v. Davis, 103 F.3d 660, 672 (8th Cir.1996)
(upholding the use of expert testimony to link bullets recovered
from a crime scene to a firearm associated with the defendant); cf.
United States v. Scheffer, 523 U.S. 303, 313–314, 118 S.Ct. 1261,
140 L.Ed.2d 413 (1998) (contrasting polygraph evidence with other
more accepted fields of expert testimony, including ballistics).

119a
Appendix E
Al–Amin had been arrested and handcuffed, Campbell
spit at him and kicked him. At trial, the prosecutor elicited
testimony from Campbell on direct examination that he
had been “suspended pending dismissal” for that conduct
and that the FBI “intends” to fire him. Al–Amin asserts
that this testimony was substantially misleading because
Campbell was later to receive only a 60–day suspension
for his misconduct.
“‘Conviction of a crime following a trial in which
perjured testimony on a material point is knowingly used
by the prosecution is an infringement on the accused’s
Fifth and Fourteenth Amendment rights to due process
of law.’ [Cit.]” Gates v. State, 252 Ga.App. 20, 21(1), 555
S.E.2d 494 (2001). See also Napue v. Illinois, 360 U.S. 264,
79 S.Ct. 1173, 3 L.Ed.2d 1217 (1959). Despite Al–Amin’s
protestations to the contrary, we are not persuaded that
the testimony in issue was material to the issues on trial.
But even if it could be said that testimony that the FBI
intended to fire Campbell was material, it was established
at the hearing on the motion for new trial that the FBI
did not make a final decision as to what penalty would be
imposed until after the conclusion of trial. Consequently,
Al–Amin failed to show the knowing use of perjured
testimony by the prosecution. Gates, supra.
13. Al–Amin also contends that the State violated his
rights under Brady v. Maryland9 and Georgia discovery
statutes by failing to produce FBI records relating to the
internal investigation of Special Agent Campbell. These
9. 373 U.S. 83, 83 S.Ct. 1194, 10 L.Ed.2d 215 (1963).

120a
Appendix E
documents were sought to support the defense theory
that Campbell planted evidence to incriminate Al–Amin.
In response to a defense subpoena, the FBI turned
over to the trial court certain documents relating to
their investigation of Campbell. During trial, the court
examined the documents in camera, disclosed to Al–Amin
all relevant portions, and sealed what the court deemed
irrelevant. The court did so under the Georgia discovery
statute, and on general grounds of fairness, noting that the
material would not necessarily have been subject to Brady.
Al–Amin had the opportunity to cross-examine Campbell
as well as other federal agents regarding Campbell’s
conduct and the subsequent investigation.
This issue was revisited during the hearing on
the motion for new trial, at which time the trial court
reviewed in camera and turned over to the defense all the
documents produced by the FBI in response to Al–Amin’s
post-trial request. The court noted that these documents
were entirely consistent with Campbell’s trial testimony.
Al–Amin conjectures that the FBI failed to produce every
document in its possession pertaining to the Campbell
investigation, and that somehow the State is under a duty
to remedy the alleged omission. Even assuming arguendo
that all relevant documents in the possession of the FBI
were not produced, “a state criminal defendant, aggrieved
by the response of a federal law enforcement agency made
under its regulations, may assert his constitutional claim
to the investigative information before the district court,
which possesses authority under the [Administrative

121a
Appendix E
Procedure Act]10 to compel the law enforcement agency to
produce the requested information in appropriate cases.”
United States v. Williams, 170 F.3d 431, 434 (4th Cir.1999).
Thus, the remedy lies in federal court.
With regard to the material produced by the FBI but
which the trial court deemed irrelevant and refused to
disclose to the defense, we perceive no Brady violation
or error under Georgia law.
14. Al–Amin contends that the trial court improperly
restricted cross-examination of Special Agent Campbell
regarding his shooting of another suspect in an unrelated
case in Philadelphia in 1995.
Specific instances of prior misconduct may not be used
to impeach the character or veracity of a witness “unless
the misconduct has resulted in the conviction of a crime
involving moral turpitude.” (Punctuation omitted.) Allen
v. State, 275 Ga. 64, 68(3), 561 S.E.2d 397 (2002). See also
OCGA § 24–9–84. In Pruitt v. State, 270 Ga. 745(21), 514
S.E.2d 639 (1999), under very similar circumstances, the
defense sought to cross-examine the State’s chief police
investigator concerning his misconduct in an unrelated
matter when he allowed a DUI suspect to avoid arrest
and prosecution as a favor to another officer. The defense
claimed that the evidence was relevant to show that
the investigator may have tampered with evidence in
Pruitt’s murder prosecution. The trial court disallowed
questioning about the prior incident. We affirmed that
10. See 5 USC §§ 701–706.

122a
Appendix E
ruling, holding that “the DUI case was wholly unrelated to
Pruitt’s case; questioning about this incident was obviously
and solely intended to diminish [the officer’s] credibility as
a witness. [The officer] was not convicted of any crime in
the DUI incident, and impeaching a witness with specific
acts of bad character is not permissible.” Id. at 754, 514
S.E.2d 639.
In the case now before the Court, the trial court
excluded evidence of the 1995 incident on the basis
that Campbell had not been prosecuted for the alleged
misconduct, and that any probative value was far
outweighed by the danger of unfair prejudice. “While a
defendant is entitled to effective cross-examination, he
is not entitled to unfettered cross-examination, and the
trial court has broad discretion in limiting its scope.”
Allen, supra at 68, 561 S.E.2d 397. We find no abuse of
that discretion for any of the reasons advanced.
15. It is asserted that during closing argument the
prosecutor impermissibly commented on the failure of Al–
Amin to testify, in violation of his Fifth Amendment right
against self-incrimination, and the concomitant statutory
right contained in OCGA § 24–9–20(b). We agree, but we
find that the error, although of a constitutional magnitude,
was harmless beyond a reasonable doubt.
During closing argument, the prosecutor told the
jury, “I want to leave you with a few questions you should
have for the defendant.” He then displayed a chart which
contained a series of seven “questions for the defendant.”
In addressing those questions, the prosecutor argued,

123a
Appendix E
inter alia, “Mr. defendant, how did those murder weapons
get there to Whitehall.... How did your Mercedes get to
Whitehall.... Did you drive it there?” At that point, the
defense moved for a mistrial, asserting that the argument
violated Al–Amin’s right to remain silent under both
federal and Georgia law. The trial court denied the motion
and invited the defense to propose a curative instruction; it
declined to do so. The prosecutor then altered the caption
on the chart to state, “questions for the defense,” and
he continued with his closing. The defense renewed its
motion for mistrial, which was again denied. The defense
then requested a curative instruction from the court.
In response, the court instructed the jury that closing
argument is not evidence; that a criminal defendant is
under no duty to present evidence and is not required to
testify; that no adverse inference should be drawn if a
defendant elects to remain silent; that the burden always
remains on the State to prove guilt beyond a reasonable
doubt; and the prosecution may not comment on the failure
of the defendant to testify.11 A renewed motion for mistrial
was denied. The prosecutor continued its argument,
reiterating that the defendant is not obligated to present
evidence; and that burden rests at all times with the State.
As a rule of both constitutional law and Georgia
statutory law, a prosecutor may not make any comment
upon a criminal defendant’s failure to testify at trial.
Griffin v. California, 380 U.S. 609, 615, 85 S.Ct. 1229, 14
L.Ed.2d 106 (1965); OCGA § 24–9–20(b). This rule ensures
11. These instructions were repeated in the final charge to
the jury.

124a
Appendix E
that the State does not impose “a penalty” for or make
“costly” the exercise of the constitutional right to remain
silent. 380 U.S. at 614, 85 S.Ct. 1229. Raheem v. State,
275 Ga. 87, 92(7), 560 S.E.2d 680 (2002). Here, Al–Amin’s
constitutional and statutory rights were violated when the
prosecutor in effect engaged in a mock cross-examination
of the accused who had invoked his right to remain silent.
Improper reference to a defendant’s silence, however,
does not automatically require reversal. [Cits.] Assuming
that a defendant has preserved the point by proper
objection, the error may be harmless beyond a reasonable
doubt. [Cits.] The determination of harmless error must
be made on a case by case basis, taking into consideration
the facts, the trial context of the error, and the prejudice
created thereby as juxtaposed against the strength of the
evidence of defendant’s guilt.
Hill v. State, 250 Ga. 277, 283(4), 295 S.E.2d 518 (1982).
See also Chapman v. California, 386 U.S. 18, 87 S.Ct. 824,
17 L.Ed.2d 705 (1967).
Al–Amin’s guilt was overwhelmingly established
through the eyewitness identification by Deputies Kinchen
and English, as well as by the vast amount of physical
evidence tying defendant to the crimes. The jury was
promptly given a lengthy instruction setting forth the
correct principles of law. Compare Salisbury v. State,
221 Ga. 718(5), 146 S.E.2d 776 (1966) and Spann v. State,
126 Ga.App. 370(2), 190 S.E.2d 924 (1972) (the error was
deemed harmful in the absence of any effort by the trial
court to correct the injury the improper remark caused

125a
Appendix E
the defendant). The strength of the evidence against
Al–Amin coupled with the contemporaneous curative
instruction leads this Court to conclude that the violation
here was harmless beyond a reasonable doubt. Chapman
v. California, supra; Raheem, supra at 92(7); Hill, supra
at 283(4).
16. Al–Amin challenges the prosecutor’s closing
argument in other respects.
(a) It is asserted that the prosecutor misstated the
testimony given by a State’s witness. What is impermissible
is “the injection into the argument of extrinsic and
prejudicial matters which have no basis in the evidence.”
(Punctuation omitted.) Bell v. State, 263 Ga. 776, 777,
439 S.E.2d 480 (1994). Here the prosecutor imprecisely
restated the description given by Deputy Kinchen of his
assailant to one of the EMTs on the scene. The EMT
testified that Deputy Kinchen told him that he and his
partner were in the process of serving a warrant “when
the suspect opened up on us.” The prosecutor misstated
the EMT’s testimony by recounting that Deputy Kinchen
identified his assailant as “the guy on the warrant.” Upon
objection by the defense, the trial court instructed the
jury that the attorneys in good faith are recalling the
evidence, but closing arguments are not evidence and in
the end the evidence is what the jury determines it to be.
We find no error.
(b) Al–Amin asserts that he was entitled to a mistrial
when at the conclusion of the State’s closing argument,
the prosecutor stated, “don’t stand for him,” alluding to

126a
Appendix E
Al–Amin’s religious beliefs which prevented him from
rising when the jury entered the courtroom. The record
reveals that several times during trial, the court offered
to instruct the jury that as an observant Muslim, Al–Amin
is prevented by his religious beliefs from standing in the
courtroom. On each occasion, the defense declined. The
defense ultimately accepted the court’s offer to explain
this conduct during the jury charge at which time the jury
was instructed that the defendant is a practicing Muslim,
that he has elected not to stand because of his religious
beliefs, and that his conduct has the court’s approval.
Al–Amin was not harmed by the prosecutor’s comments.
(c) Although it is asserted that the cumulative effect
of the errors in closing argument deprived defendant of
a fair trial, Georgia does not follow a cumulative error
rule of prejudice. Morrison v. State, 276 Ga. 829(5), 583
S.E.2d 873 (2003).
(d) Any remaining assertions of error with respect
to the State’s closing argument were not preserved for
review. See Mullins v. State, 270 Ga. 450(2), 511 S.E.2d
165 (1999).
17. During cross-examination of a State’s witness,
defense counsel elicited testimony that the witness had
grown up in the West End community; counsel then asked
the witness if he had seen how the neighborhood had
changed. Anticipating that the questioning was leading
to Al–Amin’s role in community improvement, the State
requested a bench conference and asked the trial court
for a ruling as to whether such evidence would open the

127a
Appendix E
“character door.” The defense objected but discontinued
that line of questioning. After further argument on the
issue, the court ruled that testimony concerning Al Amin’s
positive influence in the community would constitute
evidence of good character under State v. Braddy, 254 Ga.
366, 330 S.E.2d 338 (1985), and would permit the State
to offer rebuttal evidence. On appeal, Al–Amin asserts
that the court erred in its ruling, and that the error was
amplified when the State introduced evidence that the
reaction of the community to the crime was “unusual” in
that no onlookers were present when the police arrived at
the scene of the crime, thus implying that local witnesses
feared the defendant.
“[W]here the defendant offers testimony of a witness
as to his general good reputation in the community, the
State may prove the defendant’s general bad reputation in
the community, and may additionally offer evidence that
the defendant has been convicted of prior offenses under
the authority of OCGA § 24–9–20(b).” Jones v. State, 257
Ga. 753, 758(1), 363 S.E.2d 529 (1988). “[I]t is possible for
a criminal defendant to put his character in issue while
cross-examining a [S]tate’s witness.” Franklin v. State,
251 Ga. 77, 81(2), 303 S.E.2d 22 (1983).
In Braddy, supra at 366–367, 330 S.E.2d 338, this
Court addressed the question of whether evidence of
a defendant’s impact on the community constituted
character evidence:
The character of a defendant in most criminal cases is
a substantive issue. [Cit.] A party can establish character

128a
Appendix E
by showing the community’s perception of the defendant—
his reputation, things the defendant has done—specific
acts, and what a witness thinks personally about the
defendant. The rules of evidence determine, by attempting
to balance the truth seeking function with the interest
of fairness, which method a party may use to establish
character in a given situation. See 1A Wigmore, Evidence
§ 52, at 1148. (Tillers Revision, 1983).
Based on the foregoing, the trial court correctly
determined that if the defense had pursued its questioning
of the witness concerning Al–Amin’s positive contributions
to the West End community, the defense would have made
“an election to place his good character in issue.” Jones,
supra at 758, 363 S.E.2d 529.
Evidence as to the reaction of the community merely
described the crime scene and results of the investigation,
both of which were relevant and admissible. See generally
Corza v. State, 273 Ga. 164(2), 539 S.E.2d 149 (2000) (State
is entitled to present evidence of the entire res gestae
of a crime; this is so even if the defendant’s character is
incidentally placed in issue). Al–Amin has not established
that the trial court abused its discretion in admitting the
evidence.
18. When Al–Amin was arrested, he was approached
by an FBI agent who identified himself as a medic and
asked him if he was injured. Al–Amin responded that he
was “out of breath.” He now contends that the court erred
in admitting this statement because it was given without
Miranda warnings, and it was not revealed to the defense

129a
Appendix E
prior to trial as required by the Georgia discovery statute,
codified at OCGA § 17–16–4(a)(1).
The trial court determined that the question was
asked for the sole purpose of assessing whether the
suspect required medical aid, and was unrelated to
the police investigation. The court then admitted the
testimony only as it relates to a physical assessment of
the suspect, and prohibited the State from drawing any
inferences from it.
(a) Miranda warnings are required “not where a
suspect is simply taken into custody, but rather where
a suspect in custody is subjected to interrogation.”
Rhode Island v. Innis, 446 U.S. 291, 300, 100 S.Ct.
1682, 64 L.Ed.2d 297 (1980). In this context, the term
“interrogation” refers not just to express questioning,
but also to questioning that the police should know is
“reasonably likely to elicit an incriminating response from
the suspect.” Id. at 301, 100 S.Ct. 1682; Lucas v. State, 273
Ga. 88(2), 538 S.E.2d 44 (2000). Unless the police know
that the suspect is susceptible to questions concerning his
health, or unless the suspect’s health is somehow related
to a crime that the police believe he committed, it is
unlikely that questions concerning the suspect’s physical
health would elicit an incriminating response. See United
States v. Robles, 53 M.J. 783, 790(II)(b) (2000) (holding
that under the Innis definition of interrogation, inquiring
about a suspect’s health is not the functional equivalent
of questioning). See also Colon v. State, 256 Ga.App.
505(1), 568 S.E.2d 811 (2002) (police officers have the
responsibility to ask medical questions as part of routine

130a
Appendix E
booking in order to fulfill the government’s obligation to
provide medical treatment to one in custody, and such
routine booking questions are generally considered
exempt from Miranda). Because the question posed by
the medic related only to Al–Amin’s physical condition
and was not likely to elicit an incriminating response,
Miranda warnings were not required. Innis, supra, 446
U.S. at 300, 100 S.Ct. 1682; Colon, supra at 505(1).
(b) Even assuming arguendo that OCGA § 17–16–4(a)
(1) requires pretrial disclosure of the statement, Al–Amin
has not shown that he was prejudiced by the lack of
pretrial disclosure, or that the State acted in bad faith.
Under the circumstances, the State was not prohibited
from introducing the statement into evidence. OCGA
§ 17–16–6; Simmons v. State, 271 Ga. 563(3), 522 S.E.2d
451 (1999); Felder v. State, 270 Ga. 641(6), 514 S.E.2d 416
(1999).
19. Al–Amin contends that the court erred in excluding
on hearsay grounds the statements of two individuals who
spoke to police investigators on the night of the shootings,
and who were unavailable to testify.
The first was a statement given to an investigating
officer by an elderly neighbor who said she heard
gunfire at about 10:00 p.m. (the time established that the
deputies were shot), and that five to ten minutes later, she
heard a vehicle drive away at a high rate of speed. The
neighbor was not able to testify due to ill health, and the
defense sought to introduce her statements through the
investigating officer under the necessity exception to the
hearsay rule. OCGA § 24–3–1(b).

131a
Appendix E
The second was an unknown declarant who told an
officer on the night of the shooting that “someone just
ran through here, but don’t tell anybody I told you this”;
the officer did not note the name of the individual. Al–
Amin argued that this statement was admissible under
the necessity exception, or alternatively, as an excited
utterance as part of the res gestae exception to the rule
against hearsay. OCGA § 24–3–3.
Neither of the statements were admissible under the
necessity exception.12
In order to introduce any hearsay statement under the
necessity exception, (1) the declarant must be unavailable
to testify; (2) there must be particularized guarantees of
the statement’s trustworthiness; and (3) the statement
must be both relevant to a material fact and more probative
regarding that fact than any other evidence concerning
appellant’s motive for the crimes.... Merely because [the
declarant] made his statement to police within hours
of the shooting and never recanted or contradicted his
statement does not, standing alone, demonstrate that
the statement was sufficiently trustworthy to warrant its
admission under the necessity exception. Only where “the
declarant’s truthfulness is so clear from the surrounding
circumstances that the test of cross–examination would
be of marginal utility” does the hearsay rule not bar
admission of a hearsay statement at trial.
12. Because the Sixth Amendment’s Confrontation Clause
is not implicated where the proponent of the hearsay is the
defendant, the recent decision of the United States Supreme
Court in Crawford v. Washington, 541U.S. 36, 124 S.Ct. 1354, 158
L.Ed.2d 177 (2004) is inapplicable here.

132a
Appendix E
Phillips v. State, 275 Ga. 595, 597(4), 571 S.E.2d 361
(2002). The same rule applies when a defendant is the
proponent of the hearsay. Turner v. State, 267 Ga. 149(3),
476 S.E.2d 252 (1996).
The trial court correctly determined that with
respect to the statement of the neighbor, the defense
failed to carry its burden of demonstrating particularized
guarantees of trustworthiness. Phillips, supra at 597(4).
In addition, the evidence would have been cumulative of
the testimony given by several witnesses that gunfire was
heard at 10:00 p.m., and a vehicle (dissimilar to Al–Amin’s)
was seen driving away from the scene several minutes
later. Thus, the excluded evidence was not more probative
of the fact for which it was offered than other properly
admitted evidence. Id.
Likewise, there was absolutely no showing of reliability
with respect to the statement of the anonymous declarant.
Nor did the anonymous statement qualify as an excited
utterance. To be admissible as an excited utterance,
the proponent of the hearsay must show that the event
precipitating the statement was “sufficiently startling
to render inoperative the declarant’s normal reflective
thought processes, and the declarant’s statement must
have been the result of a spontaneous reaction.” Walthour
v. State, 269 Ga. 396, 397(2), 497 S.E.2d 799 (1998). See
also Lindsey v. State, 271 Ga. 657(2), 522 S.E.2d 459 (1999).
Al–Amin failed to meet this burden.
The trial court correctly determined that the hearsay
statements were not admissible for the reasons advanced.

133a
Appendix E
Judgment affirmed.
All the Justices concur.

